<html>
<title> - THE ROLE OF TECHNOLOGY IN PREVENTING THE ENTRY OF TERRORISTS INTO THE UNITED STATES</title>
<body><pre>[Senate Hearing 107-611]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-611
 
 THE ROLE OF TECHNOLOGY IN PREVENTING THE ENTRY OF TERRORISTS INTO THE 
                             UNITED STATES
=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON TECHNOLOGY, TERRORISM,
                       AND GOVERNMENT INFORMATION

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 12, 2001
                               __________

                          Serial No. J-107-43
                               __________

         Printed for the use of the Committee on the Judiciary



                        U.S. GOVERNMENT PRINTING OFFICE
81-248                          WASHINGTON : 2002
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001










                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
EDWARD M. KENNEDY, Massachusetts     ORRIN G. HATCH, Utah
JOSEPH R. BIDEN, Jr., Delaware       STROM THURMOND, South Carolina
HERBERT KOHL, Wisconsin              CHARLES E. GRASSLEY, Iowa
DIANNE FEINSTEIN, California         ARLEN SPECTER, Pennsylvania
RUSSELL D. FEINGOLD, Wisconsin       JON KYL, Arizona
CHARLES E. SCHUMER, New York         MIKE DeWINE, Ohio
RICHARD J. DURBIN, Illinois          JEFF SESSIONS, Alabama
MARIA CANTWELL, Washington           SAM BROWNBACK, Kansas
JOHN EDWARDS, North Carolina         MITCH McCONNELL, Kentucky
       Bruce A. Cohen, Majority Chief Counsel and Staff Director
                  Sharon Prost, Minority Chief Counsel
                Makan Delrahim, Minority Staff Director
                                 ------                                

   Subcommittee on Technology, Terrorism, and Government Information

                DIANNE FEINSTEIN, California, Chairwoman
JOSEPH R. BIDEN, Jr., Delaware       JON KYL, Arizona
HERBERT KOHL, Wisconsin              MIKE DeWINE, Ohio
MARIA CANTWELL, Washington           JEFF SESSIONS, Alabama
                                     MITCH McCONNELL, Kentucky
                 David Hantman, Majority Chief Counsel
                Stephen Higgins, Minority Chief Counsel













                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Cantwell, Hon. Maria, a U.S. Senator from the State of Washington    41
DeWine, Hon. Mike, a U.S. Senator from the State of Ohio.........    11
Feinstein, Hon. Dianne, a U.S. Senator from the State of 
  California.....................................................     1
Kyl, Hon. Jon, a U.S. Senator from the State of Arizona..........     6
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.   105

                               WITNESSES

Camarota, Steven A., Director of Research, Center for Immigration 
  Studies, Washington, D.C.......................................    54
Collier, M. Paul, Executive Director, Biometrics Foundation, 
  Gaithersburg, Maryland.........................................    89
Doonan, Tony, Vice President, Automated Fingerprint 
  Identification Systems; accompanied by Greg Spadorcio, 
  Director, Business Solutions, NEC Technologies, Inc., Gold 
  River, California..............................................    74
Fine, Glenn A., Inspector General, Department of Justice, 
  Washington, D.C................................................    13
Ryan, Mary A., Assistant Secretary for Consular Affairs, 
  Department of State, Washington, D.C...........................    33
Ward, David, President, American Council on Education, 
  Washington, D.C................................................    65
Ziglar, James W., Commissioner, Immmigration and Naturalization 
  Service, Department of Justice, Washington, D.C................    24

                       SUBMISSIONS FOR THE RECORD

Goode, Ted, Director of Services for International Students and 
  Scholars, University of California at Berkeley, Berkeley, 
  California, statement..........................................   104
Immigration and Naturalization Service, Department of Justice, 
  Washington, DC, visa information on terrorist hijackers of 
  September 11, 2001, list.......................................   105
Oracle Corporation, Larry Ellison, Chairman and Chief Executive 
  Officer, Redwood Shores, CA, letter............................   106









 THE ROLE OF TECHNOLOGY IN PREVENTING THE ENTRY OF TERRORISTS INTO THE 
                             UNITED STATES

                              ----------                              


                        FRIDAY, OCTOBER 12, 2001

                              United States Senate,
     Subcommittee on Technology, Terrorism, and Government 
                   Information, Committee on the Judiciary,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 10:04 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Dianne 
Feinstein, chairman of the subcommittee, presiding.
    Present: Senators Feinstein, Cantwell, Kyl, and DeWine.

OPENING STATEMENT OF HON. DIANNE FEINSTEIN, A U.S. SENATOR FROM 
                    THE STATE OF CALIFORNIA

    Chairman Feinstein. If I might, I would like to call this 
hearing to order.
    There will be two panels. All written statements will be 
placed in the record. The ranking member is Senator Jon Kyl, 
who sits to my right. We will begin with opening statements and 
then proceed directly to the panels.
    Today, the Subcommittee on Technology, Terrorism and 
Government Information is holding a hearing on the role of 
technology in preventing the entry of terrorists into the 
United States. We hold this hearing in the wake of the 
September 11 terrorist attacks on our Nation. These events have 
triggered concern about the shortcomings of the immigration and 
visa system of our country.
    Just yesterday, the Department of Justice released 
information indicating that 13 of the 19 terrorist hijackers 
had entered the United States legally with valid visas. Of the 
13, 3 of the hijackers had remained in the United States after 
their visas had expired. The INS had no information on six of 
the hijackers.
    I would like to enter that information into the record.
    Clearly, something is wrong with our system. The purpose of 
this hearing is to determine the extent to which gaps in our 
visa and admission system have frustrated efforts to identify 
and bring to justice the perpetrators of these attacks. More 
importantly, we would like to determine the extent to which 
these vulnerabilities will expose us to future attack.
    Today, I see three areas of vulnerability in our 
immigration system: first, an unregulated visa waiver program 
in which 23 million people arrive in this country annually from 
29 different countries with little scrutiny; second, an 
unmonitored non-immigrant visa system in which 7.1 million 
tourists, business visitors, foreign students and temporary 
workers arrive. To date, the INS does not have a reliable 
tracking system to determine how many of these visitors left 
the country after their visas expired.
    Third, among the 7.1 million non-immigrants, 500,000 
foreign nationals entered on foreign student visas. The foreign 
student visa system is one of the most underregulated systems 
we have today.
    I believe most foreign students legitimately come to the 
United States to study, and indeed they provide a great 
contribution, certainly a financial contribution as well as 
others, to our institutions. However, I do have a concern that 
in the last 10 years more than 16,000 students came from 
terrorist-supporting states such as Iran, Iraq, Sudan, Libya 
and Syria.
    Let me give you an example of why this is a problem. In the 
early 1990s, officials at six colleges, three of which were in 
California, were convicted of taking bribes, providing 
counterfeit education documents, and fraudulently applying for 
foreign student visas so that more than 100 foreign nationals 
could gain easy entry to the United States. The officials from 
the six colleges were convicted. Some served time in prison, 
others paid monetary fines and restitution. It is unclear what 
steps INS took to find and deport the foreign nationals 
involved in the scheme.
    There are other examples of the potential for gross misuse 
of the visa system. In 1991, the Washington Post reported that 
United Nations weapons inspectors in Iraq discovered documents 
detailing an Iraqi government strategy to send students to the 
United States and other countries to specifically study 
nuclear-related subjects to develop their own program. One of 
these students, Samir Al Araji, received his doctorate in 
nuclear engineering from Michigan State University. He then 
returned to Iraq to head its nuclear weapons program.
    In 1998, the Richmond Times and New York Times did 
extensive reports on Rihab Taha, the mastermind of Saddam 
Hussein's germ warfare arsenal. Also known as ``Dr. Germ,'' 
Taha studied in England on a student visa. England is one of 
the participating countries in the visa waiver program, which 
means if she could have gotten a fraudulent passport from 
England, she could have come and gone without a visa in the 
United States.
    Now, why do I mention all of this? I think this sounds a 
wake-up call that there are many things in our system that are 
clearly broken. And this isn't a new problem. We have had 
plenty of warning of the weaknesses of our immigration system 
that helped lead to the September 11 attack. In fact, 
vulnerabilities in the system, for example, have been 
documented as far back as 1979, when during the Iranian hostage 
crisis the INS was unable to locate 9,000 of the estimated 
50,000 Iranian students studying in the United States.
    Now, this is a much bigger problem than just students 
because overall more than 30 million temporary visitors enter 
the United States, and that number doesn't take into account 
the 500 million entries at our land borders and ports of entry 
each year. These are people coming into the country, leaving 
the country, some of whom are United States nationals, many of 
whom are from other countries as well. Actually, two-thirds of 
these are non-U.S. citizens.
    What these numbers show is that without an adequate 
tracking system, our country becomes a sieve, which it is 
today, creating ample opportunities for those who would do us 
harm to enter and to establish their operation without 
detection.
    What I would like to get from this hearing is new solutions 
to the ongoing problems. One, the porous nature of our borders, 
along with INS' unreliable recordkeeping, have contributed to 
the agency's inability to keep out criminals and terrorists, 
and certainly their inability to track their whereabouts once 
they are here.
    Secondly, in an era in which terrorists use satellite 
phones and encrypted e-mail, the INS, our Nation's gatekeeper, 
is considered by many observers to still be in the 
technological dark ages. The agency is still using paper files 
and archaic computer systems that are often non-functioning. 
They do not communicate with each other and they do not 
integrate well with other law enforcement systems.
    Third, about 40 to 50 percent of the estimated 7 to 9 
million illegal immigrant population are visa overstayers. 
These are people who enter the United States legally but 
violate the terms of their visas by staying beyond the 
permitted time.
    Fourth, unlike most countries, the United States does not 
require exit visas--only a firm filled out by the visa-holder 
that is often not entered into an INS database for months, and 
in some cases a year later.
    Fifth, the names of applicants are fed into a lookout 
system, a computerized database of some 5.7 million names fed 
and reviewed by the INS, U.S. Customs and the State Department. 
But this system is not failsafe. Because the lookout system 
used by American consular offices is based on a name check 
alone, it is vulnerable to evasion, not to mention document 
fraud and identity theft. An example of that is two of the 
alleged hijackers, Khalid Almidhar and Hawaf Alhazmi, made the 
watch list only after they gained entry to the United States.
    And the watch list has not always helped. Sheik Omar Abdel-
Rahman, the spiritual leader of the men involved in the 1993 
World Trade Center bombing, legally entered the country on a 
visa, although he was already on a watch list of suspected 
terrorists. He was subsequently convicted in a conspiracy to 
blow up the New York World Trade Center.
    Now, what is the conclusion? We are here to examine ways in 
which we can better utilize existing technologies to assist 
these agencies in preventing those who have the intent and who 
would carry out the goal of mass destruction from entering and 
staying in the United States.
    In particular, I am interested in learning more about the 
feasibility of creating tamper-resistant visas and passports 
and establishing a non-immigrant tracking system using 
biometric data to verify the identity of persons seeking to 
enter the United States.
    Along this line, yesterday I met with Larry Ellison, the 
CEO of Oracle. Senator Kyl did, as well. Mr. Ellison has 
offered--and I hope I will have a written statement from him 
and read that when I receive it at a point--well, I do have it. 
``Oracle takes seriously our responsibility in these difficult 
times. As we discussed, Oracle is prepared to provide, free of 
charge, the Oracle software licenses for both testing and 
production of a complete national identification database.''
    Now, what he is saying is that they are prepared to devote 
some 1,500 engineers in a very timely way to put together the 
software of a database which could be entirely voluntary that 
would interrelate with other databases the United States has to 
form a national database.
    One of the things that I think both Senator Kyl and I have 
discovered is that the credit industry of our country has the 
biggest database, and that the credit card is a much better 
identifier than anything we have nationally. Even a pilot's 
license today is just a scrap of paper that the pilot tears out 
of an overall piece of paper, very easily reproduced and 
certainly not at all fraud- or tamper-resistant.
    So we would like to examine today how these new 
technologies could be used to establish an entry/exit system 
that could be integrated with the current lookout systems used 
by the INS, the State Department, and Federal law enforcement 
agencies.
    Finally, we hope our panelists will offer concrete 
suggestions on the steps Congress should take to build the 
technological infrastructure of our Federal agencies so that 
they can better protect the United States ports of entry and 
our borders from future terrorist attack.
    I would like particularly to commend my colleague on my 
right. Senator Kyl and I have worked closely on this 
subcommittee for a number of years, for the past 2 or 3 years 
under his chairmanship, and it has been a great pleasure for 
me. I think his leadership in this area has been important and 
significant, and we look forward to working together to craft 
bipartisan legislation that can come out of this committee to 
solve some of the problems I have just mentioned.
    [The prepared statement of Senator Feinstein follows.]

  Opening Statement of Hon. Dianne Feinstein, a U.S. Senator from the 
                            State California

                              Introduction
    We hold this hearing in the wake of the September 11th terrorist 
attacks on the United States. Those horrific events have triggered 
concern about the shortcomings of the immigration and visa system.
    Just yesterday, the Department of Justice released information 
indicating that 13 of the 19 terrorist hijackers had entered the U.S. 
legally with valid visas. Of the 13, three of the hijackers had 
remained in the U.S. after their visas had expired. The INS had no 
information on 6 of the hijackers.
    Clearly, something tragically went wrong in our immigration system.
    The purpose of this hearing is to determine the extent to which 
gaps in our visa and admissions systems have frustrated our efforts 
identify and bring to justice the perpetrators of the terrorist 
attacks. More importantly, we would like to determine the extent to 
which these vulnerabilities will expose us to future terrorist attacks.
    Today, I see three areas of vulnerability in our immigration 
system:
    (1) an unregulated visa waiver program, in which 23 million people 
arrived with little scrutiny in FY 2000 from 29 different countries.
    (2) an unmonitored nonimmigrant visa system, in which 7.1 million 
tourists, business visitors, foreign students, and temporary workers 
arrived. To date, the INS does not have a reliable tracking system to 
determine how many of these visitors left the country after their visas 
expired.
    (3) Among the 7.1 million nonimmigrants, 500,000 foreign nationals 
entered on foreign student visas. The foreign student visa system is 
one of the most under-regulated systems we have today.
    I believe most foreign students legitimately come to the U.S. to 
study and, indeed, they provide a great contribution to our 
institutions of higher learning.
    However, I do have a concern that in the last 10 years, more than 
16,000 students came from such terrorist supporting states as Iran, 
Iraq, Sudan, Libya, and Syria. Let me give you an example of why this 
is a problem for me:
    In the early 1990s, officials at six colleges, which of which were 
in California, were convicted of taking bribes, providing counterfeit 
education documents and fraudulently applying for foreign student visas 
so that more than 100 foreign nationals could gain easy entry in to the 
U.S.
    The officials from the six colleges were convicted; some served 
time in jail, others paid monetary fines and restitution. It is unclear 
what steps the INS took to find and deport the foreign nationals 
involved in this scheme.
    There are other examples of the potential for gross misuse of the 
foreign student visa.
    In 1991, the Washington Post reported that the United Nations 
weapons inspectors in Iraq discovered documents detailing an Iraqi 
government strategy to send students to the United States and other 
countries to specifically study nuclear-related subjects to develop 
their own program. One of those students, Samir AI Araji (Sa-meer Al A- 
rah- hee), received his doctorate in nuclear engineering from Michigan 
State University and then returned to Iraq to head its nuclear weapons 
program.
    In 1998, the Richmond Times and New York Times did extensive 
reports on Rihab Taha, the mastermind of Saddam Hussein's germ warfare 
arsenal. Also known as ``Dr. Germ,'' Taha studied in England on a 
student visa.
    England is one of the participating countries in the Visa Waiver 
program, which means if she could have gotten a fraudulent passport 
from England, she could have come and gone without a visa in the United 
States.
    These instances should have provided a wake-up call that something 
in our system was clearly broken:
    This is not a new problem. We have had plenty of warning of the 
serious weaknesses in our immigration system that led to the horrific 
September 11 attacks.
    In fact, vulnerabilities in the Immigration and Naturalization 
Service's monitoring system, for example, have been documented as far 
back as 1979, when during the Iranian hostage crisis, the INS was 
unable to locate 9,000 of an estimated 50,000 Iranian students studying 
in the United States.
    Overall, more than 30 million temporary visitors enter the U.S. 
each year. That number does not take into account the 500 million 
entries at our land borders and ports of entries each year. Two thirds 
of those entrants are non-U.S. citizens.
    What these numbers show is that without an adequate tracking 
system, our country becomes a sieve, creating ample opportunities for 
terrorists to enter and establish their operations without detection.
    What I'd like to get from this hearing is new solutions for the 
following ongoing problems:
    (1) The porous nature of our borders along with the INS's 
unreliable record keeping, have contributed to the agency's inability 
to keep out criminals and terrorists-and to track their whereabouts 
once they are here.
    (2) In an era in which terrorists use satellite phones and 
encrypted e-mail, the INS-our nation's gatekeeper-is considered by many 
observers to still be in the technological dark ages. The agency is 
still using paper files and archaic computer systems that are often 
non-functioning, do not communicate with each other, and do not 
integrate well with other law enforcement systems.
    (3) About 40 to 50% of the estimated 7 to 9 million illegal 
immigrant population are visa overstayers-people who entered the U.S. 
legally, but later violated the terms of their visas by staying beyond 
the permitted period of time.
    (4) Unlike most countries, the United States does not require exit 
visas-only a form filled out by the visa holder that is often not 
entered into an INS database for months and, in some cases, a year 
later.
    (5) The names of applicants are fed into a ``lookout'' system, a 
computerized database of some 5.7 million names fed and reviewed by the 
INS, U.S. Customs and the State Department. This system is hardly 
failsafe.
    Because the look-out system used by American consular offices is 
based on a name check, alone, it is vulnerable to evasion, not to 
mention document fraud and identity theft.
    For example:

        Two of the alleged hijackers, Khalid Almihdhar and Hawaf 
        Alhazmi, made the watch list only after they had gained entry 
        into the United States. And the watch list has not always 
        helped: Sheik Omar Abdel-Rahman, a spiritual leader of the men 
        involved in the 1993 World Trade Center bombing, legally 
        entered the country on a visa, although he was already on the 
        ``watch list'' of suspected terrorists. He was subsequently 
        convicted in a conspiracy to blow up the World Trade Center.
                               conclusion
    We are here today to examine the ways in which existing 
technologies could assist these agencies in preventing those who are 
intent on carrying out the goal of mass destruction from entering and 
staying in the United States.
    In particular, I would be interested to learn more about the 
feasibility of creating tamper-resistant visas and passports and 
establishing a nonimmigrant tracking system using biometric data to 
verify the identity of persons seeking to enter the U. S.
    We will also examine how these new technologies could be used to 
establish an entry-exit system that could be integrated with the 
current look-out systems used by the INS, State Department and federal 
law enforcement agencies.
    Finally, I will ask our panelist to offer concrete suggestions on 
the steps Congress should take to build the technological 
infrastructures of our federal agencies so that they may better protect 
the U.S. ports of entry and our borders from future terrorist attacks.
    As we enter into these discussions today, it is important to 
recognize that increased technology, alone, is not a substitute for 
adequate number of personnel, adequate training for that personnel, and 
a cooperative relationship and spirit among the agencies charged with 
protecting our nation's borders, as well as our national security.
    Today's hearing will examine the use of technology. Future hearings 
will examine some of the other important steps we can take to achieve 
these goals.
    I look forward to hearing today's testimonies.

    So, Senator Kyl, if you have some comments.

  STATEMENT OF HON. JON KYL, A U.S. SENATOR FROM THE STATE OF 
                            ARIZONA

    Senator Kyl. Thank you very much, Senator Feinstein.
    Much has been made of the unity that has existed since 
September 11, including here in Washington. As Senator 
Feinstein just said, that unity on this subcommittee existed 
from the very beginning, going back several years ago. We have 
jointly sponsored legislation, held hearings, made 
recommendations, and we will continue to do so.
    I will tell you that there will not be one iota of 
difference between the position of the chairman of the 
subcommittee and my position. We will move together exactly 
together, and I think we will be able to ensure that our 
colleagues will be with us.
    So a message to the administration and our witnesses here: 
we really appreciate your presence here, but we are going to be 
offering some ideas that haven't been implemented in the past 
by the administration, by any administration. And since all of 
you don't have to take credit or blame for positions of the 
past, don't; be willing to think openly about new ideas that 
may come from the Congress because we are going to be united in 
what we are recommending.
    I agree with absolutely everything that the chairman just 
said and will just summarize some additional thoughts here.
    Just as the bill that we passed last night is not the 
answer--I think Don Rumsfeld said there is no one silver bullet 
here in this war against terrorists, but there are a lot of 
individual pieces. Just like we see the FBI putting its case 
together meticulously, taking one little bit of data here and 
another bit of data there and connecting it all up and then 
finally they know what the threat is, we too will put together 
a mosaic of things that will enable us to win this war.
    The bill that we passed last night is one step. The 
proposals that Senator Feinstein has made here will be another 
important step. Do they solve everything? No, but they 
certainly deal with this immigration component.
    Look at the headline in the Washington Post this morning: 
``INS Stumped on How Some Hijackers Entered the United 
States.'' No reflection on Mr. Ziglar. Obviously, he had 
nothing to do with the policies that bear on the deficiencies 
in INS at this moment, but obviously we are going to have to 
fix this problem.
    Senator Feinstein alluded to the statistics, and one 
question I will ask you, Commissioner Ziglar, is do we know 
anything more about the actual status. I think on six of the 
people there is no record of any entry into the country, but I 
will get to that question later. In any event, obviously this 
cannot continue to be the case if we are going to ensure that 
bad elements are not permitted to be guests in the United 
States.
    Senator Feinstein mentioned three specific things. The visa 
waiver program; we have clearly got to reform that. The 
unmonitored visa system generally, with no tracking, and so on, 
and the exit/entry component of that; we clearly have to fix 
that. The student visa program specifically; we clearly have to 
have more monitoring and reporting on that.
    In addition to that, we have infrastructure needs, and I am 
sure this is music to some of your ears. You will tell us what 
they are and we hopefully will respond by providing you the 
resources that you need, both in terms of personnel--and by the 
way, this is personnel at the borders, at our immigration 
offices, our consular offices all around the world--we need 
more personnel as well as infrastructure.
    We need to develop and use new technology that Senator 
Feinstein alluded to, including fraud-proof documents. This is 
an absolute must now. We are not talking about a national I.D. 
card, but we are talking about a method by which the United 
States can ensure that its laws are enforced with respect to 
the guests that we invite into the country. We are going to 
have to resolve conflicts that currently exist between 
information systems in the INS and the State Department.
    Finally, let me just mention a few other quick questions 
and then I really want to hear from the witnesses. Here are 
some of the questions we are going to need to get some answers 
to.
    Should INS replace its computer information system at all 
borders and put in the same system used by the State 
Department? How much would it cost? Should the State Department 
consider using facial recognition biometrics for all visa 
applicants? Should the INS consider using facial biometrics at 
points of entry? How about the role of fingerprint biometrics? 
What would the cost be to do that?
    Should U.S. authorities receive background information on 
every visa-holder before he or she is allowed to exit an 
airport and enter the United States? I mentioned the exit/entry 
system. What is the status there, and how can we get that 
completed?
    On foreign student visas, will the new system be maintained 
jointly by the State Department and INS? Will it have an 
automated linkage to the educational institutions? Will it 
require reporting and compliance, and how will this perhaps 
relate to the H-1B visa, the employment visa system? Regarding 
the waiver program, should we restrict participation to 
countries that only issue machine-readable passports?
    Those are just a few of the questions that I think we need 
to deal with here.
    Madam Chairman, I will ask that my full statement be put in 
the record. Let me just close with this comment. Last night, 
the President was asked a question at his news conference by 
one of the reporters. She said, well, you are asking us to 
support the Government's efforts here, but this is a war and I 
am just wondering when we are going to have to make some 
sacrifices in this war.
    Let me add something to what the President said. I don't 
think it is much of a sacrifice for institutions that benefit 
from U.S. laws, like higher education--I hope there are some of 
you out here that are representing institutions of higher 
learning. You all benefit from these programs. The tuition you 
charge the foreign students really helps your coffers.
    I was dismayed when the first reaction to Senator 
Feinstein's suggestion that maybe we needed to have a time-out 
here on these foreign student visas was, no, we can't do that; 
that will really hurt us financially. Well, what do you think 
has happened to the entire United States of America, our 
economy? Everybody was hurt dramatically by what happened and I 
don't think it is too much of a sacrifice to at least help us 
enforce the laws that you are benefitting from. Is that too 
much to ask?
    We don't want to terminate these. We don't even, I suspect, 
at the end of the day, want to have a moratorium, but we are 
going to have an enforceable system. And you will have to help 
us or else there will have to be some kind of limitation. That 
is the way it is going to have to be throughout the rest of 
this country.
    We are all living under a threat. My family is worried. My 
daughter is worried about her two little kids, and so on, and I 
will be darned if I am going to let them grow up and for 
decades, like we did during the Cold War, lead a life that is a 
life of fear, under constant threat, because they will never 
know what is going to hit them next.
    We have got to win this war, and win it fairly quickly, and 
that means we have got to root out the base of terrorist 
support. That means we have got to protect our homeland. We all 
have to do that and it is not too much of a sacrifice for us to 
get together and figure out what kind of systems we can put 
together, not be turf-conscious.
    It took us a long time to develop this INS system and so 
this has got to be the be-all and end-all. Maybe, maybe not. We 
have got to start thinking as a unified people to solve this 
problem because I don't want to live this way for the rest of 
my life and I don't want my kids and grandkids to.
    So let's not think parochially here. Let's think about what 
we can do to band together and solve the problem. And I just 
want to say again there will not be one iota of difference 
between Senator Feinstein and me. I hope I haven't said 
anything here that she is going to disagree with now. But if 
so, then I agree with her, okay?
    [Laughter.]
    Senator Kyl. We are going to work this through together, 
and we have got to work quickly. These reforms are not going to 
be easy or quick. They are going to cost some money, but we are 
going to have to do them as quickly as we can.
    You yourselves answered the question that the President 
asked last night. What can we do? Well, every one of you now 
are thinking, okay, yes, there is something I can do to help 
here. Let's do it. Let's get together and do it and defeat this 
terrible scourge that is threatening us right now.
    I really appreciate again all the witnesses who are here 
today. We will look forward to working with you.
    [The prepared statement of Senator Kyl follows:]

  Statement of Hon. Jon Kyl, a U.S. Senator from the State of Arizona

    Madam Chairwoman, thank you very much for holding this hearing 
today, one month and one day after the tragic events of September 11. I 
look forward to hearing the testimony of Inspector General Fine, 
Commissioner Ziglar, Ambassador Ryan, and the rest of the witnesses 
from the private sector--I am hopeful that all of these witnesses might 
shed some needed light on ways to fix our immigration and visa 
processing systems so that terrorists cannot enter or remain in the 
United States in violation of our laws.
    The law enforcement and immigration enforcement provisions of the 
antiterrorism legislation that we are about to pass here in the 
Congress will provide many of the tools needed to weed out and stop 
terrorism.
    Even with the passage of these provisions, however, the United 
States will continue to face overwhelming infrastructure and personnel 
needs at our consular offices abroad, along both our southern and 
northern border, and in our immigration offices throughout the United 
States. In conjunction with increasing personnel and infrastructure, 
the U.S. must, among other things, deprive terrorists of the ability to 
present altered international documents, and improve the dissemination 
of information about suspected terrorists to all appropriate agencies.
    So legislative, and administrative, action in the coming months 
must go beyond the scope of the anti-terrorism package.
    With regard to border and immigration personnel, it is encouraging 
that most everyone now agrees that a lot more personnel are needed. 
Over the past several years, many of us in Congress have worked hard to 
increase Border Patrol, Customs, and INS personnel. For the saddest of 
reasons, I hope the commitment to dedicate the funds for such personnel 
is finally there. All relevant agencies must also work hard to develop 
ways to effectively recruit and retain such personnel. Such efforts 
will be tracked by the Congress. With respect to State Department 
employees, significant increases in consular personnel must be made.
    These personnel, whether they are inspectors, agents, or consular 
officers, must be equipped with the investigatory and security 
resources to weed out terrorists from ever getting into the country, 
and to stop them from staying here undetected, if they do get in. 
Finally, the many programs that we have, affecting immigration and the 
granting of visas, must be examined and changed, if they actually make 
abuse of the system by terrorists more possible.
    Many questions need to be asked about the procedures in place on 
the ground. We must employ our technology better--or develop new 
technology--to catch alien terrorists:

        <bullet> Should the INS replace its computer-information system 
        at all borders and put in the same system used by the State 
        Department? How much would it cost to do this? The current 
        system is not equipped to accept all the information available 
        from the State Department about a visa applicant or recipient.
        <bullet> Should the State Department consider using facial 
        recognition biometrics for all visa applicants, whether issued 
        a visa or not, since the State Department requires a photograph 
        for all visa applicants already? Should the INS consider using 
        facial feature biometrics at its ports of entry? Are facial 
        biometrics superior to fingerprint biometrics? What would be 
        the cost of implementing either a facial or fingerprint system?
        <bullet> Should U.S. authorities receive background information 
        on every visa holder before he or she is allowed to exit an 
        airport and enter the United States?
        <bullet> Where is the INS in its effort to develop the entry-
        exit system at airports and seaports? At land ports?

    Many questions also need to be asked about nonimmigrant programs 
and the Visa Waiver Program. We should determine whether, without 
reform, such programs make it easier for terrorists to get here and 
stay here.
        <bullet> Regarding foreign student visas, does the new INS-
        proposed student tracking system reflect concerns raised after 
        the September 11 attack? Will the system overcome current 
        deficiencies in processing and tracking? Will the new system be 
        jointly maintained by the State Department and the INS? Will 
        the new system have an automated linkage to educational 
        institutions, so that they can inform INS when a student drops 
        out or does not show up in the first place? Will a quarterly 
        report be required of all educational institutions, including 
        those that accept F, M, and J visas? Could other programs, such 
        as the H1-B employment visa program, realistically be a part of 
        such a system?
        <bullet> Regarding the Visa Waiver Program, should we restrict 
        participation to countries that issue only machine-readable 
        passports? How can we be assured that the passport numbers of 
        all Visa Waiver participants are entered into a database by the 
        INS at ports of entry--even when the passport is not machine 
        readable? Should the holders of non-machinereadable passports 
        be required to go to ``secondary'' inspection at all ports?

    Obviously, border, immigration, and visa-processing policies are 
very complex. To be sure of the utmost security, and also fairness to 
law-abiding immigrants, we are all going to have to work hard on these 
problems.
    I am happy to report that a few things that we all knew needed to 
be done are included in the anti-terrorism package that will be passed 
and sent to the President soon. The legislation clarifies that the 
Federal Bureau of Investigation is authorized to share data from its 
``wanted lists,'' and any other information contained in its national 
crime-information system, with the State Department and the INS. This 
will help the INS and State Department identify suspected terrorists 
before they come to the United States, and, should they gain entry, 
will help track them down on our soil. It also allows the State 
Department, during a U.S. criminal investigation, to give foreign 
governments information on a case-by-case basis about the issuance or 
refusal to issue a U.S. visa. The anti-terrorism bill also will also 
clarify and toughen U.S. law prohibiting the entry of, and requiring 
the removal of, individual alien terrorists. In addition, the bill will 
give the Attorney General a newly designated, and reasonable, amount of 
time during which he may detain an alien believed to be inadmissible or 
deportable on terrorism grounds. Finally, the bill authorizes $36.8 
million for quick implementation of the INS foreign student tracking 
system, a program I have long urged be reformed.
    As ranking Member of the Judiciary Committee's Terrorism 
Subcommittee, I have long suggested, and strongly supported, many of 
the anti-terrorism and immigration initiatives now being advocated by 
Republicans and Democrats alike. In my sadness about the overwhelming 
and tragic events that took thousands of precious lives, I am resolved 
to push forward on all fronts to fight against terrorism. As I have 
outlined, changing our immigration and law- enforcement systems will be 
a complex undertaking, but it is absolutely necessary. Necessary, so 
that justice can be delivered to those who are responsible for the 
lives lost on September 11. And, so that the institutions of government 
can be reorganized in order that Americans can continue to live their 
lives in freedom.
    Thank you, I look forward to hearing from all of our witnesses.

    Chairman Feinstein. Thanks very much.
    Before I turn to Senator DeWine for an opening comment, I 
just want to respond. I think Senator Kyl and I and Senator 
DeWine and the other members will be on the same page.
    The reason I initially proposed that we take that time-out 
to get our student visa program in shape was because it was 
very apparent to me, particularly after I reviewed the 
convictions that took place in San Diego, California, that we 
had a real problem there. There was a resistance earlier on 
from schools to participate in providing the kind of 
information that was necessary.
    The proposal for a 6-month time-out or moratorium or 
whatever you want to call it certainly got their attention. 
They have come in; there have been two meetings with my office. 
The school association will testify today. I believe they will 
testify that they want to be cooperative, that they are 
prepared to play a major role in providing the State 
Department, as well as INS, with the necessary information and 
to make bi-quarterly reports. So I think we have in the past 
two weeks made a great deal of progress in that regard.
    Senator DeWine, do you have some comments you want to make?

STATEMENT OF HON. MIKE DEWINE, A U.S. SENATOR FROM THE STATE OF 
                              OHIO

    Senator DeWine. Very briefly, Madam Chairman, I have a full 
statement which I would ask permission to be part of the 
record.
    Chairman Feinstein. So ordered.
    Senator DeWine. Just briefly, let me thank you very much 
for holding this hearing. I thank our panelists for being here. 
We look forward to their testimony.
    There are so many different aspects of the whole issue of 
terrorism and the whole issue of our borders, and let me just 
mention at the beginning one of the things that I have been 
thinking of.
    In the Senate's anti-terrorism package that we were able to 
pass last night, I have asked the Attorney General, in 
consultation with appropriate agencies, to report back to us, 
to report back to the United States Congress, on how we as a 
country can use our national biometric systems, such as the 
Integrated Automated Fingerprint Identification System, more 
commonly known as the IAFIS system, which is maintained by the 
FBI, to better identify a person who holds a foreign passport 
or a visa when that person may be wanted in connection with a 
criminal or intelligence investigation in the United States or 
abroad before the issuance of a visa or their entry or exit 
from the United States.
    Now, Madam Chairman, I recognize that INS technology is 
outdated and it is insufficient to meet these new demands. I 
believe that we should leverage the substantial investment 
taxpayers have made in the IAFIS system already to go ahead and 
expand that and to create a system of identification and 
verification that is fully integrated with all relevant 
Federal, State and local agencies, and to do that in real-time.
    Currently, IAFIS has more than 48 million images, and 
exchanges information with almost all Federal, State and local 
law enforcement agencies. I am not saying that this system is 
perfect, but I am saying that we should use all of our 
available resources at our disposal. I think this is a 
tremendous resource and we need to build on that resource.
    The days are long past when we have the luxury, if we ever 
did, of having different departments and different agencies in 
the Government using different systems. Those days are over and 
we have to build on the best system that we have, and I 
candidly believe that we have to look to the IAFIS system to 
build what we need to help all of us to keep our country more 
secure.
    Madam Chairman, I thank you and I thank Senator Kyl and 
others who have expressed a real interest in this issue and I 
look forward to the testimony.
    [The prepared statement of Senator DeWine follows:]

  Statement of Hon. Mike DeWine, a U.S. Senator from the State of Ohio

    Madam Chairman, thank you for holding this important hearing on the 
``The Role of Technology in Preventing the Entry of Terrorists in the 
United States.'' I thank the witnesses for coming to testify today as 
well.
    It seems to me that Congress has to make an important decision 
here--a decision about where to focus our resources. Today, every 
agency needs more resources to confront the challenges that Sept 11 has 
raised--INS and the State Department have the most pressing needs. The 
questions for these agencies is: Do we focus on trying to keep track of 
aliens we allow into the United States--or do we focus our resources on 
screening those who have asked permission to enter our country? The 
fact is that we have to walk and chew gum at the same time--we must do 
both. We must do a better job of screening aliens who enter the 
country, while at the same time keeping track of when and where those 
aliens enter and exit, and where they are while they are here.
    Let me talk for a moment about the scope of the problem. Last year, 
the INS performed 529.6 million inspections of individuals who crossed 
our borders--by land, sea, and air. As noted in Commissioner Ziglar's 
written testimony, over a half billion personal contacts were made with 
INS inspectors at our ports-of-entry. After deducting American citizens 
who were inspected, 352 million aliens were inspected in 2000. A little 
less than a third of those aliens are permanent residents. That leaves 
255 million inspections of temporary ``non-immigrant'' aliens who are 
crossing at U.S. ports-of-entry.
    It appears that this is the pool of entries we are searching to 
find terrorists and others who are coming into the United States for 
illicit purposes. Out of 255 million inspections how on earth are our 
law enforcement and other agencies that are responsible for these 
individuals' entry supposed to identify 19 terrorists?
    It's a vast challenge. But we expect it to be met. Congress expects 
you to be able to identify these people. Moreover, the American people 
expect the federal agencies who are responsible for these individuals 
to do it. Today we want to know how you plan to meet this challenge.
    We know that it can be done--but it can only be done with 
technology. I would like to hear our panelists' ideas about how it can 
be done with technology. What is your plan for using all available 
technology to address this problem?
    Let me tell you what I have been thinking. In the Senate's 
antiterrorism package, I have asked the Attorney general, in 
consultation with appropriate agencies, to report to Congress on how we 
can use our national biometric systems, such as the Integrated 
Automated Fingerprint Identification System (IAFIS) maintained by the 
FBI, to better identify a person who holds a foreign passport or a visa 
and may be wanted in connection with a criminal or intelligence 
investigation in the United States or abroad--before the issuance of a 
visa or their entry--or exit--from the United States.
    I recognize that INS technology is outdated and insufficient to 
meet these new demands. We should leverage the substantial investment 
taxpayers have made-the IAFIS system to create a system of 
identification and verification that is fully integrated with all 
relevant federal, state, and local agencies--in real-time. Currently, 
IAFIS has more than 48 million images, and exchanges information with 
almost all federal, state, and local law enforcement agencies. I am not 
saying that this system is perfect, but I am saying that we should use 
all of our available resources at our disposal.
    Again, thank you for participating today. I am looking forward to 
hearing the witnesses.

    Chairman Feinstein. Thanks very much, Senator DeWine.
    One of the best sets of written testimony that I have seen 
in the time I have been in the Senate is the first person on 
the panel I am going to introduce, and that is the Inspector 
General of the United States Department of Justice, Mr. Glenn 
Fine. I would like to commend to everybody to read his full 
statement because it has got some very excellent specifics 
documenting where the systems fail today.
    Mr. Fine is a Harvard Law graduate. He is a Rhodes Scholar. 
He has worked for the Inspector General's office since 1995. 
Before joining the Office of Inspector General, he was an 
attorney specializing in labor and employment law in 
Washington. From 1986 to 1989, he served as Assistant U.S. 
Attorney in Washington, D.C. He prosecuted more than 35 
criminal jury trials, handled numerous grand jury 
investigations, and argued cases in the District of Columbia 
and the United States courts of appeals.
    Mr. Fine, welcome to the committee.

 STATEMENT OF GLENN A. FINE, INSPECTOR GENERAL, DEPARTMENT OF 
                   JUSTICE, WASHINGTON, D.C.

    Mr. Fine. Thank you. Madam Chairwoman, Senator Kyl, Senator 
DeWine, members of the subcommittee, thank you for inviting me 
to appear before the subcommittee. My testimony this morning 
will focus on the work of the Office of the Inspector General 
that relates to the subject of technology and preventing the 
entry of terrorists into the United States.
    Technology, particularly effective and reliable information 
technology systems, is a critical component in this effort, and 
nowhere are we more in need of effective IT systems than in the 
INS. Yet, the OIG's extensive work in the INS has revealed 
significant problems with that agency's development and 
implementation of its IT systems.
    Two OIG audit reports concluded that the INS could not 
sufficiently track the status of its IT projects to determine 
whether progress was acceptable, given the amount of time and 
funds spent. We found that estimated completion dates for 
projects were delayed without explanation, costs continued to 
spiral upward with no justification for how funds were spent, 
and projects neared completion with no assurance for meeting 
performance and functional requirements. General Accounting 
Office reviews reached related conclusions about the INS IT 
systems.
    These problems in managing and implementing technology 
systems affect the ability of the INS to fulfill its critical 
mission. Let me provide the subcommittee with one example of a 
specific INS system that I discuss in my written statement.
    The INS' automated biometric identification system, known 
as IDENT, is used in part to identify individuals whom the INS 
apprehends or comes in contact with. It is an important system 
that scans two fingerprints and a photograph of an alien and 
compares them against records in the IDENT lookout and 
recidivist databases.
    The INS envisioned that most of its operations, including 
the Border Patrol, investigations, detention and deportation, 
intelligence and inspections, would benefit from IDENT through 
its quick and accurate identification of individuals. However, 
an OIG inspection raised concerns about the quality of data 
placed in IDENT and INS training of its employees on the 
system. In a later review, the OIG again found problems with 
IDENT under tragic circumstances.
    Rafael Resendez-Ramirez was a Mexican national accused of 
committing several murders in the United States. When local 
police searching for Resendez contacted INS investigators in 
Houston, none of the INS investigators placed a lookout for him 
in IDENT. Consequently, when Border Patrol agents apprehended 
Resendez as he attempted to illegally cross the border into New 
Mexico, nothing in IDENT alerted them to the fact that he was 
wanted for murder or had an extensive criminal record. The 
Border Patrol therefore followed its standard policy and 
voluntarily returned him to Mexico. Resendez returned to the 
United States within days of his release and murdered several 
more people before surrendering.
    A review of the Resendez case showed problems that were 
indicative of, and partly caused by, larger failings in the 
design and implementation of this information technology 
system. We found that training on IDENT for INS employees, 
particularly outside the Border Patrol, was ineffective or 
nonexistent. INS program offices, such as Investigations and 
Intelligence, viewed IDENT as a Border Patrol initiative and 
were not educated on how it could be useful to its mission. 
Also, IDENT was not, and still is not linked with the FBI's 
Integrated Automated Fingerprint Identification System, which 
Senator DeWine discussed, and the FBI's National Crime 
Information Center 2000 system.
    The Resendez case vividly illustrated the need for sharing 
of information among Government agencies, and it spurred the 
FBI and the INS to begin to develop an integration plan. That 
plan is still under development.
    In another OIG review, we assessed the INS' efforts to 
reduce the risks of the visa waiver program. This program 
permits citizens from 29 countries to enter the United States 
as visitors without first obtaining visas or being screened in 
any way prior to their arrival.
    INS inspectors have, on average, less than one minute to 
check and decide on each applicant. Our review found that INS 
inspectors did not check all passports of visa waiver 
applicants against the INS computerized lookout system. We also 
noted that terrorists, criminals and alien smugglers have 
attempted to gain entry into the United States through the visa 
waiver program.
    INS inspectors told the OIG that terrorists and criminals 
believed they would receive less scrutiny during the inspection 
process if they applied under the program. INS officials also 
told the OIG that the theft of passports from visa waiver 
countries was a serious problem. We tested a sample of stolen 
passports and found that almost 10 percent may have been used 
to successfully enter the United States. In addition, we found 
that 53 percent of the stolen passports in our sample had no 
lookout record in the INS system. We recommended that the INS 
take steps to systemically collect information about stolen 
passports and enter them into the lookout system.
    Another OIG review examined the INS' tracking and 
identification of non-immigrant visa overstays. As Senator 
Feinstein discussed, these are visitors who enter the United 
States legally but fail to depart when required. The INS 
estimates that 40 to 50 percent of the approximately 7 million 
or more illegal aliens in the United States fit into this 
category.
    Our review found that the principal INS system for tracking 
visa overstays, the Non-Immigrant Information System, was not 
producing reliable data either in the aggregate or on 
individuals. We also found that the INS had no specific 
enforcement program to identify, locate, apprehend and remove 
overstays, and that using the INS data was of little use for 
locating them.
    Also related to the issue of non-immigrant visa overstays, 
the OIG recently examined INS efforts to meet congressional 
directives to develop an automated entry and exit control 
system that would collect a record for aliens arriving in the 
United States from an I-94 card and automatically match these 
with I-94 departure cards. The OIG found that the INS has not 
properly managed the project. Despite having spent $31 million 
on the system, the INS was operating it at only a few airports 
and does not have clear evidence that it would meet its 
intended goals.
    Other OIG reviews discussed in my written statement discuss 
problems in the FBI's information technology systems and the 
specific case of how two men entered and remained in the United 
States before being arrested on charges of attempting to bomb 
the Brooklyn subway system.
    Technology alone, however, is not sufficient to prevent the 
entry of terrorists into the United States. In February 2000, 
the OIG issued a report that systematically examined the Border 
Patrol's efforts to control illegal activity along the northern 
border. We found that nearly 4,000 miles of border between the 
United States and Canada were woefully understaffed.
    The Border Patrol realized this risk but, because of the 
low numbers of agents assigned to northern Border Patrol 
sectors, could not cover all shifts 24 hours a day, 7 days a 
week. Most Border Patrol officials we interviewed believe that 
around-the-clock coverage was the minimum acceptable level of 
coverage for northern Border Patrol stations. Force multipliers 
such as cameras, sensors and other technology can aid the 
Border Patrol in its surveillance and interdiction activities, 
but northern border sectors do not have adequate amounts of 
this equipment.
    In sum, the effective implementation and management of 
technology is critical to helping prevent terrorists from 
entering this country. Among other recommendations cited in my 
written statement, we urge the INS and the FBI to ensure that 
their databases share information both with each other and with 
other Government agencies. It is also abundantly clear that 
more resources need to be devoted to the northern border. 
Technology can help in this effort, but there are too few 
agents and inspectors along this border.
    We recognize that the issues involved in this problem are 
complex with no easy solutions and that the task is enormous. 
Solutions require strategic vision, strong leadership, 
individual and organizational accountability, and sustained 
follow-through. Implementation of effective technology needs to 
be a top priority of the INS, the FBI and other Government 
agencies because it is essential to protecting the integrity of 
the immigration system and the national security.
    That concludes my prepared statement and I would be pleased 
to answer any questions.
    [The prepared statement of Mr. Fine follows:]

   Statement of Glenn A. Fine, Inspector General, U.S. Department of 
                       Justice, Washington, D.C.

    Madame Chairwoman, Senator Kyl, and Members of the Subcommittee on 
Technology, Terrorism, and Government Information:
                            I. Introduction
    I appreciate the opportunity to appear before the Subcommittee on 
Technology, Terrorism, and Government Information to discuss the role 
of technology in preventing the entry of terrorists into the United 
States. My testimony this morning will focus primarily on programs and 
related technologies in the Immigration and Naturalization Service 
(INS), including problems in INS information technology systems, the 
Visa Waiver Program, controlling the northern border, and the potential 
for immigration document fraud. I also will address briefly information 
technology systems in the Federal Bureau of Investigation (FBI).
    Conducting comprehensive oversight of INS programs, including 
reviews relating to information technology, has been a longstanding 
priority for the Office of the Inspector General (OIG). We have 
expended such effort in response to concerns expressed within the 
Department of Justice (Department) and Congress, as well as our own 
assessment, about how the INS was handling its important and diverse 
responsibilities. As the INS's budget and workforce have increased to 
more than $5 billion and 33,000 staff, the need for concerted OIG 
oversight similarly has increased.
    At the outset of my remarks, I want to stress that while the OIG 
has noted serious deficiencies in INS operations and systems over the 
years, this should in no way diminish the important contributions 
thousands of INS employees make on a daily basis. These employees 
perform diligently, under very difficult circumstances, and their 
mission is critical to the proper functioning of our government.
    Yet, as this statement will discuss, our reviews of INS programs 
and their associated information technology systems have revealed 
significant problems that leave gaps in the INS's attempts to secure 
the nation's borders. Over the past decade, the OIG has found serious 
process and management deficiencies in the INS. Many OIG reviews of INS 
programs have questioned the reliability of the agency 's automated 
information systems and the accuracy of the data produced by those 
systems. We see separate automated systems planned for almost every 
function in the INS, but many of these systems do not ``talk'' to each 
other and therefore cannot be used to meet other important agency 
missions. Furthermore, given the INS's track record in acquiring and 
managing information technology systems, the OIG is concerned that the 
INS will not have the managerial expertise or ability to bring all of 
its automation initiatives successfully to completion, particularly in 
a timely and cost-effective fashion.
    I turn now to OIG reviews that relate to information technology 
problems and immigration issues that affect the INS's ability to 
prevent terrorists from entering the country.
                            II. OIG Reviews
          a. ins management of information technology systems
    According to Department of Justice estimates, the INS has spent 
more than $290 million on automated systems in fiscal year (FY) 2001 
and more than $260 million in FY 2000. All told, through fiscal year 
2001, the INS planned to spend approximately $2.6 billion on its 
automation programs. However, two OIG reviews of the INS's management 
of its automation initiatives found lengthy delays in completing many 
automation programs, unnecessary cost increases, and a significant risk 
that finished projects would fail to meet the agency's needs.
    A March 1998 OIG audit found that the INS did not adequately 
monitor its automation programs. We concluded that the INS lacked 
comprehensive performance measures and insufficiently tracked the 
status of its projects. Consequently, the INS could not determine if 
progress towards the completion of the projects was acceptable. As a 
result, we stated that the INS faced risks that: (1) completed projects 
would not meet the overall goals of the automation programs; (2) 
completion of the automated projects would be significantly delayed; 
and (3) unnecessary cost increases would occur.
    In July 1999, the OIG issued a follow-up report which again found 
that the INS was not adequately managing its automation programs. In 
the 1999 audit, we noted that the INS still could not sufficiently 
track the status of its automation projects to determine whether 
progress was acceptable given the amount of time and funds already 
spent. We reported that: (1) estimated completion dates for projects 
were delayed without explanation; (2) costs continued to spiral upward 
with no justification for how funds were spent; and (3) projects neared 
completion with no assurance for meeting performance and functional 
requirements.
    We identified three causes for these problems. First, INS managers 
did not have a common base line of automation projects by which to 
focus their collective efforts. In fact, the INS had substantial 
difficulty providing us with a complete list of their automation 
projects. Second, project information needed for effective management 
and decision-making was not readily available. Third, INS managers did 
not develop, document, or implement basic management control processes 
necessary to ensure that projects would be completed on schedule and 
meet performance and functional requirements. The ultimate cost for the 
INS's automation programs was uncertain because actual costs incurred 
were unreliable and projected cost estimates were unsupported.
    Furthermore, we found that the INS had not implemented adequate 
safeguards to ensure the accuracy of existing data that would be used 
by systems being developed or re-engineered, or the adequacy of future 
data inputs. As a result, new or existing INS systems could contain 
inaccurate or unreliable data.
    Since these audits, the General Accounting Office (GAO) issued 
reports in August 2000 and December 2000 that reached related 
conclusions about the INS's management of its information technology 
programs. Those reports concluded that the INS does not have an 
enterprise architecture to ensure that the hundreds of millions of 
dollars it spends each year on new and existing technology will 
optimally support the INS's mission. The GAO also concluded that the 
INS did not have adequate processes in place to effectively manage its 
planned and ongoing information technology programs.
                       b. the visa waiver program
    The Immigration Reform and Control Act of 1986 created the Visa 
Waiver Pilot Program (VWPP), which permitted citizens from certain 
countries to enter the United States as visitors without first 
obtaining visas. The law allowed VWPP visitors to stay in the United 
States for up to 90 days per visit and required them to possess a round 
trip ticket and waive their rights to appeal immigration officers' 
determinations of admissibility or contest any deportation actions.
    In October 2000, the program became permanent and is now known as 
the Visa Waiver Program. Currently, visa requirements are waived for 
citizens of 29 countries who wish to visit the United States.
    In 1999, the OIG assessed the INS's efforts to minimize illegal 
immigration and security threats posed by abuse of the VWPP. Because 
visitors traveling for business or pleasure under the VWPP were not 
required to obtain visas, they were not screened in any way prior to 
their arrival at U.S. ports of entry. Instead, VWPP visitors presented 
their passports to INS inspectors on arrival. The inspectors observed 
the applicants, examined their passports, and conducted checks against 
a computerized lookout system to decide whether to allow applicants 
entry into the United States. This review by INS inspectors was the 
principal means of preventing illegal entry. INS inspectors had, on 
average, less than one minute to check and decide on each applicant.
    As a result of our review, we found that INS inspectors did not 
query all VWPP passport numbers against the INS's computerized lookout 
system. In addition, our inspection noted that terrorists, criminals, 
and alien smugglers have attempted to gain entry into the United States 
through the VWPP.
    INS inspectors told the OIG that terrorists and criminals believed 
they would receive less scrutiny during the inspection process if they 
applied under the VWPP and consequently would have a greater chance of 
entering the United States without being intercepted. In addition, 
several of these terrorists and criminals had criminal records that 
would have prevented them from obtaining a visa if they were required 
to apply for one. For the Subcommittee's information, I provide several 
examples of terrorists and criminals who have attempted entry into this 
country under the VWPP.

        <bullet> One of the conspirators in the 1993 World Trade Center 
        bombing entered the country on a photo-substituted Swedish 
        passport in September 1992. When the terrorist arrived at John 
        F. Kennedy International Airport in New York City, an INS 
        inspector suspected that his passport had been altered. A 
        search of his luggage revealed instructional materials for 
        making bombs. The subject was detained and sentenced to six 
        months' imprisonment for passport fraud. In March 1994, he was 
        convicted for his role in the Trade Center bombing and 
        sentenced to 240 years in prison.
        <bullet> Two Irish VWPP applicants attempted to pass through an 
        INS overseas pre-inspection facility in August 1998. INS 
        inspectors questioned both applicants, one of whom admitted 
        that he had served jail time for possession of explosives and 
        had been a member of the Irish Republican Army (IRA). Irish 
        immigration authorities informed the INS inspectors that this 
        applicant was a current member of the Real IRA--a terrorist 
        group that had broken away from the original IRA. INS 
        inspectors felt that there was sufficient evidence to deny 
        entry and both applicants were refused admission to the United 
        States.
        <bullet> In July 1988, the United Kingdom (U.K.) became the 
        first country to join the VWPP. Seventeen months later, the 
        INS's New York District Office reported a trend in which 
        Nigerian drug couriers were using photo-substituted U.K. 
        passports to facilitate their drug-smuggling activities. An INS 
        intelligence report documented the apprehension of four 
        Nigerian drug couriers within a four-day period by U.S. Customs 
        officials. Two of the applicants presented photo-substituted 
        passports. The INS report stated that ``[t]he travel document 
        of choice is an altered British passport.''
    During our review, the INS informed the OIG that the theft of 
passports from VWPP countries was a serious problem. Because these 
stolen passports are genuine documents, their fraudulent use is 
difficult for INS inspectors to detect. During our review, we tested a 
sample of 1,067 passports stolen from VWPP countries and found that 
almost 10 percent may have been used to successfully enter the United 
States. We also identified problems with the way the INS maintains its 
lookout system, including its failure to enter information about stolen 
VWPP passports into the lookout database in a timely or accurate 
manner. As a result, 567 stolen passports in our sample of 1,067 (53 
percent) had no lookout record in the INS system. Of the 500 passport 
numbers that had lookout records, 112 (22 percent) were not entered 
accurately. This missing or inaccurate information reduced the 
effectiveness of the lookout system and increased the possibility that 
inadmissible VWPP applicants could enter the United States.
           c. border patrol efforts along the northern border
    In February 2000, the OIG issued a report that systematically 
examined the Border Patrol's efforts to control illegal activity along 
the northern border, reviewed how the Border Patrol collects and 
assesses information about illegal activity and responds to it, and 
evaluated the allocation of Border Patrol resources to the northern 
border.
    The nearly 4,000 miles of border between the United States and 
Canada are managed by 8 of the Border Patrol's 21 sectors. As of 
September 30, 1999, 311 of the national total of 8,364 Border Patrol 
agents (3.7 percent) were assigned to northern border sectors. In 
keeping with the INS's strategic plan, the Border Patrol deployed 7,706 
Border Patrol agents (92.1 percent of the total) to its nine southwest 
Border Patrol sectors. The remaining 347 agents were assigned to the 
coastal sectors, headquarters, INS regional offices, and the Border 
Patrol Academy. Currently, according to the INS, there are 334 Border 
Patrol agents assigned to the northern border.
    Border Patrol sectors on the Canadian border face significant 
challenges, even though the volume of known illegal alien entries is 
much less than along the Mexican border. The OIG review reported an 
increase in illegal activity along the northern border, including an 
increase in alien and drug smuggling. But the INS was unable to assess 
the level of illegal activity along the northern border, given the 
limited personnel and equipment resources allotted to its eight 
northern Border Patrol sectors. However, it is clear that the level of 
illegal activity exceeds the Border Patrol's capacity to respond. We 
also found that other factors, such as the detailing of agents from the 
northern to the southwest border and lack of detention space to house 
apprehended aliens, further diluted the Border Patrol's enforcement 
capabilities along the northern border.
    We concluded that the number of agents assigned could not 
adequately patrol the entire length of the northern border. Shifts with 
no Border Patrol coverage left the northern border open. INS 
Intelligence officers also told us that criminals monitor the Border 
Patrol's radio communications and observe their actions. The criminals 
know the times when the fewest agents are on duty and plan their 
illegal operations accordingly. The Border Patrol realized this risk 
but, because of the low numbers of agents assigned to northern border 
sectors, it could not cover all shifts 24 hours a day, 7 days a week. 
Most Border Patrol officials we interviewed believed around-the-clock 
coverage was the minimum acceptable level of coverage for northern 
Border Patrol stations.
    ``Force-multipliers'' such as cameras, sensors, and other 
technology aid the Border Patrol in its surveillance and interdiction 
activities, but we found that northern border sectors do not have 
adequate amounts of this equipment. For example, at the time of our 
inspection, one northern border sector had identified 65 smuggling 
corridors along the more than 300 miles of border within its area of 
responsibility, but the sector had only 36 sensors with which to 
monitor these corridors.
    The Border Patrol's Strategic Plan, issued in 1994, does not 
address the northern border until the plan's fourth and final phase. 
Phase I of the Strategic Plan was designed to control the San Diego and 
El Paso Corridors; Phase II to control South Texas and Tucson 
corridors; Phase III to control the remainder of the southwest border; 
and Phase IV to control the rest of the borders, including the northern 
border. At the time of our inspection in 2000, the Border Patrol was in 
Phase II of its strategic plan, and no date had been set for 
implementation of Phase IV. In addition, the strategic plan did not 
articulate the strategies that the Border Patrol would eventually use 
to control the northern border once it has achieved control of the 
southwest border.
    The OIG recommended that the INS Commissioner outline the approach 
the Border Patrol would take to secure the northern border, including 
determining the minimum number of Border Patrol agents required to 
address existing gaps in coverage, determining the amount of 
intelligence resources needed to more accurately assess the level of 
illegal activity, and identifying and implementing accurate data 
collection methods to support decisions about personnel and equipment. 
INS eventually wrote a strategic plan regarding the northern border, 
but we understand that it has not been implemented. We also recommended 
that the Commissioner evaluate whether there was a continuing need to 
detail Border Patrol agents out of northern sectors.
                       d. nonimmigrant overstays
    The INS estimates the number of illegal aliens in the United States 
at 5 million to 6 million, while others estimate the number to be even 
higher. A common perception about illegal aliens is that the vast 
majority enter the United States by surreptitiously crossing our land 
borders, primarily from Mexico. In fact, the INS estimates that 
approximately 40 to 50 percent of the illegal alien population entered 
the United States legally as temporary visitors but simply failed to 
depart when required. The INS refers to these illegal aliens as 
nonimmigrant ``overstays.'' More than 90 percent of overstays are 
tourists or business visitors, but overstays also include students and 
temporary workers.
    In a 1997 inspection, the OIG found that the principal INS record-
keeping system for tracking nonimmigrant overstays, the Nonimmigrant 
Information System (NIIS), does not produce reliable data, either in 
the aggregate or on individual nonimmigrants. Normally, passengers 
arriving in the United States fill out an I-94 form and present it to 
the INS inspector upon arrival. The inspector collects the arrival 
portion of the form and returns the departure portion to the passenger. 
The arrival portion is sent to an INS contractor, who inputs the data 
into NIIS. When the person leaves the United States, the airlines are 
supposed to collect the departure portion of the I-94 form and provide 
it to the INS for input into NIIS. The data is then matched by NIIS to 
identify nonimmigrant overstays.
    We found that the NIIS data is incomplete and unreliable due to 
missing departure records and errors in processing of the records. NIIS 
does not contain departure records for a large number of aliens, most 
of whom the INS assumes have left the United States. The INS believes 
that unrecorded departures result from airlines failing to collect 
departure forms, from aliens departing through land borders, from data 
entry errors, from records being lost through electronic transmission 
or tape-loading problems, or from the failure of the system to match 
arrival and departure records.
    We also found that the INS had no specific enforcement program to 
identify, locate, apprehend, and remove nonimmigrant overstays, and we 
concluded that NIIS data would be of little use for locating aliens.
                   e. the ins's automated i-94 system
    The Illegal Immigration Reform and Immigrant Responsibility Act of 
1996 directed the Attorney General to develop an automated entry and 
exit control system that would collect a record for every alien 
departing the United States and automatically match these departure 
records with the record of the alien's arrival. This proposal was 
designed to replace the manual system of collecting I-94 cards and 
enable the INS, through on-line searching procedures, to identify 
lawfully admitted nonimmigrants who remain in the United Sates beyond 
the period authorized. In 2000, however, Congress extended the deadline 
for implementing the system for airports and sea border ports of entry 
until December 31, 2003, and for high-traffic land border ports of 
entry until December 31, 2004.
     In response to this congressional requirement, the INS introduced 
a pilot system in 1997 to automate the processing of air passenger I-94 
forms. This automated I-94 system captures arrival and departure data 
electronically and uploads non-U.S. citizen data to the INS's NIIS.
    This summer, the OIG completed an audit of the design and 
implementation of the automated I-94 system and found that the INS has 
not properly managed the project. Despite having spent $31.2 million on 
the system from FY 1996 to FY 2000, the INS: (1) does not have clear 
evidence that the system meets its intended goals; (2) has won the 
cooperation of only two airlines; (3) is operating the system at only a 
few airports; and (4) is in the process of modifying the system. INS 
officials estimated that an additional $57 million would be needed for 
FY 2001 through FY 2005 to complete the system. These projections 
include development, equipment, and operation and maintenance costs.
    As a result of our concerns, we made a series of recommendations to 
help ensure that the INS rigorously analyzes the costs, benefits, 
risks, and performance measures of the automated I-94 System before 
proceeding with further expenditures.
          f. automated biometric identification system (ident)
    In 1989, the INS began to develop an automated biometric 
identification system to identify quickly individuals who are 
apprehended or have come into contact with the INS. Biometrics are 
biological measurements unique to each person, such as fingerprints, 
hand geometry, facial patterns, retinal patterns, or other 
characteristics, that are used to identify individuals. Fingerprints 
are the most common biometric used by law enforcement agencies. 
Historically, without a biometric system, the INS had to rely upon the 
names provided by aliens who were apprehended when checking against 
their databases or other records. But aliens often used false names or 
different names during different apprehensions. Also, many persons have 
similar names, and spelling errors can result in problems identifying 
individuals accurately.
    After several studies, in 1994 the INS began implementing the 
Automatic Biometric Identification System, called IDENT. IDENT was 
first deployed in the San Diego Border Patrol Sector and subsequently 
throughout the southwest border. IDENT workstations consist of a 
personal computer, camera, and a single-fingerprint scanner. During 
enrollment of individuals into IDENT, INS agents scan an individual's 
two fingerprints, take the individual's photograph, and enter basic 
apprehension information about the individual into the automated 
system. When this information is saved, IDENT matches the fingerprints 
of the individual against the corresponding fingerprints of all 
individuals in two central IDENT databases, the lookout database and 
the recidivist database.
    In the 1996 Illegal Immigration Reform and Immigrant Responsibility 
Act, Congress directed the INS to expand the use of IDENT to ``apply to 
illegal or criminal aliens apprehended Nationwide.'' INS officials 
envisioned that most of the agency's programs and operations--including 
the Border Patrol, Investigations, Detention and Deportation, 
Intelligence, Inspections, Benefits Adjudication, and the INS Service 
Centers--would benefit from the IDENT system through its quick 
identification of individuals and its ability to obtain information 
about them from previous encounters with the INS, including any 
criminal history.
    In 1998, the OIG evaluated the INS's implementation of IDENT and 
found that the INS was enrolling less than two-thirds of the aliens 
apprehended along the U.S.-Mexico border into the IDENT system. In 
addition, the INS was entering the fingerprints in the IDENT lookout 
database of only 41 percent of the aliens deported and excluded in FY 
1996; of these, only 24 percent had accompanying photographs even 
though the INS relies on photographs to confirm identification. We 
found virtually no controls in place to ensure the quality of data 
entered into the IDENT lookout database. As a result, we found 
duplicate records and invalid data. We also raised concerns that the 
INS had not provided sufficient training to its employees on the use of 
IDENT. These failures hampered the INS's ability to make consistent and 
effective use of IDENT.
     g. the rafael resendez-ramirez case and the operation of ident
    In March 2000, the OIG issued another review that implicated the 
IDENT system in tragic circumstances. The OIG examined how the INS 
handled its encounters with Rafael Resendez-Ramirez (Resendez), a 
Mexican national accused of committing several murders in the United 
States. Resendez was known as ``the railway killer'' because he 
allegedly traveled around the United States by freight train and 
committed murders near railroad lines. In early 1999, Texas police 
obtained a warrant for Resendez's arrest in connection with a brutal 
murder in Houston, Texas. The police mounted an extensive search to 
find Resendez and contacted several INS investigators in Houston 
seeking assistance in the search for him. However, none of those INS 
investigators placed a lookout notice` for Resendez in IDENT. Instead, 
the INS investigators referred the police to other agencies or 
databases.
    Consequently, when Border Patrol agents apprehended Resendez on 
June 1, 1999, as he attempted to illegally cross the border into New 
Mexico, nothing in IDENT alerted them to the fact that Resendez was 
wanted for murder or had an extensive criminal record. As a result, the 
Border Patrol followed its standard policy and voluntarily returned 
Resendez to Mexico. He returned to the United States within days of his 
release and murdered several more people before surrendering on July 
13, 1999.
    The OIG review concluded that the failings by the INS employees who 
did not place a lookout for Resendez in IDENT were indicative of and 
partly caused by larger failings in the INS' s design and 
implementation of IDENT. We found that the training that was given to 
INS employees on IDENT, particularly outside the Border Patrol, was 
ineffective or non-existent. In the 1998 OIG report, we had noted 
problems with IDENT training and recommended that the INS develop and 
implement a strategy for sufficiently training INS personnel using 
IDENT. Unfortunately, the INS largely rejected this recommendation, 
claiming that its IDENT training was adequate. We found in the Resendez 
review that INS program offices, such as Investigations and 
Intelligence, viewed IDENT as a Border Patrol initiative and were not 
educated on how IDENT could be useful to their mission.
    When we interviewed INS employees in various offices involved with 
the Resendez case, we found that their knowledge of IDENT was severely 
lacking. The INS investigators who were contacted by police searching 
for Resendez did not think of IDENT, even when they were asked to place 
a lookout in INS databases for Resendez. Although the INS had 
distributed a lookout policy, it provided no training on the policy and 
did little to ensure that the policy was understood or read.
    IDENT was not, and still is not, linked with FBI databases. The 
INS's IDENT system and the FBI's Integrated Automated Fingerprint 
Identification System (IAFIS) and the National Crime Information Center 
(NCIC) 2000 system were developed separately and along different time 
lines. Although the INS and the FBI periodically discussed integration 
of their systems as they were being developed, there was never a 
sustained effort to achieve that goal and no agreement on integration 
was reached. We were told that the INS and the FBI made little effort 
to understand the operational requirements of the other agency. Each 
agency focused on meeting its own requirements and did not pursue 
integration. As a result, when the FBI finally deployed IAFIS and NCIC 
2000 in July 1999, the FBI fingerprint systems were not linked to 
IDENT.
    The Resendez case vividly illustrated the need for integration of 
the INS and FBI systems and spurred the FBI and the INS to develop an 
integration plan. The plan required studies to help determine the 
feasibility of integration of the systems, which initially would allow 
the fingerprints of aliens apprehended by the INS to be searched 
against a subset of the FBI's Criminal Master File and eventually 
against the entire master file. However, an integration plan is still 
in the process of being developed and may take years to implement 
fully.
               h. the oig's ``bombs in brooklyn'' report
    In a report issued in March 1998, the OIG examined how two 
individuals, Gazi Ibrahim Abu Mezer and Lafi Khalil, entered and 
remained in the United States before their July 1997 apprehension in 
Brooklyn for allegedly planning to bomb the New York City subway 
system. Mezer was subsequently convicted and sentenced to life 
imprisonment. Khalil was acquitted of charges stemming from the bombing 
plot but found guilty of immigration violations.
    In our report, we described how both men were able to enter the 
United States and remain here. Khalil, who had a Jordanian passport, 
applied to the U.S. Consular Office in Jerusalem for a visa to travel 
through the United States en route to Ecuador. The consular official 
gave him a 29-day, C-1 transit visa after a three-minute interview. 
When Khalil arrived in New York on December 7, 1996, an immigration 
inspector mistakenly granted him a 6-month, B-2 tourist visa. He 
overstayed that visa and was arrested in Brooklyn, along with Mezer, in 
July 1997.
    Mezer, who claimed Jordanian nationality, received a visa from the 
Canadian Embassy in Israel to study in Canada. Shortly after arriving 
in Canada in September 1993, he applied for convention status, which is 
similar to political asylum in the United States, based on his claimed 
fear of persecution in Israel. Mezer later admitted that he had 
traveled to Canada with the intent to reach the United States.
    In 1996, Mezer was detained by the Border Patrol twice while 
attempting to cross the border into Washington State. Each time the 
Border Patrol voluntarily returned him to Canada. In January 1997, the 
Border Patrol apprehended Mezer in Washington a third time and 
initiated formal deportation proceedings. Mezer then filed an 
application for political asylum in the United States and was later 
released on a $5,000 bond. In his asylum application, Mezer claimed 
that Israeli authorities had persecuted him because they wrongly 
believed he was a member of Hamas. The immigration court requested 
comments from the State Department about Mezer's asylum application, 
and the State Department returned the application with a sticker 
indicating that it did not have specific information on Mezer. Mezer's 
attorney later withdrew the asylum application, stating that Mezer had 
returned to Canada. Mezer was arrested shortly thereafter in Brooklyn 
for plotting to bomb the subway system.
    During our review, we did not find any information that Mezer was a 
known terrorist. However, we found systemic problems that were revealed 
by his case. Our review found that Mezer had entered and remained in 
Canada despite two criminal convictions there, which highlighted the 
ease of entry into Canada and the difficulty of controlling illegal 
immigration from Canada into the United States. We also noted the 
inadequacy of Border Patrol resources to address illegal immigration 
along the northern border. In addition, Mezer's case reflected 
confusion between U.S. government agencies as to which agency would 
conduct a check for information on whether an asylum applicant was a 
terrorist. We recommended that the INS and the State Department 
coordinate more closely on accessing and sharing information that would 
suggest a detained alien or asylum applicant may be a terrorist.
                             i. fbi systems
    Findings from a July 1999 OIG report that examined aspects of the 
FBI's computer systems are particularly relevant in light of the 
ongoing terrorism investigations. In most criminal investigations--and 
certainly in the aftermath of the September 11 attacks--the FBI must be 
able to rapidly identify and disseminate pertinent intelligence 
information to the law enforcement community. Failure to capitalize on 
leads in its possession can delay or seriously impede an investigation.
    In our 1999 review, the OIG examined why classified intelligence 
information pertaining to the Department's Campaign Finance Task Force 
investigation was not appropriately disseminated within the FBI and the 
Department and subsequently to congressional oversight committees. The 
OIG found that a series of problems, including deficiencies in the use 
and maintenance of the FBI's computer database systems, ultimately 
contributed to this failure.
    A key feature of the FBI's Automated Case Support (ACS) system--the 
agency's primary case management database that contains leads and other 
FBI documents--is a user's ability to retrieve information regarding 
particular individuals, including whether they have been the subjects 
of other investigations. However, we found that FBI agents often did 
not enter important information into the database and that agents often 
did not conduct appropriate searches for information using the 
database. The end result was that the FBI could not be confident that a 
search for information in the ACS databases would, in fact, provide all 
pertinent information in the FBI's possession. In the Campaign Finance 
investigation, this meant that many of the documents that were later 
discovered regarding two key subjects of the Task Force investigation 
could not have been found using the FBI's databases. We found that the 
FBI's information management problems were caused by a variety of 
factors, including inappropriate policies and insufficient training, 
and we made recommendations to address both of these issues.
                           j. document fraud
    While the focus of today's hearing is on technology's role in 
helping prevent the entry of terrorists into the United States, it is 
important to recognize that even if the INS or other government 
agencies had foolproof systems--which they do not--these systems can be 
defeated by document fraud. For example, visa fraud can allow 
terrorists and others to illegally enter the country. There is little 
hard data, however, to judge the magnitude of such fraud. Common types 
of nonimmigrant visa fraud or fraud include:

        1) a person uses fraudulent documents to obtain a legitimate 
        visa;
        2) a person obtains a fraudulent visa (for example, an 
        individual can attempt to use the passport and visa of a person 
        who has similar looks and biographical characteristics or can 
        purchase an altered document); or
        3) an individual may not meet the spirit or intent of the 
        specific visa program.
    Historically, the OIG has played an important role in attempting to 
combat one aspect of immigration fraud. The OIG's Investigations 
Division has spent significant resources investigating immigration 
document-related corruption in the INS. It is important to stress that 
corruption by a very few INS employees should not taint the other 
hardworking, honest employees of the INS who faithfully perform their 
duties. But any such criminal conduct can affect the integrity of our 
lawful immigration system and, ultimately, our national security by 
potentially allowing criminals or terrorists to enter the country 
through corrupt means.
    Moreover, in several reviews, the OIG has found deficient INS 
business practices that could open the agency to document fraud. We 
have found that the INS does not do a good job of safeguarding the 
tools used to create official documents, such as official certificates, 
INS authorizing stamps, and special ink. In addition, we have found 
that there is easy access to INS computers in order to change an entry, 
to order the issuance of an INS card or benefit, or to erase a 
disqualifying entry from an applicant's history. Computer passwords are 
shared and systems are unable to create an audit trail necessary to 
identify the users who accessed and amended a file. These deficiencies 
make it easier to make false computer entries that could result in the 
issuance of seemingly genuine INS documents.
    As the INS and State Department apply greater scrutiny in 
adjudicating applications for nonimmigrant visas, the OIG is concerned 
about an increased risk of organized criminal or terrorist groups 
attempting to gain entry into this country by corrupting INS employees.
    For the Subcommittee's information, I highlight several examples of 
fraud and bribery investigations worked by the OIG that involve the use 
of INS documents to improperly enter the country:

        <bullet> Two INS immigration inspectors and two civilians were 
        arrested on charges of conspiracy; transporting undocumented 
        aliens; fraud and misuse of visas, permits, and other 
        documents; and bribery. The investigation revealed that the INS 
        employees and civilians assisted foreign nationals in entering 
        the United States illegally by selling INS documents for $300--
        $500. The majority of aliens entered the United States through 
        the INS employees' inspection lanes at the Brownsville, Texas, 
        Port of Entry using the documents.
        <bullet> A retired INS supervisory district adjudications 
        officer in San Jose, California, a civilian immigration 
        consultant, and a businessman each received prison sentences 
        stemming from an extensive fraud scheme involving immigration 
        documents. The investigation developed evidence that the 
        adjudications officer, while working for the INS, accepted 
        approximately $400,000 in bribes from a civilian immigration 
        consultant and the businessman, his wife, and his sister-in-law 
        to approve applications for permanent residency for at least 
        275 of their clients. The aliens entered the United States on 
        nonimmigrant visas and the corrupt INS employee created false 
        records in INS databases indicating that they had changed their 
        status from ``nonimmigrant'' to ``immigrant'' (i.e., permanent 
        resident).
        <bullet> An INS immigration inspector assigned to the San 
        Francisco International Airport was sentenced to one year in 
        prison after pleading guilty to charges of bribery, fraud, and 
        misuse of visas, permits, and other documents. A joint 
        investigation by the OIG and the INS revealed that the 
        immigration inspector stole two INS immigration stamps and two 
        bottles of security ink and agreed to sell the items to 
        confidential informants for $85,000. One of my concerns about 
        this case is the fact that the INS employee was willing to sell 
        a middleman the INS stamps and security ink without any 
        knowledge as to the identity of intended recipient of these 
        items.
        <bullet> An INS supervisory asylum officer in New York was 
        convicted at trial on 21 counts of bribery and obstruction of 
        justice and was sentenced to 21 months' incarceration. A joint 
        investigation by the OIG and the FBI revealed that the 
        supervisory asylum officer altered hundreds of decisions in the 
        INS' computer systems causing the original assessments written 
        by asylum officers to change from a court referral to a grant 
        of political asylum. Albanian and Yugoslavian nationals paid 
        several middlemen $1,000 to $4,000 for each political asylum 
        decision fraudulently granted by the INS supervisory asylum 
        officer. Four middlemen and four Albanian and Yugoslavian 
        nationals were arrested on charges of bribery, conspiracy, and 
        document fraud.
        <bullet> An INS assistant district director for examinations in 
        New Jersey was convicted at trial and sentenced to 41 months' 
        incarceration for document fraud and other charges. A joint 
        OIG/FBI investigation disclosed that Lebanese nationals in the 
        Boston area were able to obtain genuine INS advance parole 
        documents through a middleman with an inside connection at an 
        INS district office. The middleman fled the United States after 
        being indicted and was a fugitive for one year. Upon his return 
        to this country, he cooperated with the government, pleaded 
        guilty, and identified the assistant district director as his 
        inside connection.
        <bullet> An INS immigration inspector assigned to the San 
        Ysidro Port of Entry in southern California was sentenced to 
        more than 12 years in prison after a federal jury convicted him 
        for conducting a criminal enterprise through a pattern of 
        racketeering activity, alien smuggling, and importation of 
        controlled substances. An investigation by the San Diego Border 
        Corruption Task Force developed evidence that the immigration 
        inspector used his position in the INS to allow multiple loads 
        of aliens and 3,500 pounds of marijuana to cross the border 
        without proper inspection in exchange for approximately 
        $350,000.
                            III. Conclusion
    The issue of technology is critical to preventing terrorists from 
entering this country. From our past work, we have found that the INS 
has not managed its diverse information technology systems well, and 
that its systems do not do all that they should to help INS employees 
fulfill their critical mission. The OIG believes that the INS needs to 
more stringently manage and establish priorities for the development of 
its systems rather than spend enormous resources and effort to develop 
so many systems for so many different purposes.
    Among other recommendations, based on our work we urge the INS and 
the FBI to ensure that their databases share information, both with 
each other and with other government agencies.
    It is also abundantly clear that more resources need to be devoted 
to the northern border. Technology such as cameras and sensors can help 
in this effort, but there are too few agents and inspectors along the 
northern border.
    The INS also must improve its tracking of nonimmigrant visa 
overstays. The current system for identifying overstays--manual I-94 
cards inputted into the NIIS database--does not produce reliable or 
accurate information, either as a whole or on individual overstays, and 
the automated I-94 project has not worked.
    We recognize that these are complex issues with no easy solutions, 
and that the task is enormous. It requires strategic vision, strong 
leadership, individual and organizational accountability, and sustained 
follow-through. This effort needs to be a top priority of the INS and 
other agencies, because effective use of technology is essential to 
protecting the integrity of the immigration system and the national 
security.
    This concludes my prepared statement. I would be pleased to answer 
any questions.

    Chairman Feinstein. Thanks very much, Mr. Fine.
    We will proceed along. I would like to introduce James 
Ziglar, who is Commissioner of the Immigration and 
Naturalization Service. He was confirmed to this post after 
distinguished service as the Senate Sergeant-At-Arms, where he 
managed a staff of 750 and a budget of $120 million. Today, he 
oversees one of the largest Federal agencies, with a staff of 
more than 34,000 employees and a budget in excess of $4 
billion.
    We welcome you, Mr. Ziglar.

  STATEMENT OF JAMES W. ZIGLAR, COMMISSIONER, IMMIGRATION AND 
NATURALIZATION SERVICE, DEPARTMENT OF JUSTICE, WASHINGTON, D.C.

    Mr. Ziglar. Madam Chairwoman and members of the 
subcommittee, I appreciate the opportunity to come today to 
discuss technology in terms of how we use that and employ that 
in our fight against terrorism.
    I must add that I am always pleased to be back in the 
Senate. It is like home, and I am grateful for that opportunity 
to serve as your Sergeant at Arms for almost three years.
    When I started this job two months ago, I knew I had a big 
challenge in front of me. Never would I have thought that 
things would have turned so dramatically. The goals that the 
President set for me and that the Senate endorsed and many of 
you I talked to during my confirmation process--and you set 
some other goals for me, also--those goals were threefold: 
first, to restructure the INS in a way that it would be better 
focused on its two missions. One is enforcement, the other one 
is service.
    The second goal was to modernize the management structure 
and the processes at the INS in a way that would allow it to 
achieve those two goals of enforcement and service.
    The third was--and this was clearly talked about at great 
length--to modernize, synchronize and rationalize the 
information technology systems at the INS in a way that, again, 
we could carry out our missions of enforcement and service.
    Madam Chairwoman, I can tell you that those goals have not 
changed as a result of September 11, and the reason that they 
haven't changed is because an effective and an efficient INS is 
one of the ways, along with other Government agencies, to 
protect the American people against the horror that we 
experience on September 11.
    Madam Chairwoman, I can tell you, based upon what I have 
learned in two months, that the INS is a willing, enthusiastic 
and cooperative partner in the fight against terrorism. I am 
firmly convinced that the INS has the will, it has the 
determination, and we have the human resources--we need more of 
them, but we have the human resources to make the changes that 
we need to make. And we are moving rapidly to make those 
changes even as we speak, and I would like to talk a little bit 
about some of the things we are doing.
    My friend, Glenn Fine, gave you a retrospective view of the 
INS. I want to give you a prospective view and I want to give 
you a view of what we are doing today and how we are addressing 
some of these problems because I think--and I am deviating from 
notes in front of me--there is an awful lot of criticism that 
is absolutely justified toward the INS. Some of the criticism 
that is leveled at it is not justified, based upon my review of 
this institution, and I think we need to step back and look at 
what it is doing right going forward and figure out exactly how 
we do integrate all of these agencies and this information in 
an appropriate way.
    Just for your information, very shortly I will be coming up 
here and providing you with a draft of a reorganization, 
restructuring plan for the INS that the Attorney General has 
personally approved and that is in the final stages of approval 
at OMB. When we are finished with it--and it is substantial and 
it is significant, and we have continued to develop it 
notwithstanding the events of September. When you see it, I 
think you are going to understand that we are serious about 
making changes at the organization, and we need your help on 
that.
    We are at this very moment, and well before September 11, 
aggressively in the position of developing an information 
technology enterprise architecture based upon the 
recommendations and the guidance and the current help from the 
General Accounting Office. We are hard at work with both 
private contractors and our people inside at developing a 
platform so that our technology, and our information technology 
especially, is integrated, the many parts of the INS, not only 
integrated at the INS, but we will also be integrated with 
other Federal organizations that we have to interact with. We 
are building that platform, we are designing that platform.
    At the same time, we are not sitting still in terms of 
developing our systems. We have an investment review process 
there that is using what we call interim technology 
architecture, and it is an architecture that allows us to build 
pieces of this system that will fit on that enterprise 
architecture platform that is being developed, and will be 
consistent with it. So we are moving ahead even as we are 
developing the baseline projects that we are working on here.
    Madam Chairman, with your support, we are moving ahead and 
will move ahead--and I know we are going to have your support 
on this--with the SEVIS system, and that is the student 
tracking system which was also known as the CIPRIS system.
    As you know, and as Senator Kyl pointed out and as you 
pointed out, the development of a student tracking system has 
been the subject of much concern, opposition and other things 
particularly from the academic establishment, and frankly from 
Congress, fighting about the fees and how they are allocated 
and how they are collected and that sort of thing. 
Mysteriously, that opposition seems to have now disappeared 
since September 11 and we are prepared to move ahead, but we 
need your support.
    Let me make one point about the development and deployment 
of the SEVIS system. As the statute is now, that system has to 
be funded out of the fees collected. So we have to go to the 
exam fee account that we have and fund it as those fees come 
in. That obviously means that we can only fund what we have got 
money to fund.
    We need appropriations up front to develop that system. If 
we have appropriations to support it, I think we can have that 
system up and running in advance of the deadline that you have 
given us, which is December of 2002, January of 2003. I believe 
that we can get that done and I think we can have an effective 
system in place, but we need your help.
    Let me talk to you a little bit about something else that 
we are doing at the INS that is very important, and it 
addresses some of the very issues that you talked about in your 
opening statements, all of you did, and that is that we have 
lots of different systems, we have lots of different 
information databases at the INS and they are in stovepipe 
form. That is true; no arguing about that.
    One of the legitimate criticisms has been that we have 
information here and it is needed there, but there is no way of 
getting it there. That is true, but I am going to tell you that 
is not going to be true for long and it is not as true today as 
it was yesterday or the day before, because we are putting in 
place and have put in place something called the ENFORCE 
system.
    The ENFORCE system is a general database, if you will, 
where all of the other databases from the INS sources will go 
into and are going into, not all of them. We are putting the 
modules in as we speak. It also is designed to reach out to the 
FBI and the CIA and other sources of information, the 
Department of State, and bring their information into one 
place.
    What we have also done is we have taken that and fully 
integrated the ENFORCE system with the IDENT system. Now, 
people are confused sometimes about what IDENT is. IDENT is 
like IAFIS; it is an identification system. It is not a 
database system of information about people. It is simply a 
system that tells you is this person who we think this person 
is by use of fingerprints.
    So what we have done is integrate our fingerprint I.D. 
system with, if you will, a name and date of birth system so 
that once we figure out who this person is biometrically, then 
we can access the information, which is the way it always 
works. IAFIS is an identification system and it acts as NCIC.
    Well, we have integrated those and we are now putting in 
these stovepipes, if you will, of other information into the 
ENFORCE system. In a very short time, we will be rolling out 
the first transitional work station that ultimately will 
integrate IDENT and IAFIS.
    Senator DeWine, I know you and I have talked about this on 
occasion. It will integrate IDENT and IAFIS, two identification 
systems, so that when we have somebody come forward we have 
information on who that person is either from the FBI or from 
our files, but it is integrated. Then we will access the 
ENFORCE system, which is the database which draws not only from 
our databases internally but from the databases outside.
    We have not been standing still at the INS in terms of 
developing these systems, and this isn't something that 
happened starting on September 11. This is something that was 
happening before September 11 and it was happening before I got 
there. When I got there, I came with the same assumption that 
we weren't doing anything and that we didn't care and all of 
the stuff I had been hearing.
    I have done a lot of due diligence in two months and I am 
going to tell you there are lots of things that we need to 
change in this organization. But the idea that this 
organization is sitting around and doesn't care and hasn't been 
approaching these problems is not true; it is not true. We need 
to do a lot of things a lot better, but it is not true that we 
are not. We are doing that.
    We are also moving forward aggressively to implement the 
entry/exit system. We are going to use the IBIS system, which 
we share with the Department of State and others, as our 
baseline for the entry/exit system.
    Now, let me make one point, Madam Chairwoman, that you 
made, and that is that we have over 300 million non-U.S. 
citizens coming into this country every year. Two hundred-plus 
million of those come in through land borders. It is real easy 
for us to develop an entry/exit system coming through airports 
and seaports. I say easy. Nothing is real easy in the 
technology area, but it is easier. That is something that we 
are developing and we are going to use advance passenger 
information that we will put into the IBIS system and that sort 
of thing.
    But working with the land borders is a much more difficult 
thing, particularly when you have land borders like Canada 
where have a lot of people going back and forth, and how you 
track them and yet not create enormous backups. So that is an 
issue that is going to have to be dealt with at a policy level. 
Systematically, we can do that. Policy-wise, that is a 
different issue, how we do that and balance the interests of 
commerce and the interests of security.
    Madam Chairwoman, with your support we can do a number of 
things. We can complete the deployment of the border crossing 
card system, which we need money for. We can complete the 
deployment of the IDENT system, which the IG has mentioned is a 
good system. The failure in the IDENT system, and particularly 
in the Resendez case that he mentioned, was not a failure of 
the technology. It was a f failure of INS to train its people 
and to have those people understand that they need to put 
information into the system.
    The IG testified yesterday with me and he said the IDENT 
system needs to be fully deployed. There is a moratorium by 
Congress, as you may know, on any further deployment. We have 
not deployed any more work stations in IDENT in two years. As a 
result of the Resendez case, there is a moratorium. We have 
1,100 other places that we can deploy that system, but we need 
that moratorium lifted.
    Chairman Feinstein. Could you stop for a minute?
    Mr. Ziglar. Yes, ma'am.
    Chairman Feinstein. You said a moratorium on deployment of 
IDENT?
    Mr. Ziglar. Of the IDENT system, yes, ma'am.
    Chairman Feinstein. Could you explain what you mean by 
that?
    Mr. Ziglar. In the appropriations process, the Congress has 
prohibited us from installing any more IDENT machines at any 
more ports of entry, and it has been on there two years. The 
first year, it was because of the Resendez case. The second 
year that it has been in effect was because until we had the 
IAFIS and the IDENT system integrated, you folks didn't want us 
to do any more.
    We need to deploy 1,100 more work stations at our ports of 
entry so that our people have access to this, and not only at 
the ports of entry but also at our service centers and other 
places where we interview people so we can identify who these 
people are. We need that help.
    One last thing I would like to mention, Madam Chairwoman, 
is something that Ambassador Ryan and I--by the way, we have 
worked together extremely cooperatively. Ambassador Ryan is 
doing a great job at the Department of State. We arrived 
yesterday at an agreement that we are going to deploy what is 
called the consolidated consular database that the Department 
of State has developed.
    What the Department of State does is it now has a database 
where, when they have an application for a visa, all that 
information goes in there and they take a picture of this 
person. That picture is a digitized picture that shows up on 
the visa, but it is also in an electronic database. So when 
they issue a visa, say, in Rome, when that person shows up at 
Newark Airport today--and that is the only place it has been 
deployed on a test basis--when they show up at Newark Airport, 
if they go into secondary especially, we can pull up on a 
screen the information from the visa and the person's picture 
to identify whether that is a fraudulent visa or whether that 
is the person.
    It has worked well. It has been an experimental process 
that has gone on between INS and DOS. As of yesterday, 
Ambassador Ryan and I have agreed that we are going to deploy 
that, and we at INS believe that we can get this done in three 
months at all of our ports of entry and we are moving ahead on 
it. It is a done deal we start today.
    Madam Chairman, I know I have gone way over my time.
    Chairman Feinstein. If you could wrap it up, we will move 
on and then have questions.
    Mr. Ziglar. I just want you to know and I want this 
subcommittee to know and I want the American people to know 
that the INS is moving forward, and we were moving forward 
before September 11 and we are a full partner in this fight 
against terrorism.
    I appreciate the opportunity to be here and I look forward 
to your questions.
    [The prepared statement of Mr. Ziglar follows:]

      Statement of James W. Ziglar, Commissioner, Immigration and 
                Naturalization Service, Washington, D.C.

    Madame Chairwoman and Members of The Committee, I want to thank you 
for the opportunity to testify on the important issue of how technology 
can be better employed to prevent the entry into our country of persons 
who wish to do harm to our people and institutions. I am always pleased 
to return to the Senate. I shall always be grateful for the opportunity 
I had to serve as the Senate Sergeant at Arms from November 1998 to 
August 2001.
    Although I have served as Commissioner for only two months, I have 
not viewed that as a liability in responding to the tragic events of 
September 11, primarily because of the highly professional career 
public servants who have provided me with mature advice and assistance. 
These tragic events, however, have provided an opportunity for me to 
examine, with a fresh eye, the management, personnel, technology, and 
policy needs capabilities of the INS.
                       Steps to Improve Security
    Mr. Chairman, the questions you have--and the reason, I believe, 
you called this hearing--are straightforward: You and most Americans 
would like to know what steps we can take to improve our security 
consistent with our values and constitutional liberties.
    Even before September 11, we were examining that question in depth 
at how we can improve the INS, at all levels, and especially in the 
area of technology. We recognize that technology is a huge ``force 
multiplier'' that we must employ effectively at the INS if we are to 
accomplish our mission.
    Pursuant to the mandates of the Clinger-Cohen legislation, in 
response to the recommendations of the General Accounting Office (GAO), 
and because it makes good business sense, the INS is currently in the 
process of developing its Enterprise Architecture. This project 
represents our long-term, strategically-oriented approach to 
accomplishing the information driven aspects of the INS mission. We 
began the planning for this project in October 2000 and I expect the 
final delivery of this project, the transition plan to our target 
architecture, to be ready at the beginning of the 3rd quarter of FY 
2002.
    In addition, as part of our overall restructuring initiative, I 
encouraged our employees at all levels to think ``outside the box'' as 
to how we can better accomplish our mission. They responded with a 
number of creative ideas, some of which we are still evaluating. 
However, within the context of what is already known to be ``doable'' 
and effective, we have arrived are considering at a series of measures 
that would strengthen our enforcement capabilities. We are working 
within the Administration to determine how to implement these measures. 
Some of our ideas are as follows: Mr. Chairman, I suggest for your 
consideration, and that of the entire Congress, the following actions:
                             border patrol
    As requested in the President's budget, increase the number of 
Border Patrol agents and support staff along the northern border, while 
not neglecting the continuing needs along the southwest border. Such 
increases should also include necessary facilities, infrastructure and 
vehicles.
    Provide additional agent support equipment and technology 
enhancements. Unfortunately, neither the Senate nor the House currently 
is funding the President's request at $20 million for ``force 
multiplying technology.''

        Significantly increase the number of Border Patrol agents and 
        support staff along the northern border, while not neglecting 
        the continued needs along the southwest border. It is important 
        that such increases include necessary facilities 
        infrastructure, vehicles and support personnel, and that Border 
        Patrol personnel assigned to the northern border represents a 
        net increase of agents nationwide.

    Expand INS access to portable wireless biometric identification 
systems, such as mobile IDENT.
    Increase funding for roads, lights, fences, and vehicle barriers.
                              inspections
    In the Inspections area, as we proposed in our FY 2002 budget, we 
believe we should increase the number of Inspectors at our Ports of 
Entry.
    In the Inspections area, increase the number of inspectors to fully 
staff land borders, airports, and seaports, allowing our ports-of-entry 
to operate without jeopardizing security or officer safety.
    Require inspection of all International-to-International Transit 
Passengers (ITI) so that all travelers who arrive in the United States 
are inspected.
    Increase the number of criminal investigators and intelligence 
analysts to enhance investigative capabilities and develop more 
information on possible national security threats. A substantially 
enhanced investigative and intelligence force would make it possible to 
begin to address the concern about nonimmigrants who illegally enter, 
overstay or otherwise violate the immigration laws of the United 
States.
                 information and technology initiatives
    Require carriers to submit Advance Passenger Information before 
boarding passengers (whether the passenger is heading to the United 
States or attempting to depart the United States) to assist in 
preventing known or suspected terrorists, criminals, and inadmissible 
passengers from boarding.
    Make Advance Passenger Information data widely available to law 
enforcement agencies, enhancing the ability to identify potential 
threats prior to departure from or arrival in the United States, as 
well as to prevent the departure of individuals who may have committed 
crimes while in the United States. This would require additional 
personnel and equipment.
    Implement the National Crime Information Center Interstate 
Identification Index (NCIC III) at all ports of entry so that aliens 
with criminal histories can be identified prior to or upon arrival in 
the United States. NCIC III should also be available at all consular 
posts, INS service centers and adjudication offices to help identify 
aliens who pose a potential threat.
    Improve lookout system checks for the adjudications of applications 
at INS service centers. This would require additional personnel.
    Improve INS infrastructure and integration of all data systems so 
that data from all sources on aliens is accessible to inspectors, 
special agents, adjudicators, and other appropriate law enforcement 
agencies. This initiative is ongoing.
    but will require substantial investment to complete.
                            personnel issues
    Provide statutory authority to waive the calendar-year overtime cap 
for INS employees to increase the number of staff-hours available by 
increasing the overtime hours people can work. This proposal is 
included in the Administration's Terrorism Bill.
    OTHER INITIATIVES This onerous provision that has not been imposed 
on most other federal agencies has created a serious problem during the 
current heightened security posture. For example, the continued 
availability of Border Patrol Agents for security at major airports is 
significantly impacted by this provisio
    Re-examine and potentially eliminate the Transit Without Visa 
Program (TWOV) and Progressive Clearance to prevent inadmissible 
international passengers from entering the United States.
    Reassess the designation of specific countries in the Visa Waiver 
Program to ensure that proper passport policies are in place. This 
initiative will require the concurrence of and joint participation by 
the Department of State.
    Obtain from the Department of State visa data and photographs in 
electronic form at ports of entry so that visa information will be 
available at the time of actual inspection.
    Explore alternative inspection systems that allow for facilitation 
of low risk travelers while focusing on high-risk travelers.
    And review the present listing of designated ports of entry, in 
concert with the U.S. Customs Service, to eliminate unnecessary ports. 
This will allow the INS to deploy more inspectors to fewer locations 
making for a more efficient use of resources.
                         Database Improvements
    In addition to the measures cited above, I have instructed my staff 
to move forward expeditiously on two database improvement projects 
mandated by Congress. While neither is a panacea, both would be an 
improvement over the status quo. First, there has been much attention 
paid to student visas in recent weeks. Today, the INS maintains limited 
records on foreign students and is able to access that information on 
demand. However, the information is on old technology platforms that 
are insufficient for today's need for rapid access. That is why we are 
moving forward with the Student Exchange Visitor Information System 
(SEVIS), formerly known as CIPRIS. Objections, primarily by the 
academic establishment, have delayed its development and deployment. 
However, with the events of September 11, that objection has virtually 
disappeared and the INS, with your help, will meet, and intends to 
beat, the Congress' date of December 20, 2003 to start implementation 
of SEVIS with respect to all foreign nationals holding student visas. I 
hasten to add that there is a critical need to concurrently review and 
revise the process by which foreign students gain admission to the 
United States through the so-called I-20 certification process as we 
build the system. To revise and rationalize this process will require 
cooperation between the Department of State and the INS.
    Second, substantial attention also has been paid to entry and exit 
data. Currently, the INS collects data on the entry and exit of certain 
visitors. The data, most of which is provided to the INS in paper form 
to meet our manifest requirements, first must be transferred by hand 
from paper to an electronic database. This is an extremely inefficient 
way of processing data which delays access to the data by weeks and 
months. Knowing who has entered and who has departed our country in 
real time is an important element in enforcing our laws. The Data 
Management Improvement Act, passed in 2000, requires the INS to develop 
a fully-automated integrated entry-exit data collection system and 
deploy this system at airports and seaports by the end of 2003, the 50 
largest land ports of entry by the end of 2004, and completing the 
deployment to all other ports of entry by the end of 2005. The 
legislation also requires a private sector role to ensure that any 
systems developed to collect data do not harm tourism or trade. The INS 
is moving forward to meet, or beat, those deadlines.
    The INS already uses limited airline and cruise line data that is 
now provided voluntarily as an integral part of the inspection process 
at airports and seaports. We will work closely with Congress, other 
agencies, and the travel industry in the coming months to expand our 
access to needed data and to enhance our use of that data to ensure 
border security and more complete tracking of arrivals and departures.
    There has also been a great deal of focus on the databases used to 
identify persons who are inadmissible to the United States or who pose 
a threat to our country. The INS, the Customs Service, and the 
Department of State's Bureau of Consular Affairs have worked diligently 
over the past decade to provide our ports of entry and consular posts 
with access to data needed by our officers. The data contained in the 
National Automated Immigration Lookout System (NAILS), the Treasury 
Enforcement Communications System (TECS II), and the Consular Lookout 
and Support System (CLASS) are uniformly available to our ports of 
entry through a shared database called the Interagency Border 
Inspection System (IBIS) that is maintained on the U.S. Customs Service 
mainframe computer.
    Through IBIS, the officers at our ports of entry can also access 
limited data from the National Crime Information Center (NCIC). 
Immigration and Customs officers have long had the capability to check 
NCIC wanted persons data on a limited basis. Only recently have 
immigration inspectors been authorized to routinely use NCIC criminal 
history data (NCIC III) to identify criminal aliens in advance of their 
arrival. This capacity now exists at two ports of entry. Before 
September 11, the INS was working to expand the availability of this 
valuable data source to additional locations. Legislation is being 
considered to ensure this expansion is successful. I strongly support 
this legislation. To expedite this process, we will require the 
assistance of Congress for additional communications and mainframe 
capacity so that we may obtain real-time NCIC III data.
    Many people who cross our land borders do so with a Border Crossing 
Card (BCC). The INS and State Department have been working aggressively 
over the past several years to replace the old Border Crossing Cards 
with the new biometric ``laser visa.'' Based on the statutory deadline, 
holders of the old BCC can no longer enter the country. The new BCC has 
many security features that make it a much more secure entry document.
    Both at and between our ports of entry, the INS has used a 
fingerprint identification system known as IDENT to track immigration 
violators. This system has provided the INS with a significant capacity 
to identify recidivists and impostors. Congress has directed the 
Department of Justice to integrate IDENT with access to the FBI's 
automated fingerprint system, IAFIS, and we have been proceeding toward 
that objective with the FBI and under the Department's direction.
                        The Limits of Technology
    There is no quick fix, technological or otherwise, to the problems 
we face. We must work with advanced technology and do all we can to 
improve our systems. But we should not mislead ourselves into thinking 
that technology alone can solve our problems. Technology must be 
coupled with a strong intelligence and information-gathering and 
distribution system if we are to leverage our resources and maximize 
our capabilities. That will require the seamless cooperation among the 
many government agencies involved.
    It should be noted that more than five hundred million inspections 
are conducted at our ports of entry every year, and hundreds of 
millions of people enter the United States without visas, either 
because they are U.S. citizens, through visa waiver programs, or other 
exemptions from the normal visa process; the INS has only 4,775 
Inspectors to process these hundreds of millions of visitors and 
approximately 2,000 investigators and intelligence agents throughout 
the country who are available to deal with persons who have entered 
illegally, are criminal aliens, or have overstayed their visas or 
otherwise have violated the terms of their status as visitors in the 
United States.
    If we are to meet the challenges of the future, we need to make 
changes at the INS and we are in the process of making those changes. 
The structure of the organization and the management systems that we 
have in place are outdated and, in many respects, inadequate for the 
challenges we face. Our information technology systems and related 
processes must be improved in order to ensure timely and accurate 
determinations with respect to those who wish to enter our country and 
those who wish to apply for benefits under our immigrations laws. The 
management restructuring of the INS is on its way--a mandate the 
President and the Congress have given me--and the improvement of our 
information technology systems is moving ahead and can be accomplished 
with the help and support of Congress.
    Madame Chairwoman, I would like to say one word about INS employees 
and the events of September 11. Within hours of the attacks, the INS 
was working closely with the FBI to help determine who perpetrated 
these crimes and to bring those people to justice. Within 24 hours, 
under ``Operation Safe Passage,'' The INS deployed several hundred 
Border Patrol agents to eight major U.S. airports to increase security, 
prevent further terrorist incidents and restore a sense of trust to the 
traveling public. At America's ports of entry, INS inspectors continue 
to work tirelessly to inspect arriving visitors, while ensuring the 
flow of legitimate commerce and tourism. Meanwhile, despite the 
tragedies and the disruptions, our service operations have managed to 
complete over 35,000 naturalizations nationwide and process thousands 
of other applications since September 11. America should be proud of 
the extraordinary effort of these men and women.
                             Looking Ahead
    It has been said that after September 11 ``everything has 
changed.'' I hope that is not true. America must remain America, a 
symbol of freedom and a beacon of hope to those who seek a better life 
for themselves and their children. We must increase our security and 
improve our systems but in doing so we must not forget what has made 
this nation great--our openness to new ideas and new people, and a 
commitment to individual freedom, shared values, innovation and the 
free market. If, in response to the events of September 11., we engage 
in excess and shut out what has made America great, then we will have 
given the terrorists a far greater victory than they could have hoped 
to achieve.
    Thank you for this opportunity to appear, Madame Chairwoman. I look 
forward to your questions.

    Chairman Feinstein. Thank you very much.
    I would like to acknowledge the fact that Senator Cantwell 
has joined the subcommittee.
    Perhaps after Mary Ryan testifies, if you have some 
comments you would like to make, we will go to you.
    Let me properly introduce you. Mary Ryan is Assistant 
Secretary of State for Consular Affairs. She entered the 
Foreign Service in 1966 and has had a long and distinguished 
career at the State Department. In her post, Ambassador Ryan is 
charged with overseeing the issuance of visas to foreigners 
wishing to enter the United States. She assumed these duties in 
1993.
    Welcome, Ms. Ryan.

  STATEMENT OF MARY A. RYAN, ASSISTANT SECRETARY FOR CONSULAR 
         AFFAIRS, DEPARTMENT OF STATE, WASHINGTON, D.C.

    Ms. Ryan. Thank you, Madam Chairwoman, members of the 
subcommittee. I appreciate the opportunity to appear before you 
today to explain the role of the Bureau of Consular Affairs, 
and most particularly our visa processing system, in our 
country's border security program.
    I have a longer statement which I would like to submit for 
the record, if I have your permission.
    Chairman Feinstein. Please. Thank you.
    Ms. Ryan. The resolve of the Department of State and the 
Bureau of Consular Affairs to be full partners in the war 
against terrorism is stronger than ever. In my testimony today, 
Madam Chair, I will describe what we are doing to make our 
consular name check systems the best in the world and our plans 
to make them even better in the future. I will also address 
procedures for visa issuance and the scope of the Department's 
data-sharing with intelligence and law enforcement communities.
    One of the points that I want to stress most especially to 
all of you here in the subcommittee is that we must have 
information. We are only as good as the information that goes 
into the system. If we have no information on the aliens from 
other agencies, then the name check system is not as good as it 
could be. So if there is one point that I can leave with this 
subcommittee today, it is that we must have more information-
sharing.
    I can say with confidence that we are using today a state-
of-the-art visa name check system and we continue to seek and 
exploit new technologies to strengthen our capabilities.
    Let me begin by noting that all visa cases are processed by 
using automated systems which prompt a name check through the 
Department of State's centralized lookout system known as 
CLASS. A consular officer must review all hits before the case 
can be formally approved for printing. There is no override to 
this feature. Simply stated, it is not possible to issue a visa 
unless the name check has been completed and reviewed by an 
officer.
    The Department also has in place special headquarters 
clearance procedures for nationals of certain countries, 
including students, such as those on the State Sponsors of 
Terrorism list, as well as for those whose planned travel 
raises concerns about unauthorized access to sensitive 
technologies.
    Once approved, a visa containing numerous security features 
and a digitized photo is placed in the alien's passport. Now, I 
point out that the validity of the visa has nothing to do with 
the period for which the alien may remain in the United States. 
What a visa does is to allow the alien to apply at the port of 
entry for admission to the United States, and INS only may 
authorize such entry and INS determines how long the alien can 
stay in the United States.
    I want to describe our name check database for you. CLASS, 
which stands for the Consular Lookout and Support System, 
contains about 5.7 million records concerning foreigners, most 
of which originate with visa applications at our consulates and 
embassies overseas. But INS, DEA, the Department of Justice and 
other Federal agencies also contribute to our system. We, in 
turn, provided approximately 500,000 lookout records to other 
agencies through real-time electronic links to the Interagency 
Border Inspection System which the Commissioner mentioned, the 
IBIS system.
    In the aftermath of the 1993 World Trade Center bombing, 
the Bureau of Consular Affairs funded a counterterrorism tool 
called TIPOFF. This utilizes sensitive intelligence and law 
enforcement information from the CIA, from the NSA and from the 
FBI and from our overseas posts concerning known or suspected 
terrorists.
    The TIPOFF staff screens all incoming intelligence reports 
and other sources of information for the names and biographic 
data of known or suspected terrorists. Permission is obtained 
from the relevant agencies to declassify identifying data of 
suspected terrorists and that data is then entered into the 
CLASS system and into IBIS.
    We also have a program which we call Visas Viper, another 
integral part of the TIPOFF system. The Visas Viper staff, in 
close coordination with the Bureau of Consular Affairs, 
solicits information on suspected terrorists from overseas 
posts for inclusion in this database.
    Beginning in 1996, with the help of Congress through the 
retained machine-readable visa fees, Consular Affairs undertook 
a major modernization of our systems. By 2001, all visa data 
collected abroad, including photos of the applicants, was being 
replicated to the consular consolidated database and made 
available to posts abroad.
    This year, we deployed a pilot program to share limited 
non-immigrant visa data with INS inspectors at Newark. We are 
very pleased that INS will soon expand the use of this 
replicated data to all ports of entry. This will provide each 
INS inspector with a photo to compare with the person in front 
of them, a system cheaper than fingerprints and just as 
effective. In the meantime, INS inspectors have access to our 
electronic database through the INS Forensic Documents 
Laboratory.
    The Consular Lookout and Support System is modern and it is 
extendable. Our name check system remains robust because we 
continue to upgrade it. Let me give you a few of the 
initiatives underway related to this goal.
    For many years, we sought access to FBI criminal records 
data on aliens applying for non-immigrant visas, and I am very 
grateful to the members of Congress that legislation has been 
introduced finally in both Houses that would permit us access 
to this data.
    We will soon introduce an improved field backup name check 
system for use when the telecommunications links are 
interrupted. By the summer of 2002, every visa processing post 
will have a local backup that closely approximates the 
abilities of the CLASS mainframe.
    Photographs are our key to our exploration of biometrics. 
Because very visa application contains a photograph, we already 
capture a biometric identifier for all applicants. For this 
reason, we have been for some time investigating the use of 
facial recognition technology for identification purposes.
    Pilots at posts in India and Nigeria have proven very 
promising, and in late August we launched a pilot at the 
Kentucky consumer center aimed at detecting invalid diversity 
visa applications. We will soon the test the abilities of 
facial recognition software to compare visa applicants to a 
sample database of photographs of suspected terrorists. We seek 
to expand the pool of such photographs through liaison with 
other Government agencies, and we are also consulting with the 
private sector on facial recognition technology.
    We will soon complete field-testing a new, more secure non-
immigrant visa, and design a machine-readable secure immigrant 
visa that will, in conjunction with the data share program, 
virtually eliminate photo substitution. We are planning to 
develop a forensic documents laboratory in the Bureau of 
Consular Affairs to give us an independent capacity to detect 
and counter fraudulent or counterfeit U.S. and foreign visas 
and passports.
    Madam Chairwoman, all of these initiatives, past, present 
and future, have been made possible through a very wise 
decision by the Congress a few years ago to permit us to retain 
a machine-readable visa fee. Since 1994, when we were given 
this authorization to charge and to keep the fee, we have spent 
every penny sensibly and judiciously.
    We continue to rely upon machine-readable visa fees to 
finance the salary and basic benefits of virtually all American 
employees who provide consular services. Permanent and uncapped 
MRV fees are essential to continuing our efforts to enhance our 
Nation's border security.
    Madam Chairwoman, in our free society we must continue 
improving the security of our borders, while keeping our hearts 
and our minds and our economy open to new people, to new ideas, 
and to new markets. The Bureau of Consular Affairs has been, 
and will continue to be a full partner in the battle against 
terrorism.
    I close with the point that I made at the outset. We cannot 
be the effective outer ring of border security if we do not get 
information on people who seek to harm our country from the 
intelligence and law enforcement agencies. Information-sharing 
is key to our protecting our Nation.
    Thank you, Madam Chairwoman and members of the 
subcommittee, for the opportunity to appear before you and I 
would be happy to try to answer any questions that you might 
have.
    [The prepared statement of Ms. Ryan follows:]

 Statement of Mary A. Ryan, Assistant Secretary for Consular Affairs, 
               U.S. Department of State, Washington, D.C.

    Madam Chair and Members of the Committee:
    Thank you for the opportunity to appear before you today to explain 
the role of the Bureau of Consular Affairs, and most particularly our 
visa processing system, in this country's border security program. I 
only wish, Madam Chair, that the context for this hearing could be 
different. In that case I could open these remarks by saying how happy 
I am to appear before you, because I am proud of the systems we have 
developed over the past several years and that we work very hard to 
improve each and every day. I would convey again my appreciation for 
the help that the Congress has given the Department to improve our 
consular systems by allowing us to retain machine-readable visa (MRV) 
fees. However, I appear before you today keenly aware of the terrible 
tragedy that befell our country and all civilized countries on 
September 11.
    In my testimony, Madam Chair, I will outline for you what we have 
been doing to make our consular systems the best in the world and our 
plans to make those systems even better in the future. During my tenure 
as Assistant Secretary, the Bureau of Consular Affairs (CA) has been 
continually engaged in efforts to design, deploy, and improve the 
systems that help flag for our consular officers terrorists and 
criminals among visa applicants. I can say with confidence that ours is 
a state-of-the-art system that functions as it was designed. At the 
same time, we continue to seek and exploit new technologies to 
strengthen our capabilities. If there is any single point I can leave 
with the committee, it is that that any namecheck system is and will be 
only as good as the information we receive to put in it.
                            Visa Processing
    I will first focus on non-immigrant visa processing and explain 
briefly how applicants are processed so that you will understand the 
environment in which our systems operate. Applicants for non-immigrant 
visas submit a written application, with a passport and photo, for 
adjudication by a commissioned consular officer or other designated 
U.S. citizen. Locally engaged staff assist in visa processing but are 
not authorized to approve and issue visas.
    Visa applications are processed using sophisticated automated 
systems. Data entry automatically prompts a namecheck through the 
Department of State's centralized lookout system (CLASS, the details of 
which I will discuss later in my testimony). A consular officer must 
review all hits before the case can be formally approved for printing. 
There is no override for this feature; it is not possible to print a 
visa unless a namecheck has been completed and reviewed by an officer.
    Consular officers evaluate applications by looking at the full 
range of criteria established by U.S. immigration law. They review the 
credibility of professed plans for travel to the U.S. For most visas, 
applicants must establish that they intend to visit the U.S. only 
temporarily, are qualified for the visa classification sought, and will 
undertake only activities consistent with the particular visa status. 
Applicants must also establish that they are not otherwise ineligible 
to receive a visa under one of the specific grounds of ineligibility in 
the Immigration and Nationality Act, including terrorism, drug 
trafficking and alien smuggling.
    In addition to namecheck results, consular officers use a 
combination of experience, knowledge of local economic, political and 
cultural conditions, and common sense to evaluate applications. 
Supporting documentation may be solicited and reviewed as needed. When 
there are specific signs of fraud or deception, an investigation may be 
conducted using consular anti-fraud resources.
    The ever-growing numbers of visa applications has meant that 
consular officers must reach decisions in individual cases rapidly. To 
assist them in doing so, our namecheck technology provides results in 
real-time. We have used outside linguistic experts to make our search 
criteria for ``hits'' as helpful as possible. We have instituted 
sophisticated Arabic and Russian/Slavic algorithms to identify names 
regardless of transliteration variations, and are presently developing 
a similar algorithm for Hispanic names.
    Once approved, a visa containing numerous security features and a 
digitized photo is placed in the alien's passport. The maximum period 
of visa validity is ten years for multiple entries. The validities of 
different types of non-immigrant visas are determined on the basis of 
reciprocity with each foreign government. I should point out, Madame 
Chair, that the period of visa validity has nothing to do with the 
period for which an alien may remain in the United States. A visa 
permits an alien to apply for entry to the U.S., but only the INS may 
authorize such entry and determine the alien's length of stay.
    Visa data, including photos and pertinent biographic data, is 
electronically forwarded to the Consolidated Consular Database 
maintained in Washington. This database also contains information on 
refused applications.
    Immigrant visas are for persons intending to reside permanently in 
the United States. U.S. citizens and legal permanent resident aliens, 
as well as prospective employers, file with the INS petitions on behalf 
of certain relatives and employees. A special element of U.S. 
immigration law is the Diversity Visa (DV) for which ``winners'' are 
chosen by lottery. Like non-immigrant visa applicants, immigrant visa 
and DV applicants must undergo namechecks. In addition, an FBI employee 
at the National Visa Center does a National Criminal Information Center 
(NCIC) criminal history check of these applicants.
    I should note that, while immigrants are covered by NCIC screening, 
non-immigrants are not. I'll return to the solution to this problem, 
which I hope is imminent, in the context of our namecheck system.
                          The Namecheck System
    Integral to visa processing is the namecheck system. CA is well 
aware of the importance of sharing and receiving critical intelligence 
and criminal data from intelligence and law enforcement agencies. In 
addition to ensuring that no visa is issued without a namecheck, we 
have worked hard over the past decade to deliver more information from 
other agencies to our visa officers via the namecheck system.
    Our lookout database, the Consular Lookout and Support System 
(CLASS), contains about 5.7 million records on foreigners, most of 
which originate with the visa application process at our consulates and 
embassies overseas. A variety of federal agencies contribute lookouts 
to our system. INS has provided over one million records, and DEA about 
330,000. Customs is working with us to provide 20,000 or more lookouts 
from its serious drug violator records by the end of this year. We in 
turn provide Customs, INS and other agencies using the Interagency 
Border Inspection System (IBIS) with approximately 500,000 lookout 
records through a real-time electronic link.
    We also provide our officers, and the INS, with data on lost and 
stolen foreign passports to prevent the use of such passports by 
impostors.
                         TIPOFF and Visas Viper
    In the aftermath of the 1993 World Trade Center bombing, the Bureau 
of Consular Affairs--as part of the Department of State's border 
security program--funded a border security and counterterrorism tool 
known as TIPOFF. It was developed, and is managed, by the Bureau of 
Intelligence and Research (INR), utilizing sensitive intelligence and 
law enforcement information from the CIA, NSA, FBI and our overseas 
posts concerning known or suspected terrorists. TIPOFF's objective is 
to detect these individuals either as they apply for visas overseas, or 
as they attempt to pass through U.S., Canadian, and Australian border 
entry posts. (Data-sharing programs were implemented with Canada in 
1997, and with Australia in 2000.)
    The TIPOFF staff in INR screens all incoming intelligence reports, 
embassy cables and other sources of information for those documents 
containing the names and biographic data of known or suspected 
terrorists. Following strict procedures approved by the respective 
intelligence and law enforcement agencies, permission is obtained to 
declassify names, nationalities, passport numbers and dates of birth of 
suspected terrorists. This data is then entered into CLASS and the INS 
and Custom Service's IBIS system. Consular officers overseas encounter 
``hits'' based on TIPOFF data in the regular course of their work. The 
CLASS database contains over 48,000 such records. TIPOFF has passed 
approximately 23,000 records to INS and other inspection services at 
ports of entry via IBIS, which uses a higher standard of biographic 
data for its entries.
    The Visas Viper program is an integral part of TIPOFF. The TIPOFF/
Viper staff works in close coordination with CA to solicit information 
about suspected terrorists from overseas posts. This data is included 
in the TIPOFF database and watchlisted in CLASS and IBIS. A procedural 
adjunct to the Visas Viper program, called TIPPIX, incorporates 
terrorists' photographs into the TIPOFF and IBIS databases.
    TIPOFF performs the following important functions:

        It helps preclude the inadvertent issuance of visas to 
        terrorists whose names are known to intelligence and law 
        enforcement agencies; It warns embassies and consulates that 
        certain applicants may pose a security risk;
        It alerts intelligence and law enforcement agencies that a 
        suspected terrorist is applying for a visa;
        It provides a means for informed decisions to be made on 
        whether to issue a visa for operational or other policy 
        considerations, or deny the application;
        It enables INS and Customs to detect suspected terrorists who 
        may have obtained a visa prior to being watchlisted in CLASS, 
        or who are attempting to enter the U.S. through the Visa Waiver 
        Program (VWP);
        And it provides operational opportunities at border entry 
        points through use of ``silent hits'' or other handling codes.

    We are also comparing new TIPOFF hits in the Consular Lookout and 
Support System with visa issuance information in the Consolidated 
Consular Database, to determine if a subject of derogatory information 
was issued a visa before the hit was created.
                       Security Advisory Opinions
    We also address cases posing potential security threats using 
Security Advisory Opinion procedures. We have concluded a series of 
agreements with law enforcement and national security agencies 
concerning categories of individuals of concern. Such persons are the 
subjects of a cable prepared by a consular officer and disseminated 
electronically to all appropriate agencies for an in-depth clearance.
    The Department of State has designated Cuba, Iran, Iraq, Libya, 
North Korea, Sudan, and Syria as state sponsors of terrorism. Visa 
applications by officials and diplomats of these countries for the most 
part must be submitted to the Visa Office for review and an advisory 
opinion as to ineligibility before a visa can be issued. (This 
requirement does not presently extend to diplomatic/official visa 
applicants from Syria.) Non-official visa applicants from these 
countries are also subject to a wide range of special clearance 
procedures based on their background, the nature of their proposed 
visit, and the type of visa they are seeking.
    Based on agreements with the FBI, we also maintain a variety of 
special clearance procedures--beyond the regular CLASS namecheck--for 
numerous other nationalities, including Afghanistan. The reasons for 
these special clearance procedures vary, but include concerns related 
to espionage, technology transfer, economic sanctions, and human rights 
violations.
    In addition to these nationality-specific clearance requirements, 
we universally require special clearance for applicants of any 
nationality who are the subject of the most serious CLASS lookouts. We 
similarly require special clearance for applicants whose planned travel 
to the United States raises concerns about unauthorized access to 
sensitive technologies, even if there is no lookout entry for the 
individual. Consular officers are also asked to submit for a security 
advisory opinion any other cases that they feel raise security 
concerns, regardless of namecheck results.
                   the consular consolidated database
    Our data-sharing efforts are not, however, limited to the namecheck 
system. We are now delivering more information to our visa officers via 
a globalized database of visa records. Beginning in 1996, thanks to the 
help of Congress with retained MRV fees, Consular Affairs undertook 
major modernization of our systems. By March 2001, all visa data 
collected abroad was being replicated to the Consular Consolidated 
Database. In May 2001, we made the Consular Consolidated Database 
available to all our visa officers abroad. The photo and details of 
visa issuance, once only available locally to the post taking action, 
are now available in real-time to all visa offices worldwide. Visas can 
be checked at any point in the issuance process against all issued and 
refused visas worldwide, and consular management in Washington now has 
access to up-to-the-minute information about visa and passport issuance 
around the world.
    data-sharing with the ins and other federal inspection services
    We are working to widen the flow of information to relevant Federal 
Inspection Services. We are mindful of the challenges that INS faces in 
inspecting millions of foreign visitors at ports of entry. We have a 
number of initiatives underway to share additional information with INS 
in order to improve border security. As I mentioned earlier, the 
Consolidated Consular Database allows us to make visa information, 
including digital non-immigrant visa photographs, immediately available 
both in Washington and at all consular sections worldwide. We want INS 
to be able to make good use of this data, in particular photos of each 
individual who has been issued a visa.
    Since the mid-1990's, State and INS have had a cooperative program 
which has resulted in State forwarding to INS, for use at ports of 
entry, electronic data on 55% of all immigrant visa recipients. The two 
agencies have cooperated in exchanging information at all stages of the 
immigrant visa process, from approving petitions to issuing legal 
permanent residence cards. We are about to make certain software 
changes that should allow complete sharing of immigrant visa 
information with INS within the next year.
    The Department has for some time been prepared to share all of its 
replicated non-immigrant visa files with INS as soon as the Service is 
ready to receive it. Towards that end, in July 2001, we deployed a 
pilot program to share limited non-immigrant visa data with INS 
inspectors at Newark and with the INS forensic document lab. The 
program was expanded to Miami in September, and INS will make the data 
available to several other ports of entry soon. We look forward to the 
day when we can share this information will all INS ports of entry, as 
it will give INS inspectors near real-time access to data that will 
allow them to better detect fraud and facilitate legitimate travelers. 
In the meantime, INS inspectors have access to our electronic visa data 
via telephone contact with the Visa Office
           looking ahead: improving and extending our systems
    The Bureau of Consular Affairs has staff specifically dedicated to 
technical development to ensure we maintain state-of-the-art tools for 
adjudicating visas. The Consular Lookout and Support System is modern 
and extendible. Our namecheck system remains robust because we continue 
to upgrade it. We are committed and are actively working to expand 
datasharing with INS, other federal inspection services and law 
enforcement agencies.
A. Gaining Access to FBI NCIC III Data
    We need access to FBI criminal record data (NCIC III) on aliens to 
assist consular officers in their adjudication of visa applications and 
have been seeking authority for such access for many years. We already 
screen our immigrant applicants using FBI information and want to do 
the same for non-immigrant applicants. We envision a system of index 
records on aliens (excluding all U.S. citizens and legal permanent 
residents) that is added directly to the CLASS lookout system and that 
will signal there may be derogatory FBI information on an applicant. I 
am grateful to Members of Congress that this legislation has been 
introduced in both Houses of Congress. We appreciate the support of 
Congress on this important legislation.
B. Short-term improvements to Visa Systems
    This winter we will introduce improved field backup namecheck 
systems. By summer 2002 we plan to deploy a ``real time update'' 
feature for these systems that will give every visa processing post a 
local back-up that closely approaches the abilities of CLASS mainframe.
    Before the end of this year, we will modify our existing database 
of lost and stolen blank foreign passports to accommodate entries by 
Foreign Service posts of individual, foreign passports that are 
reported as lost or stolen. Lost and stolen passport data will continue 
to be shared with federal inspection agencies through IBIS.
    Specific enhancements aimed at giving visa officers more detailed 
lookout information have been in the works over the past year. By 
spring 2002, we will deploy features in our nonimmigrant visa system 
that will increase the scope of data associated with our lookout 
entries. Using scanning, we will begin augmenting the lookouts with 
global, electronic access to refusal files (and photos) now kept at 
individual Foreign Service posts.
C. Facial Recognition
    As I have said, Madame Chair, every visa application contains a 
photograph, which means we already capture a biometric indicator for 
every applicant. Accordingly, we have been investigating the use of 
emerging facial recognition technology in the consular business 
process.
    Evaluations comparing non-immigrant visa photos at posts in India 
and Nigeria proved promising in identifying impostors presenting 
fraudulent applications. In late August, we launched a pilot at the 
Kentucky Consular Center for Diversity Visas aimed at detecting invalid 
applications from persons working around our procedures. We will soon 
test the capability of facial recognition software to compare a sample 
database of photographs of suspected terrorists to those of visa 
applicants. We seek to expand the pool of photographs available for 
this use through efforts with other USG agencies.
D. Document Security
    We soon will complete field-testing a new, more secure non-
immigrant visa. Laboratory tests have shown that it is much more 
tamper-resistant than the current version. We will also complete design 
of a machine-readable, secure immigrant visa that will, in conjunction 
with the data-share program, virtually eliminate photo-substitution. We 
will provide our consulates with special secure ink with which to 
cancel visas, so that efforts to ``wash'' or ``recycle'' genuine visas 
will be much more difficult.
    We are planning to develop within the Bureau of Consular Affairs an 
independent capacity to detect and counter fraudulent or counterfeit 
U.S. and foreign visas and passports by creating a new office built 
around a forensic document laboratory. This office also would 
coordinate all Bureau efforts to assess biometrics technologies.
E. Human Resources
    Using MRV fees, the Department currently funds the salaries and 
benefits of 2,130 full-time positions. MRV funds will also be required 
to increase consular staffing worldwide, to address growing demands in 
the visa adjudication process. We are committed to an effective 
training program for consular employees, including an intensive one-
week training course for consular field officers on namecheck systems 
and linguistic concepts.
     Machine-Readable Visa Fees Provide the Means for Improvements
    Madam Chair, all of these initiatives--past, present and future--
have been made possible because of a very wise decision by Congress a 
few years ago to permit us to retain machine-readable visa (MRV) fees. 
Since 1994, we have spent every penny of these fees sensibly and 
judiciously. As I mentioned, the Bureau of Consular Affairs relies upon 
MRV fees to finance the salary and basic benefits of virtually all 
American employees who provide worldwide consular services as well as 
to make improvements to our systems. Permanent and uncapped MRV fees 
are essential to continuing our efforts to enhance the nation's Border 
Security Program. With this funding authority, we can ensure we have 
sufficient personnel to cover staffing and training gaps and to help 
meet peak season workloads. We can also adjust staffing to compensate 
for additional anticipated steps in the visa adjudication process and 
other changes to increase security.
    This funding allowed us to modernize our consular systems, and some 
of our future proceeds will go into further system upgrades, such as 
the scanning of our refusal files to augment lookout information. Other 
major expenditures looming include establishing additional back-up 
capabilities for the sophisticated automated systems that support both 
CLASS and the Consolidated Consular Database.
    The level of resources available to federal border agencies greatly 
affects our progress, particularly in interagency sharing of visa 
information. We must continue to work closely with other agencies on 
data-sharing to ensure full access to information for consular 
officers. We are anxious to provide visa data to federal inspection 
services and would like to see more rapid progress. Modernization of 
other agencies' systems--including more modern protocols in data 
exchange and more secure, flexible connectivity--is key to significant 
progress. We actively participate in the Border Agency Partnership 
(formerly IBIS), which aims to tackle these problems.
                                Closing
    Madam Chair, we live in a free and open society. These 
characteristics, so precious to all Americans, make our country a 
magnet to those who seek greater political, economic and social 
opportunities, as well as a target for those who hate us and seek to do 
us harm. We must continue improving the security of our borders while 
keeping our hearts and our economy open to new people, ideas and 
markets. CA has been and will continue to be a full partner in the 
battle against terrorism. Although the freedom and openness we value so 
much make totally foolproof systems virtually impossible, I am 
confident that our current system is state-of-the-art and functions as 
it was designed. I am also confident that we are on the right track 
with our efforts to find new technologies and institute data-sharing 
arrangements with other agencies.
    I close, Madam Chair, with the point I made at the outset of these 
remarks--the effectiveness and success of our systems rely not only on 
the quantity, but also on the quality and timeliness of the information 
that goes into it.
    Thank you, Madam Chair and members of the committee, for permitting 
me to share my thoughts with you today. I would now be pleased to 
answer any questions you have for me.

    Chairman Feinstein. Thanks very much, Ambassador Ryan.
    What I would like to do now is have a brief opening 
statement from Senator Cantwell and then we will begin the 
questions.
    Senator Cantwell?

STATEMENT OF HON. MARIA CANTWELL, A U.S. SENATOR FROM THE STATE 
                         OF WASHINGTON

    Senator Cantwell. Thank you, Madam Chair, and I do want to 
express my great appreciation to you and to Senator Kyl for 
your longstanding interest in this issue and your work. 
Clearly, this hearing is a product of not just a reaction to 
September 11, but a tremendous amount of work and focus by this 
subcommittee, and I applaud you for that and the legislation 
that you have put forth in the past.
    To the people that we are hearing from today, obviously the 
message is not that we haven't been doing anything. The message 
is that we need to move faster, and you have articulated some 
of the ways in which we need to move faster.
    Clearly, Congress has not always been consistent in the 
message as it relates to immigration and our borders, and 
hopefully this committee can play a leadership role in making 
sure that our colleagues realize that if we are going to be 
effective in this area, we need to send a consistent and 
effective message, and the resources to go along with that.
    Last night, we passed major anti-terrorism legislation that 
contained a specific new tool, a requirement that State and 
Justice develop a visa standard to secure our borders and to 
make sure that individuals who are seeking entry into our 
country can be identified, and that that information can be 
used in a system that makes sure that people who have known 
activities are kept out of our country.
    Having had the Ressam case in the Northwest where someone 
entered Canada on falsified papers and was detained but was 
successful enough after being detained to create a new identity 
by getting a Canadian birth certificate and then getting a 
Canadian passport and, in reality, loading up a vehicle with 
explosives and then traveling to the Blaine border in 
Washington State, we have a situation here where we have to 
have a system that is focused on point of origin, not point of 
entry.
    We need to be able to track people with certainty, not 100-
percent certainty that their name and identification absolutely 
match at that point, but at point of origin knowing exactly who 
we are dealing with at that point by a biometric standard that 
then can be used to track these individuals on their various 
routes from that point.
    I believe that citizenship in our country has its 
privileges, and those privileges are the right to privacy. 
Those individuals who are seeking access to our country should 
also have the responsibility of providing us with the 
information that we need to make sure that our borders are 
safe.
    So I appreciate the attention that all of you are giving to 
this critical issue, and the challenge that you all have on 
your shoulders, given the recent responsibilities in this new 
post and the huge history that we all have to deal with in this 
legacy of not being able to adequate meet the hurdles that are 
before us.
    So I look forward with enthusiasm to working with all of 
you and this subcommittee on this very challenging issue about 
how we focus our anti-terrorist activities on making sure that 
we do a better job abroad, giving access only to those people 
that we know we can have some data and background on their 
activities, and making sure that that system is fool-proof.
    Thank you, Madam Chairman.
    Chairman Feinstein. Thanks very much, Senator Cantwell.
    Let us now proceed with the questions. If it is agreeable, 
I would suggest five-minute rounds and if we need a second 
round, we can go ahead and do that.
    Mr. Fine, I would like to ask you this question. Do you 
believe that the dangers presented by the visa waiver program, 
particularly in light of the recent attacks, warrant its 
continued existence as currently structured?
    Mr. Fine. Senator Feinstein, that is a difficult question. 
It does allow the flow of individuals more freely into the 
United States, but it creates incredible risks that the 
inspectors at the port of entry do not have adequate 
information about suspected terrorists, criminals and others 
who should not be here.
    I think we need to look at that program, and one thing we 
need to look at is whether the countries that are participating 
in it are providing sufficient information to us, information 
about intelligence about the suspected terrorists, machine-
readable passports, biometric information about their 
individuals. I would suggest that we look at that before 
canceling the program totally, but there does need to be 
significant attention paid to that program.
    Another issue is--
    Chairman Feinstein. Can I stop you right there?
    Mr. Fine. Sure.
    Chairman Feinstein. Supposing the passport was required to 
be machine-readable, tamper-resistant, and had certain 
biometric data included on it, with the numbers coming through, 
could all of that be handled in a timely way?
    Mr. Fine. That would be a difficult issue. There are 
approximately 17 million visitors from visa waiver programs 
coming in each year.
    Chairman Feinstein. I understand it is 23 million.
    Mr. Fine. My understanding is it was 17. It could be 
higher.
    Chairman Feinstein. Okay.
    Mr. Fine. That would be a burden on the INS to do that. It 
would require sacrifices. It would require waiting, it would 
require longer lines. There are currently restrictions on the 
INS. They are required to clear planes in a certain period of 
time, 45 minutes. I don't think they could possibly do that 
with that kind of restriction on them.
    Chairman Feinstein. Is that an arbitrary restriction?
    Mr. Ziglar. No, no. It is in the law.
    Chairman Feinstein. You have to clear a plane?
    Mr. Ziglar. An international arrival has to be cleared by 
INS in 45 minutes under the law.
    Chairman Feinstein. Thank you. We could certainly change 
that.
    [Laughter.]
    Mr. Ziglar. And we appreciate that.
    Chairman Feinstein. Let me ask this question of INS. You 
are spending approximately $300 million a year on information 
systems. As I understand it, the Inspector General found that 
INS has spent $80 million on IDENT. The FBI has spent around 
$40 million for its new fingerprint system, which we understand 
is much better.
    Perhaps, Senator Kyl, you would want to chime in right now 
on what you learned about the hold-up of the IDENT system.
    Senator Kyl. From the staff--and this would be directed to 
you, Commissioner Ziglar--our understanding is that the program 
was moved to full Justice last year to ensure that IAFIS and 
IDENT are married together before any more IDENT systems were 
put in place, which was consistent with what you said.
    The note from staff says no one from Justice/INS has told 
the appropriators that the goals have been achieved, if they 
have been achieved. So it would be important to get something 
in writing to them about the status of this so that if they 
have been achieved, the moratorium can be eliminated. If you 
could get information regarding the status of that to the 
Congress--as you know, we are right in that time period right 
now, so that might be very helpful.
    Mr. Ziglar. Senator Kyl, what I mentioned was that we are 
about to deploy the transitional work stations that will marry 
these two. So we would be glad to give you all the facts and 
figures on that.
    The IDENT system, Madam Chairwoman, was deployed in, I 
believe, 1989 and we actually have 800 work stations out there. 
Over that period of time, we obviously had the development cost 
of it, we had the deployment costs, and then we have the O&M 
maintenance costs which have been running about $10 million a 
year, all in. So there is a longer-term investment horizon that 
is associated with IDENT than there is with respect to the 
IAFIS system.
    By the way, just so people understand what the difference 
is, the IAFIS system is a ten-print system, as opposed to a 
two-print system. But the reliability of two fingerprints is 
very close to the reliability of ten fingerprints, if you will. 
The IAFIS system is designed for a somewhat different reason, 
and that is identifying criminal aliens, marrying it up with 
that, and prosecution. Our system is to identify who the person 
is and the reliability of it is very high.
    Chairman Feinstein. I don't want to run out of time.
    Mr. Ziglar. Sure.
    Chairman Feinstein. Mr. Fine, let me ask you this question. 
You hear about all these systems. I mean, there is IAFIS, there 
is IDENT, there is ENFORCE. You can go right through it. None 
of them seem to talk to each other. They all seem to be 
different and none of them seem to put data in a central data 
bank from which all can call.
    Is that correct, first of all? Secondly, would you take a 
look at what Senator Kyl just stated, whether it is, in fact, 
necessary to get something in writing to the appropriators to 
proceed with that system?
    Mr. Fine. I would be happy to do that, Senator Feinstein. 
There are many systems. There are too many systems. Within the 
INS, there must be a hundred systems that don't talk to each 
other. Within the Government, there are many systems. There are 
some that do. The Interagency Border Information System does 
marry information from the State Department, from the FBI, from 
the INS. But that is a name-based system and that is one 
example of it.
    It needs to happen more often and it needs to happen with 
biometric identifiers so that we are not relying on people's 
names. People use false names; people's names are similar. 
There has to be a greater coordination of effort in that 
regard.
    With regard to IDENT, the problems with IDENT and IAFIS 
being married up started very early. These systems started in 
development in 1989. Both the FBI and the INS started their 
parallel systems, and the problem was that they both went their 
separate ways because they believed they needed different 
requirements.
    So when the INS implemented its first IDENT system in 1994, 
the FBI was behind schedule. The FBI eventually brought it into 
fruition in 1989 without an adequate plan to have them married 
up, and that is the system we faced in 1999 and that is the 
system we still face today. They are developing plans. There 
are pilot studies going on, there are operational studies going 
on, but there is not an effective plan to bring them to 
fruition.
    Chairman Feinstein. What would you recommend?
    Mr. Fine. I would recommend that they exert concerted 
effort on being able to decide what the operational 
requirements are, the funding needed, and implement that 
initially in a pilot project, but then move forward rapidly.
    Chairman Feinstein. Is there a need for everybody to have a 
different fingerprint mechanism? Can you not have one standard 
requirement for everybody with respect to fingerprints and then 
they go into a central base so that if something comes up and 
you need that instant communication between State, between INS, 
between FBI, and maybe even between CIA, you have got the 
ability to access it immediately?
    Mr. Fine. I don't think there needs to be a separate 
standard for fingerprint systems. The problem is we have 
developed separate standards and now they need to be 
integrated, which is harder to do.
    Chairman Feinstein. My time is up.
    Senator Kyl. Take some more. I took some of yours.
    Chairman Feinstein. Let me just ask Ms. Ryan this question. 
Three of the 13 terrorists who received valid visas overstayed 
those visas but were not detected or removed from the United 
States.
    What, in your view, went wrong in the issuance of valid 
visas that permitted these 13 terrorists to legally enter the 
United States, or do you view their entry as acceptable risk?
    Ms. Ryan. What went wrong is that we had no information on 
them whatsoever from law enforcement or from intelligence, and 
so they came in, they applied for visas. They were interviewed 
and their stories were believed. I think, like most Americans, 
I was surprised at how much we learned about some of these 
terrorists in the immediate aftermath of the September 11 
atrocities, and my question in my own mind is why didn't we 
know that before September 11.
    We were asked by the FBI to revoke visas on August 23rd of 
2001, and we found that one person that they asked us to revoke 
we had no record of. Another had been refused. A third one, his 
visa had expired, and the fourth one obviously we revoked, but 
he was already in the United States.
    We have had a struggle with the law enforcement and 
intelligence communities in getting information. We have tried 
in the Bureau of Consular Affairs my whole time in Consular 
Affairs to get access to NCIC III information from the FBI and 
we were constantly told we were not a law enforcement agency 
and so they couldn't give it to us. Other agencies fear 
compromise of sources and methods.
    I really think that now that we have seen what people can 
do to us that we have to figure out how we can get this 
information that protects sources and methods, although I must 
say in the immediate aftermath of the plane crashes and the 
killings that the American people were told that a couple of 
these people had been at a meeting with Osama bin Laden 
operatives in January of the year 2000.
    Mohammed Atta, who was alleged to be the ring-leader of 
this group, applied for and was issued a visa in May of 2000. 
Now, my question is when did we have this information as a 
Nation, as a Government. When did we know that he had met with 
Osama bin Laden operatives? And if it were known before we 
issued a visa, why didn't we know?
    Chairman Feinstein. How do you answer that yourself?
    Ms. Ryan. I don't know, Madam Chairwoman. Either it is a 
colossal intelligence failure, in which case we had no 
information about them, and so that is what I would have to 
regard it as, a colossal intelligence failure, or there was 
information that was not shared with us who are the outer ring 
of border of security.
    Chairman Feinstein. But unless somewhere there is some 
common database, you might put restrictions on access to that 
common database and you might want to just limit it to the 
world of terrorism, but at least everybody would be feeding 
their information into a common database.
    Ms. Ryan. Absolutely.
    Chairman Feinstein. If that were the case, then there could 
be a number of red lights that would go on with respect to 
certain people who present a hazard to the United States.
    Ms. Ryan. Precisely.
    Chairman Feinstein. Absent this, it seems to me there is a 
piece in this agency, there is a piece in that agency, there is 
another piece in a third agency, and it never develops into a 
complete picture that can ring a bell and say, whoops, there is 
a problem here.
    Ms. Ryan. I think after September 11 what we have seen is 
that just what you are describing must take place. I don't 
think there is any more turf business or any more worry about 
sources and methods. Information can be put into our system 
that exists right this minute, the system I described to you as 
a name check system, that can be put in in codes, the way the 
blind sheik was in the system but was not checked. Now, we have 
automated it, so it is impossible not to check--a double zero, 
which means you must refer the case to the visa office in 
Washington.
    The visa office in Washington, of the Bureau of Consular 
Affairs in the State Department, then goes to the agency that 
put that person in and says this person has applied for a visa 
at this post. Do you want to admit them? Do you want us to 
refuse them? What do you want us to do with that case? That is 
what we need, Madam Chairwoman. That is what we have to get.
    Chairman Feinstein. I think that Ambassador Ryan has hit 
the nail on the head. I think, Senator Kyl, that that is what 
we need to strive for. Let me turn it over to you.
    Senator Kyl. Thank you. I agree. It is a cut-out system, it 
is known. We use it all the time.
    I have got a couple of specific things which I will get out 
of the way, but then I think the overall question--and I think 
I want to address this primarily to you, Mr. Fine, at least 
first--we could easily get bogged down into the details. I 
mean, I have got so many questions here about the biometric 
border cards and all this kind of thing.
    Frankly, with our five-minute questioning rounds and short 
attention span to this, and so on--and we lack the expertise--
about the best thing we can do is to bring people together, 
shine some light on an issue, express a general policy 
direction and then turn to some people and say, now, please 
work this out, get something done, get recommendations to us 
with respect to any law changes or money that you need, and 
then we can move forward.
    So I will let you think about my question for a minute. All 
three of you, of course, are welcome to respond, but with the 
new terrorism czar, Governor Ridge, taking office, maybe this 
is a place for this to be done.
    It seems to me that a group needs to be convened of all of 
the relevant players, which would include all of the law 
enforcement and intelligence groups, the State Department, the 
INS with all of its different groups, Border Patrol, and 
Treasury with Customs, and the inspectors general of every one 
of these departments, and the Attorney General and others, and 
say, all right, we have a limited period of time to get 
everything coordinated and everything up to speed, how is this 
going to get done, and have a specific tasking group, a special 
group with that specific responsibility with respect to the 
issue that we are just talking about here today.
    I mean, there are all kinds of issues that have to be dealt 
with, but this is a fairly discreet, although large, problem. I 
will recommend that to Governor Ridge, but I would like your 
response to that.
    Just a couple of things back on this other issue. As you 
all know, the appropriators can be your friends. Here you have 
two right here. I think it is a matter of get information to 
them, don't wait for them to ask, don't wait to think about.
    Again, from staff I have a note here that $27 million is in 
the bill this year for the integration of IDENT and IAFIS. And 
according to staff of Appropriations, this should ``pretty well 
do it.'' Well, based upon what you said, Mr. Fine, maybe no 
amount of money can do it. I don't know. Is this right?
    I think you need to get a report to them while the CJS bill 
is still extant and it hasn't been resolved yet, and sit down 
with them, in light of the new circumstances. I would say to 
the extent it is appropriate--I know there is a policy firewall 
here between the inspectors general and the departments, but 
you do make recommendations and if there is some way to break 
down a few of those barriers and get recommendations about how 
to deal with this specific problem and then figure out the 
money that you need, that is just one way to begin to think 
outside the box, as you yourself, Mr. Ziglar, have said we have 
got to do. This is a new era and we have just got to sit down 
and work these things out.
    I was struck by your comment that 300 million non-U.S. 
citizens come into the United States every year. That obviously 
includes repeats of the same person, I presume.
    Is that correct? Three hundred million non-U.S. citizens 
come into the United States every year?
    Mr. Ziglar. It is actually more than that. It is probably 
closer to 350 million, Senator. I just said 300-plus because we 
have--
    Senator Kyl. And this is the legal entries.
    Mr. Ziglar. These are people that come across our borders, 
yes, sir.
    Senator Kyl. Well, no.
    Mr. Ziglar. Yes, yes.
    Senator Kyl. Okay, because we have another--
    Mr. Ziglar. You have got to remember, Senator, only maybe 
half of the non-U.S. citizens that come here come on visas, or 
way less than half come on actual visas. Then they come under 
the visa waiver program, and then they have the exemption if 
they are Canadians, for example. So a lot of people come into 
this country that the State Department never sees.
    Senator Kyl. Right. Now, we have to make a couple of quick 
points. First of all, the vast, vast majority of those people 
come to this country and contribute to our country. We want 
them here. All of that goes without saying, but I am just going 
to say it because we are focusing here on part of the problem. 
It is also a limited part of the terrorist problem with respect 
to people who are here illegally.
    But given the nature of this war that has been declared 
now, we can expect that this is going to be a significant 
component of fighting this war, making sure that we don't allow 
guests to come into this country who are going to cause us 
harm. So clearly we have a right to focus on these people, and 
I think that is the point I want to make.
    With regard to this subcommittee's jurisdiction, clearly we 
have a huge technology challenge with respect to that. Now, 
with that in mind, and understanding that technology isn't the 
only way to fight this, but in one way or another we keep 
coming back to that, let me start with you, Mr. Fine.
    If you were the President of the United States here and you 
had to figure out a way--and you are talking to Governor Ridge 
now and you are saying, Governor, I want you to get this part 
of the problem fixed. So what would you recommend we do so that 
we have got something in place here within the next 90 days, or 
whatever period of time, that we can get all of this 
information integrated, the systems can be integrated, 
everything we need in terms of information gets in and we begin 
to operate in a more secure way? What would the recommendation 
be?
    Mr. Fine. I agree with your recommendation. It is a problem 
that crosses agencies and it needs to be dealt with across 
agencies. And we need to bring together the knowledgeable 
people from the various agencies--the information technology 
people, the operational people, the policy people--and figure 
out a way to address this issue because it involves systems in 
the Justice Department, in the Treasury Department, in the 
State Department. We have too often dealt with these systems 
individually rather than in a coordinated fashion. So that does 
seem to be an area that Governor Ridge should and could deal 
with.
    Chairman Feinstein. Just one quick comment. Unless you have 
got the data from all of the agencies in one place, with some 
criteria for a potential terrorist definition to pop up, you 
are never going to be able to identify people who are potential 
threats. That is my concern in this, that we go on and we build 
a multiplicity of systems and they all fail dramatically 
because there isn't enough in any one system to identify a 
potential threat.
    Senator Cantwell?
    Senator Cantwell. Thank you, Madam Chair. Again, thank you 
for your leadership on this issue and conducting these 
hearings.
    Commissioner Ziglar, your enthusiasm in your new challenge 
has been noted, and your great relationship with the Hill. The 
challenge for us is going back over some of these problems that 
we have had before and I just wanted to make sure I understood 
some of your testimony.
    The laser visa program that we have at our southern border 
which really was the first step in a biometric visa with, I 
believe, two-fingerprint information and a photograph--we 
haven't implemented that fully, because we are not using that 
system now at our southern borders because we don't have the 
readers.
    Could you explain to me where we are on that program?
    Mr. Ziglar. That is partly correct. The laser card is now 
in effect, and as of October 1 we were no longer accepting the 
old border crossing cards unless they had been--with respect to 
those people who been approved and hadn't actually received the 
card, we stamped it and clipped it, and they can use it until 
they get their new card.
    That card has information about the folks in it. There have 
been 4 million of them, roughly, that have been approved for 
this and cards issued, thanks to Ambassador Ryan's operation. 
They did the approval. We actually did the production through 
of a contractor of the cards.
    Senator Cantwell. So somebody is actually crossing the 
border using this technology?
    Mr. Ziglar. Yes, ma'am. The card has a photograph on it. 
What is not in place are the machine readers for these cards, 
and has been really an issue of money.
    Senator Cantwell. So we have a sophisticated card, but no 
technology, so an individual border agent or INS inspector is 
looking at this?
    Mr. Ziglar. They look at the picture, but the fact is that 
these cards are pretty tamper-resistant and in a primary 
inspection mode that is what the cards would be used for. It is 
in a secondary mode that you would actually go and access the 
data and the biometrics of it. The machine readers for that 
have not been purchased and it has been a simple matter of not 
having the money appropriated.
    The INS has in its budget requests since 1999 has asked for 
the money for this. Now, I am not blaming Congress. I have seen 
the budget submissions. They asked for it, the OMB cut them 
out, and they were never part of the President's budget coming 
up here. So the money has never been appropriated for it.
    There is actually some good news in that. I know it sounds 
strange, but because of the advance in technology and because 
of the effectiveness, believe it or not, of the IDENT system, 
what we have in these little cards are the fingerprints of 
these folks that have applied for them. Those fingerprints have 
now been put into our IDENT system so that we can actually use 
a biometric through the IDENT system out of the process for 
using these cards, which means that we can now go to a more--I 
hate to use the word ``generic'' machine reader that can read 
lots of different kinds of biometric information out of 
different kinds of cards.
    That is what we are proposing to do, is to buy a somewhat 
different machine than we would have employed earlier and 
integrate our IDENT system into the border crossing card 
system.
    Senator Cantwell. Is there a problem with IAFIS and IDENT 
on this in the sense that one is a two-fingerprint and the 
other is a ten-fingerprint role? Aren't there some integration 
issues?
    Mr. Ziglar. That is a totally different issue.
    Senator Cantwell. But if we go down this one path with 
these two-fingerprint standards in one part of the system and 
then try to integrate it with another part of our information 
gathering--
    Mr. Ziglar. No, it is really not. What we are trying to do 
is access the fingerprints that IAFIS has, and they will access 
the fingerprints that we have in IDENT. We have only two. They 
have ten, but the reliability of a two-print system is very, 
very high.
    Notwithstanding what my friend the Inspector General said, 
the system is much further along. The Justice Management 
Division is actually honchoing the integration of this between 
the FBI and the INS, and we are going to be deploying 
transitional work stations that integrate the IAFIS and IDENT 
systems. The integration of IAFIS and IDENT does not in any way 
impede the effectiveness of the border crossing card or laser 
visa system at all.
    Senator Cantwell. Commissioner Ziglar, I want to get one 
more question in. We passed this legislation last night with 
authorizing language for tripling of border personnel--INS, 
Customs and border agents. Shouldn't we use some of the $10 
billion that has already been appropriated by Congress to get 
started on that project so that we can meet the challenge that 
we have right now with increased security levels at our 
borders, the challenge of actually doing exit interviews at our 
borders, and the sheer lopsidedness of the number of people 
that are at our Canadian border?
    Mr. Ziglar. Bless you for passing that and, yes, we should 
use some of that money.
    Senator Cantwell. Thank you.
    Mr. Ziglar. By the way, just for your information--you will 
be interested, since you are on the northern border--the day 
before yesterday, I redeployed 100 Border Patrol agents that 
had been part of the contingent we sent to the airports around 
the country that are now being phased out because of the 
National Guard. I have redeployed them to the northern border.
    We obviously have sent more inspectors up there. We now 
have 24/7 on all of our ports of entry on the border, in 
conjunction with the Customs Service. So we are moving rapidly 
and we have got some other ideas, some of them out of-the-box 
ideas about how we can upgrade our northern border security in 
a very short time frame.
    Could I take one other second to say something? I couldn't 
endorse more what Mary Ryan just said about intelligence 
information being available. From a technological point of 
view, we can get access to this information in one place. That 
is not something that can't be done. We have the capacity to do 
that, but it doesn't matter how much capacity you have got if 
the information that you need in the system is not there.
    What I saw before September 11 was a bunch of agencies with 
a bunch of territorial prerogatives that wouldn't share 
information. We didn't get NCIC III until fairly recently, and 
we only now have it at two of our ports of entry. Ambassador 
Ryan doesn't get it at all where she needs it.
    Well, now, finally the Congress has mandated it, but we 
have to have Government agencies working together for the 
interests of the American people. And after September 11, I see 
something happening that should have happened a long time ago, 
and that is that we are working together, and that is very 
positive. We can solve the technology problems. We need the 
personnel, we need the money, but we can fix it.
    Senator Cantwell. Well, I know my time is expired, but 
using some of the $10 billion that has already been 
appropriated, as opposed to waiting until next January or 
February to address this issue and coming back to Congress on 
the second $10 billion that has yet to be detailed out, would 
be a very positive step.
    Senator Kyl. [Presiding.] Thank you very much. I will wait 
for the chairman to excuse this panel and call the next, though 
she had authorized me to do so, but I will express my personal 
thanks. I think we are probably going to quickly write a 
letter, probably to Governor Ridge, but we also will need to 
have you all be talking to the people you work with in support 
of this effort that we talked about here today.
    Mr. Ziglar. Senator Kyl, if I could make one comment, don't 
get the idea that the executive branch isn't working in a 
coordinated fashion to do exactly what you are talking about. I 
am very involved in that. I haven't gotten much sleep in the 
last month, but I am going to tell you I am very involved in 
that. This administration, this executive branch--and this 
isn't partisan--is working very hard to try to bring together 
all of the things that you were talking about.
    Chairman Feinstein. [Presiding.] If I might, I would like 
to thank this panel and I would like to--you haven't asked your 
questions. I beg your pardon, Senator DeWine.
    Senator DeWine. You know, Madam Chairman, they were getting 
ready to leave. Mr. Ziglar was almost out the door.
    [Laughter.]
    Mr. Ziglar. I thought I had escaped, Senator.
    Senator DeWine. He thought he had escaped me, but he 
hasn't.
    Thank you very much.
    Commissioner, what role has the INS played in the recent 
investigation after September 11, and how well have you all 
done? Give us just a quick summary.
    Mr. Ziglar. We have played a very significant role, 
particularly with respect to the FBI. We have worked side by 
side with them both in the investigations and the interviews 
and the information-sharing. Notwithstanding the fact that we 
hadn't had really good information-sharing electronically 
speaking, if you will, we do now because there are plenty of 
ways that you can patch together systems that will make them 
work. They may not be as efficient as you would like them, but 
we clearly have done that.
    We have generated an enormous number of leads independently 
of the FBI in this. I am not going to reveal numbers at this 
point, but I can tell you that this organization has responded 
magnificently to this.
    Senator DeWine. Well, good for you and good for your team.
    Mr. Ziglar. It is not me; it is my team.
    Senator DeWine. Ambassador Ryan, whose job is it to see 
that all countries are complying with the visa waiver program, 
and are they? In other words, if we have somebody out of 
compliance, one of our partners, who is screaming about that?
    Ms. Ryan. It is a joint responsibility that we share with 
the Department of Justice. In fact, the Commissioner and I met 
with our staffs immediately after September 11 to review the 
visa waiver program to take a look at countries that might be 
of more concern to us now after September 11.
    We are going to have reassessment teams go out to six 
countries to discuss with them their passport controls and 
border patrols. We have pushed very hard. All the countries but 
one now issue machine-readable passports, the one being 
Switzerland, and they plan to introduce it in early 2003. But 
we have pushed very hard on all of those countries, and we look 
forward to working with the Department of Justice and the 
Immigration Service in going out to these countries, the six 
that are of concern to us, to discuss with them and perhaps to 
drop countries from this program.
    Senator DeWine. That was my next question. Do you have the 
authority to do that?
    Ms. Ryan. After the reassessments are done, yes, sir.
    Senator DeWine. You don't need any permission from anybody? 
You can do that?
    Mr. Ziglar. Well, we do it together.
    Senator DeWine. I understand, but you administratively do 
that?
    Ms. Ryan. What we would do would be to make a 
recommendation to the Secretary of State and to the Attorney 
General that the Attorney General remove these countries from 
the program.
    Senator DeWine. Let me just say as one member of the United 
States Senate, please don't hesitate to do it if the facts are 
there.
    Mr. Ziglar. We can and we will.
    Senator DeWine. If the facts are there.
    Ms. Ryan. Exactly.
    Senator DeWine. We are through messing around.
    Ms. Ryan. Indeed.
    Senator DeWine. All right. I think I can speak for most of 
my colleagues on that as well.
    You mentioned the program on the visa fee and the ability 
to keep the visa fee. What are you able to keep on each visa?
    Ms. Ryan. I can't thank you enough for what you have done 
for us. In the aftermath of the World Trade Center bombing, 
when the Congress recognized that we had a systemic problem--it 
wasn't a problem of a delinquent officer; it was a systemic 
problem that we were not automated--Congress gave us an 
authorization in fiscal year 1994 to charge a fee for every 
application for a non-immigrant visa and to keep the money.
    That fee is now $45, and that is an application fee; that 
is not an issuance fee. Just about everybody who applies for a 
non-immigrant visa pays a $45 fee and we are able to keep that 
money. With that money, over the years since fiscal year 1994, 
we have automated the world.
    Every visa-issuing post is online, in real-time, with the 
consular lookout system. It is a tremendous advance, a major 
advance in the protection of our borders, and it is because you 
all gave us that authorization and we were able to keep the 
money. Consular Services would have collapsed in the 1990s 
without that money.
    I don't know if you have paid attention to what was 
happening to the State Department budget in the decade of the 
1990s.
    Senator DeWine. Yes, I have.
    Ms. Ryan. We were savaged. We are not even able to hire to 
attrition, let alone anything more than attrition. It was 
terrible. But with the money through the machine-readable visa 
fee which is paid for by aliens, by foreigners--not one cent of 
American taxpayer money has improved that system; it is paid 
for by the foreigners applying for visas--we are able to 
automate the world and to protect our Nation.
    Senator DeWine. Well, it is a good model.
    Ms. Ryan. It is a tremendous, wonderful model.
    Senator DeWine. I think it makes a lot of sense and we 
ought to continue to look at different ways of doing that that 
do make sense.
    One final comment and maybe a question to you, Mr. Ziglar. 
A lot of the theme of this hearing understandably has been on 
the integration of our systems and one part of the Government 
knowing what another part knows. It is an age-old problem. It 
is not unique to the INS. It is part of the way Government 
unfortunately operates, particularly in this country with all 
kinds of different agencies at the local, State and Federal 
level. I saw it as a county prosecutor and I have seen over the 
years in the law enforcement area at the local community level, 
having a judge in front of him or her and this person is a 
repeat offender and the data is not there and they don't know 
it. They have got a DWI in Indiana and we don't know it in 
Ohio, and it just goes on and on.
    Ultimately, we can talk about it up here and we can have 
hearing after hearing, but you all are going to be the ones 
that have to fix it. I have looked at this for over 20 years 
and I think I know a lot about it, but there is an awful lot I 
don't know about it. I can't really get into the weeds and the 
other members of the panel can't get into the weeds. You have 
to fix it.
    Our obligation, though, is, when you come to us, to give 
you the resources that you need. And my final comment would 
simply be--and as Senator Kyl has said, we have a few members 
of the Appropriations Committee here, and, Mr. Ziglar, you know 
an awful lot of people on the Hill--please don't hesitate to 
let us know what you all need. The climate is right to get it 
done. Let's get it done as fast as we can. God bless our 
friends at OMB, but I hope their priorities are set correctly 
this time.
    Thank you.
    Chairman Feinstein. Let me thank the panel and let me just 
say that from my perspective, one overwhelming thing comes 
through. Thirteen out of 19 terrorists obtained valid visas. 
Clearly, our system is not able to prevent a terrorist from 
getting a visa legally to come into this country. That ought to 
be a sobering fact for all of us.
    The more I listen to testimony, the more I come to the 
conclusion that we are never going to do it the way we are 
going, unless every agency of Government is able to enter into 
one terrorist-oriented database certain factors that they know 
about given individuals and that database is programmed to ring 
a bell when enough factors coincide, whatever the experts 
decide.
    I am really concerned about continuing to appropriate money 
for systems that don't talk to each other. This is a colossal 
failure of our visa system. It doesn't keep out people who 
would come in and destroy us. So what else would you have a 
visa system for if not to do that? We might as well do away 
with it all and let everybody just come and go as they want to.
    Ms. Ryan. I have to say that it is a failure of 
intelligence rather than a failure of the visa system. If we 
had the information, we would not have issued visas to these 
people. We did not have the information.
    Chairman Feinstein. Then that information on individuals 
has to go into that centralized system.
    Ms. Ryan. Absolutely, but please don't say it is a failure 
of the visa system. I have visa officers all over the world who 
are devastated by the fact that they issued to these people. 
One of them told me you can tell me it is not my fault because 
we didn't have the information, but it is just as if a child 
ran in front of my car and I killed the child and everybody 
said it wasn't my fault; I have to live with that for the rest 
of my life.
    So it isn't a failure of the visa system. It is a lack of 
information-sharing, a lack of intelligence. We have to fix 
that, Madam Chairwoman. We have to fix it.
    Chairman Feinstein. It is a failure of the system. You 
know, I hear one agency blame another and it is very upsetting 
to me. We don't have a system that works.
    I would like to thank you all, and any ideas that you might 
have as to how the system can be made to work I think this 
subcommittee would very much appreciate receiving. Thank you 
very much.
    Mr. Ziglar. Thank you, Madam Chairman.
    Mr. Fine. Thank you.
    Chairman Feinstein. I would like to welcome the witnesses 
of our second panel. They are going to be, after listening to 
the discussion, describing some of the potential technological 
solutions to the problems identified, I think, by the first 
panel.
    We will begin with Mr. Steven Camarota. He is the Director 
of Research at the Center for Immigration Studies. He holds a 
master's degree in political science from the University of 
Pennsylvania and a Ph.D. in public policy analysis from the 
University of Virginia. He has testified before Congress on 
prior occasions and published widely on the political and 
economic effects of immigration. His articles on the impact 
have appeared in both academic publications and the popular 
press.
    We are delighted to have him here today, and hopefully he 
is going to be able to shed some light on the vulnerabilities 
of our system and what might be done to correct them.
    Mr. Camarota?

 STATEMENT OF STEVEN A. CAMAROTA, DIRECTOR OF RESEARCH, CENTER 
           FOR IMMIGRATION STUDIES, WASHINGTON, D.C.

    Mr. Camarota. Thank you very much. I would like to first, 
of course, thank the subcommittee for inviting me to testify 
today on an issue of critical importance to the future of our 
country.
    As we consider our responses to the horrific attacks of 
September 11, we are clearly going to have to take action in 
many different areas. While it is absolutely essential that we 
not scapegoat immigrants or immigration, especially Muslim 
immigration, it is equally important that we recognize the most 
obvious fact: The current terrorist threat to the United States 
comes almost entirely from individuals who arrive from abroad. 
Thus, our immigration policy is critical to reducing the chance 
of future terrorist attacks.
    There are a number of changes that seem obvious and that 
are clearly needed. To start with, we need a fundamental change 
in attitude. Unfortunately, some Americans have come to see our 
borders as simply an obstacle to be overcome by travelers and 
businesses. This attitude clearly has to change.
    Most Americans certainly understand that our border is a 
critical tool for protecting our national interests. And by 
``border'' I mean anyplace where foreign citizens enter the 
United States. A Zogby International poll taken in the--
    Chairman Feinstein. Mr. Camarota, let me interrupt you. I 
am going to ask them to strictly enforce the five-minute limit 
so that we can have some discussions among us.
    Mr. Camarota. Sure, okay.
    Chairman Feinstein. Thank you.
    Mr. Camarota. A Zogby International poll taken in the wake 
of the attack found that the overwhelming majority of Americans 
felt that lax screening of immigrants and border control 
contributed to the attack.
    Now, in addition to a change in attitude, there are a 
number of practical things we can obviously do. First, there is 
visa processing overseas. Clearly, our consular staff of about 
900 is extremely overworked, with 7.1 million non-immigrant 
visas or temporary visas being processed. The numbers are 
enormous and they are growing rapidly. Because of this 
ballooning of consular work, most consular officials only have 
a few minutes to interview each applicant. Clearly, more staff 
is needed.
    Now, to successfully handle such a caseload and keep those 
out whom we need to keep out, the watch list, which is, of 
course, a compilation of names of people who are not to be 
issued visas, is our most important tool. To the extent 
possible, we need to integrate, as we have already heard, 
biometric measures in there. Many individuals who are on the 
watch list have already been arrested in their home countries 
or on prior stays in the United States, and to the extent 
possible we need to add fingerprints and photos to the list.
    Of course, the next layer of defense is our borders. As we 
have heard, hundreds of millions of people cross our borders 
each year. Many more inspectors obviously need to be hired and 
we need more inspection stations. But most important, we need a 
system whereby all entries and exits are recorded to the United 
States.
    The whole notion of a temporary visa is pointless if we 
don't know whether the time limit has been honored, and to do 
that we need an entry/exit system. Our visas should use smart 
card type technology containing a photo and fingerprints that 
can be scanned each time a person enters or exits the country.
    Of course, these changes will be meaningless if it 
continues to be easy to cross the border illegally between 
crossing points. An inspector general report found that on the 
Canadian border, large sections of the border continue to be 
unmonitored.
    Of course, again, technology can be very useful here. Not 
every inch of the border has to be manned. Advanced sensors 
designed to detect motion can be valuable force multipliers, 
but as we have already heard, they won't be very useful if 
there aren't enough of them and they don't cover the whole 
border and not enough agents are there to respond if one of 
them is triggered.
    Of course, we also need to do something more in terms of 
interior enforcement. Current proposals for a tracking system 
for students must be extended to all non-student temporary 
visa-holders. Tracking is desirable because these long-term 
visitors reside here for long periods of time in legal status. 
Thus, they have time to hatch sophisticated plots.
    While a tracking system is certainly important, the 
centerpiece of any interior enforcement strategy has to be in 
enforcing the prohibition on hiring illegal aliens. Worksite 
enforcement, as it is commonly called, is critically important 
for several reasons.
    First, in terms of gaining control of the border, it will 
only be possible to do that if we reduce the number of people 
who are trying to come here looking for jobs. If they don't 
think the jobs are available, then they won't be crossing the 
border. Thus, it is critical to have worksite enforcement to 
gain control of the illegal crossing points of our border. 
Moreover, it will be much harder for terrorists who overstay 
their visas to blend into the normal life of the United States 
if finding a job is made much more difficult.
    Now, to have effective worksite enforcement, we need a 
national computerized system that allows employers to verify 
instantly that a person is legally entitled to work in the 
United States. Such a system would also have the advantage of 
letting us know where many legal immigrants, here on permanent 
residency visas, are working. At present, we have no idea where 
they are because they wouldn't be included in any temporary 
tracking system. So worksite enforcement could be a powerful 
tool for tracking people on permanent immigrant visas before 
they become citizens. Several terrorists in the past have been 
in that status, so this would be another important factor.
    The last change that is needed is that we might need to 
consider, at least temporarily, a reduction in the number of 
permanent and temporary visas. The most important reason to do 
this is that the INS clearly needs time to have some breathing 
room to deal with the implementation of all the new 
technologies.
    We are talking about increasing the size of its staff, and 
this kind of training and new investment requires a breathing 
space for the INS so that it can get up to speed. That is why I 
think we want to look at a reduction in the number of visas 
that we are issuing.
    Some, of course, may object to a more tightly controlled 
border that uses the latest technology because it is looking 
for a needle in a haystack. But the point is all technology and 
all border enforcement and all kinds of security measures are 
always aimed at the tiny fraction of people who want to cross.
    I see that I am out of time, so I will stop my comments 
now.
    [The prepared statement of Mr. Camarota follows:]

   Statement of Steven A. Camarota, Director of Research Center for 
               Immigration Studies, Washington, DC 20005

                              Introduction
    The nation's responses to the horrific attacks of September 11 will 
clearly have to be in many different areas: including military 
retaliation, freezing terrorist assets, diplomatic initiatives, 
improvements in intelligence gathering, and expanded security measures 
at airports, utilities and other public places. But one aspect of 
increased preparedness must not be overlooked--changes in immigration 
and border control. Though alll the details have been released, it 
seems clear that the 19 terrorists of September 11 were all foreign 
citizens and entered the United States legally, as tourists, business 
travelers, or students. This was also true of the perpetrators of 
previous terrorist acts, including Ramzi Yousef, mastermind of the 
first World Trade Center bombing in 1993, Mir Amal Kasi, murderer of 
two CIA employees the same year, and Sheik Omar Abdel-Rahman, convicted 
in 1995 of plotting a terror campaign in New York.
    While it is absolutely essential that we not scapegoat immigrants, 
especially Muslim immigrants, we also must not overlook the most 
obvious fact: the current terrorist threat to the United States comes 
almost exclusively from individuals who arrive from abroad. Thus, our 
immigration policy, including temporary and permanent visas issuance, 
border control, and efforts to deal with illegal immigration are all 
critical to reducing the chance of an attack in the future.
    Much has been written about how we are involved in a new kind of 
war. In this new kind of conflict, America's borders are a major 
theater of operations. This is because the primary weapons of our 
enemies are not aircraft carriers or even commercial airliners, but 
rather the terrorists themselves--thus keeping the terrorists out or 
apprehending them after they get in is going to be an indispensible 
element of victory. The simple fact is that if the terrorists can't 
enter the country, they won't be able to commit an attack on American 
soil.
    The president implicitly acknowledged this fact in announcing the 
creation of a new Office of Homeland Security, which ``will lead, 
oversee and coordinate a comprehensive national strategy to safeguard 
our country against terrorism.'' In a very real sense, we already have 
a homeland security agency--it's called the Immigration and 
Naturalization Service (INS). The precursor of the INS was established 
in the Treasury Department in 1891 and moved to the new Department of 
Commerce and Labor in 1903. But in 1940, as war neared, it was moved to 
the Department of Justice. As Cornell professor Vernon Briggs has 
written, the move was done because ``It was feared that immigration 
would become a way of entry for enemy spies and saboteurs,'' and 
President Roosevelt himself said the change was made solely for reasons 
of ``national safety.'' A history of the INS describes its war-related 
duties: ``Recording and fingerprinting every alien in the United States 
through the Alien Registration Program; . . . constant guard of 
national borders by the Border Patrol; record checks related to 
security clearances for immigrant defense workers. . .''
      A Fundamental Change in Attitude About Our Nation's Borders
    Most Americans understand that our border is a critical tool for 
protecting America's national interests. (By border I mean any place 
where foreign citizens enter the United States.) A Zogby International 
poll taken in the wake of the attacks found that the overwhelming 
majority of Americans, across all races, regions, incomes, and 
political beliefs blamed lax border control and screening of immigrants 
for contributing to the attacks and believed that improved immigration 
enforcement would reduce the likelihood of future atrocities.\1\ There 
can be little doubt that greatly stepped-up efforts to control the 
border would be met with overwhelming support by the American people. 
Unfortunately a small but politically very influential portion of 
America's leadership has come to see our borders as simply an obstacle 
to be overcome by travelers and businesses. This attitude clearly has 
to change.
---------------------------------------------------------------------------
    \1\ The results of the Zogby International poll on immigration and 
terrorism can be found at www.cis.org/articles/2001/terrorpoll.html.
---------------------------------------------------------------------------
    If we take the physical safety of our people seriously, our 
mechanisms for controlling and monitoring the movement of foreign 
citizens across our borders must be improved in three places: overseas, 
at the border itself, and inside the country.
                        Visa Processing Overseas
    Entry to the United States is not a right, but a privilege, granted 
exclusively at our discretion. For the most part that discretion is 
exercised by members of the State Department's Bureau of Consular 
Affairs, often referred to as the Consular Corps. Among their other 
duties, these men and women make the all-important decisions about who 
gets a visa to enter the United States, making them the forward guard 
of homeland defense--America's other Border Patrol.
    Recent improvements. Unfortunately, the Consular Corps has neither 
the manpower, nor the tools to fulfill this heavy responsibility 
properly. Most importantly, management of the consular corps offers 
distorted incentives to officers in the field. Mary Ryan, who became 
Assistant Secretary of State for Consular Affairs in 1993 and is in 
charge of visa issuance and the other consular responsibilities, has 
overseen genuine technical improvements in the issuing of visas. These 
changes have included making visas machine-readable and more difficult 
to forge than in the past. Also, the ``watch list'' of people who 
should not be granted visas is now computerized, rather than the old 
microfiche-based system in place until just a few years ago.
    The American people and not visa applicants is the customer. But 
along with improvements, the Consular Corps has also adopted a culture 
of service rather than skepticism, in which visa officers are expected 
to consider their customers to be the visa applicants. Thus, satisfying 
the customer--the foreign visa applicant--has become one of the most 
important goals, leading to pressure to speed processing and approve 
marginal applications. As one former Foreign Service officer has 
written, ``State Department procedures call for supervisory review of 
refusals, but not issuances--thus, relatively inexperienced junior 
officers are trusted to issue visas but are second-guessed on 
refusals.'' \2\ Visa officers are judged by the number of interviews 
conducted each day and politeness to applicants rather than the 
thoroughness of screening applicants. This is especially ironic given 
that the law requires precisely the opposite approach, placing the 
burden of proof on the applicant for a temporary non-immigrant visa.
---------------------------------------------------------------------------
    \2\ Former State Department employee Nikolai Wenzel describes 
conditions at overseas consulates in a report public by the Center for 
Immigration Studies. The report is available at www.cis.org/articles/
2000/back800.html
---------------------------------------------------------------------------
    A Conflict of interest between visa processing and diplomacy. 
Responsibility for issuing visas fell to the State Department because 
it was the only agency with offices overseas, where the demand was. But 
it is difficult to imagine two less complementary functions than 
diplomacy and immigration enforcement. The diplomat's goal of promoting 
cooperation and compromise is sometimes in conflict with the 
gatekeeper's goal of exposing fraud and ensuring compliance with the 
law. This systemic mismatch is likely to persist regardless of 
management changes and may only be remedied by transferring all visa-
issuing responsibilities overseas to the INS or perhaps a new ``Visa 
Corps.''
    A new separate ``Visa Corps?'' A new free-standing visa issuing 
agency would have offices in consulates around the world, and would 
issue visas and be answerable not to the local ambassador, but to the 
head of this new agency or perhaps even the head of homeland security. 
If INS was to take control of visa processing overseas, then the Visa 
Corps could be answerable to INS headquarters in Washington. Moreover, 
if visa processing was the career choice of all visa officers, those 
who would work in this area would be able to hone their skills at 
spotting fraud or security risks. Visa officers need to be highly 
trained professionals, specializing in their function, respected by 
their agency, and insulated, to the extent possible, from political 
pressure. Such a system would be an invaluable asset in making our 
nations safer from terrorism.
    More resources are needed. Administrative changes, of course, won't 
matter much if there aren't enough people to handle the work. The 
Bureau of Consular Affairs has only 900 Foreign Service officers 
overseas, assisted by 2,500 foreign nationals, and the demand for visas 
to visit the United States is enormous. Last year, the State Department 
issued 7.1 million non-immigrant visas, up 15 percent from 1995, and 
more than triple the number issued 30 years ago, when the majority of 
visas were issued to citizens of countries (mainly Western Europe and 
Japan) which now no longer need visas when arriving on short visits.
    Because of this ballooning workload, all junior Foreign Service 
officers are required to adjudicate visa applications for a year or 
more, turning this profound responsibility into a dreaded rite of 
passage for new Foreign Service officers. Consular officers often have 
no more than a few minutes to assess each application. What's more, 
visa responsibilities are held in such low regard institutionally that 
consular ranks are often filled by unemployed spouses of local Foreign 
Service officers.
    Watch lists and biometric identification. But even with adjusted 
incentives and adequate personnel, successfully handling such an 
enormous workload, and keeping out those who would do us harm requires 
the right tools. The primary tool in flagging terrorists is the ``watch 
list,'' (also called the ``look out'' system) a compilation of several 
million people who are not to be issued visas. Obviously, effective 
intelligence is required for the watch list to be valuable, but based 
as it currently is solely on names, rather than also using a biometric 
identifier like a fingerprint, means that many possible terrorist might 
slip through. While fingerprints will never be available on most of 
those on the list, many persons on the watch list have been arrested or 
detained by authorities in other countries or on previous stays in the 
United States. To the extent possible we need to obtain these 
fingerprints and make them part of the watch list database.
    To be most effective, the visa process should start with each 
applicant's fingerprints being digitally scanned into an integrated 
system which can be accessed by everyone involved in the immigration 
process--overseas, at the border, and within the country. These 
fingerprints should be checked against the watch list. Ideally, 
visitors' fingerprints should be scanned again when they enter the 
country, and again when they leave. This wouldn't be cheap to 
establish, but the technology is already widely used; in fact, the 
Border Patrol has been scanning fingerprints of illegal aliens 
apprehended on the Mexican border for several years now. Gathering 
applicant fingerprints and scanning them again when a person enters and 
leaves the country would serve many purposes: First, it would be a way 
of definitively determining that someone has entered the country and 
also that they have left when they are supposed to. Second: it would be 
a way of excluding those on the watch list for whom we have 
fingerprints. Third, it would establish identification, ensuring that 
the person issued the visa is the same person entering the country. 
Fourth, it would prevent individuals from going from consulate to 
consulate using different identities if they have been denied a visa at 
one location. Fifth, providing the U.S. government with fingerprints 
would by itself be a significant deterrent to would-be terrorists who 
certainly would be reluctant to give the government this information.
    To the extent possible we also need to put photos of suspected 
terrorists on the watch list as well. If we took a digital photo of 
every visa applicant and ran it through facial recognition software, 
(which is already pretty well developed), along with fingerprints for 
each applicant, we might also be able to identify suspected torrorists 
even if they apply for a visa using a false identity. While something 
like a facial recognition system would take time to implement, there 
are other simpler things we can do right away to make the list much 
more effective. the State Department's watch list could include access 
to the FBI criminal database, at present it does not. With the right 
management, staffing, and technology, the process of screening those we 
want to keep out would be much more effective. A number of procedural 
and legal changes would also help.
    Exclude all enemies of America. Visa officers should be instructed 
to deny visas to people who are clearly enemies of America, but who 
have not actually committed a terrorist act. Currently, the law makes 
it extremely difficult to turn down an applicant because of his 
``beliefs, statements, or associations, if such beliefs, statements, or 
associations would be lawful within the United States.'' As the law now 
reads, keeping out a terrorist sympathizer, who publically organize 
demonstrations calling for the destruction of America or actively 
distributes Osama bin Laden videos, but who as far as we know, hasn't 
yet raised money for terrorist groups or planned out an assault, 
requires the Secretary of State to personally make the decision and 
then report each individual instance to congress. As a result, few if 
any individuals are excluded based on their anti-American beliefs.
    We will not, of course, know the political beliefs of most 
applicants. However, just has we learn about the possible terrorist 
links of some individuals from friendly governments as well as our own 
intelligence, we will also learn of those who express strong anti-
American views. These individuals can then be added to the watch list. 
Some may object to the idea of excluding people based only on their 
political beliefs, but it is important to remember that getting a visa 
to come to America is a privilege, not a right, and it is only common 
sense to exclude those who advocate violence towards our country. This 
is especially true during a time of war when the only way for the 
terrorist to attack us on our own soil is if we allow them into the 
country. Moreover, being denied a visa does not prevent such a person 
from continuing to express their views. He or she is free to do so in 
their own country. One can only imagine the American public's reaction 
if it is revealed in the aftermath of another attack that the anti-
American views of the terrorist were know and he was still issued a 
visa to come to America. It is simply irresponsible not exclude all 
such individuals.
    More through screening for applicants from some countries. 
Additionally, citizens of those countries whose governments do not 
sponsor terrorism, but whose citizens have come here as terrorists 
(Egypt or Saudi Arabia, for example) should have to pass a much higher 
bar for visa issuance, including a thorough security clearance (working 
with local authorities) and confirmation with universities of each 
student visa application. This should also apply to visa applicants 
born in these countries but now holding other citizenship. In addition, 
no visas should be issued to citizens of Middle Eastern countries at 
U.S. consulates outside their home countries; this is because an 
American visa officer in Germany is less likely to be able to identify 
a problem applicant from Saudi Arabia than his counterpart based in 
Saudi Arabia.
    There is nothing unprecedented about such country-specific 
temporary visa policies; for instance, a person from Poland currently 
needs a visa to vacation in the United States, whereas a persons from 
Japan does not, because Poles are more likely to overstay their visas 
than Japanese. It is true that these provisions apply only to temporary 
visas, but a much higher bar for both temporary and permanent visas for 
nationals from some countries is simply a logical extension of this 
kind of policy.
    Excluding persons based on religion or nationality is not 
justified. The fact that the terrorist attacks of September 11 were 
perpetrated by foreign-born Muslims may tempt some to support the 
elimination of visas for all Muslims or Middle Easterners in an effort 
to reduce or eliminate the foreign terrorist threat in the future. 
While more vigorous backgrounder checks for persons born in some 
countries makes sense and may result in a higher percentage being 
denied visas, efforts to exclude entire countries or religions should 
be resisted. Changes of this kind would harken back to immigration law 
prior to 1965 when the number of permanent residency visas were 
severely restricted for southern and eastern European countries, while 
immigration from Western Europe was much less restricted. Using 
religion or nationality as a basis for issuing visas is not only 
inconsistent with American values but may also anger Middle Eastern 
countries whose cooperation we very much need in the war on terrorism.
    There may well be compelling national security or other reasons to 
reduce both temporary and permanent immigration, but changes should 
apply equally to all countries not just those in some parts of the 
world. Later in my testimony I explore some of the reasons why we may 
wish to reduce the overall level of immigration.
    Selective enforcement of immigration law also must not be 
undertaken. For example, we should definitely not pursue visa 
overstayers who are from the Middle East more vigorously than those 
from other counties. Instead, we need to develop enforcement strategies 
that apply forcefully to all overstayers. By definition all those who 
have overstayed their visas or entered the country without permission 
have broken the law and should be made to leave the country. Signaling 
out one group for enforcement is not only unfair and un-American but it 
is probably unconstitutional as well.
                         Controlling the Border
    The next layer of protection is the border itself, which has two 
elements--``ports of entry,'' which are the points where people 
traveling by land, sea, or air entering the United States, and the 
stretches between those entry points. The first are staffed by 
immigration and Customs inspectors, the second monitored by the Border 
Patrol and the Coast Guard.
    The need for improvements at the ports of entry is dire. Last year 
there were more than 500 million entries at these legal entry points, 
mostly at land border-crossings and many of them commuters. Close to 
half of these entries are returning U.S. citizens, and others are 
border commuters, but the number of foreign visitors is still enormous. 
In 1999, there were more than 31 million ``non-immigrant'' admissions 
(not counting Canadians and Mexicans on short visits), almost triple 
the number of 20 years ago. These were mostly tourists (24 million) and 
business travelers (4.5 million), but also included nearly a million 
students and exchange visitors and about the same number of 
``temporary'' workers and corporate transferees. In fact, the INS 
states of the above numbers, ``Inspections data for land passenger 
traffic are estimates that may contain unspecified margins of error.'' 
Put simply, the INS does not know how many people are entering the 
country.
    A greater investment in manpower and infrastructure at the border. 
The land crossing points are often not fully staffed, and not every car 
or truck is examined. Part of the solution here is straightforward--
many more inspectors and more inspection lanes at crossing points. 
Immigrant smuggling through ports of entry, using fake papers or hiding 
in secret compartments, was almost completely shut down when security 
along the borders was tightened in the wake of the September 11 
attacks. The problem, of course, was that inadequate staffing and 
infrastructure caused long waits--but thorough checking plus additional 
inspectors can equal better security without excessive delay.
    This attitude toward border security should have changed in 
December 1999, when one Ahmed Ressam was stopped by a border inspector 
at a crossing in Washington state. It turns out that he had trained at 
bin Laden's terrorist camps in Afghanistan and had a car full of 
explosives with which he was going to disrupt millennium celebrations 
in Seattle and blow up Los Angeles International Airport. He had 
entered Canada with a forged passport, requested political asylum, and 
was released into the population, pending a court date. This is 
standard practice in Canada, and underlines the importance of better 
border control.
    Entry Exit System. There is also a long-standing and very real 
problem that the INS also does not know whether foreign visitors 
admitted on visas actually leave the country when their visas expire. 
There is no mechanism for tracking land departures, and the system for 
tracking arrivals and departures by air, which is how most visa-holders 
travel, is completely broken. The current system requires foreign 
visitors to fill out a two-part form with their name, passport number, 
destination. The visitor then hands one part to the U.S. immigration 
inspector upon arrival. The other half is collected by the flight 
attendants on the outbound flight and later transferred to the INS. The 
opportunities for failure are enormous: airlines often don't collect 
the forms or forward them to INS; visitors may enter by air but leave 
by land, leaving no trace of their departure; the information on the 
paper forms may be improperly keyed in. This system is so dysfunctional 
that the INS's own statistics division considers any departure data 
after 1992 to be worthless.
    Time-limited visas are pointless with out entry-exit system. 
Temporary visa are only meaningful if we know whether the deadline has 
been honored. Because we do not collect accurate exit information, we 
have no way of knowing if someone has left the country. The result of 
this situation is a list of millions of people who appear not to have 
left, most of whom really have. Because of this, it is impossible to 
pick out the actual ``visa over-stayers.'' As a result, if the FBI asks 
the INS if a particular individual is in the country, in may cases the 
INS must respond they simply do not know. In total, there are an 
estimated 3 to 4 million people living in the United States who entered 
the country legally, but never left, accounting for perhaps 40 percent 
of the total illegal-alien population.
    The bipartisan U.S. Commission on Immigration Reform, headed by the 
late Barbara Jordan, in 1994 called for computerized tracking of all 
arrivals and departures by land, sea, and air (including Canadians who 
don't need visas). Congress in the 1996 immigration law directed the 
INS to develop such a system, but partly at the behest of the business 
community in border-states, this provision was postponed and in 2000 
effectively shelved. The concern was that the system would create 
interminable traffic jams as people lined up to enter and leave the 
United States--but a technologically modern system with an adequate 
number of scanners should not significantly impede traffic at all. 
This, of course, would mean greatly increased investment in equipment, 
personnel, and infrastructure at the border as well. For example, where 
there are now 10 lanes of traffic and inspection stations there may 
need to be 20 and where there are now 20 lanes there may need to be 40. 
The only other alternative is to expose the country to unacceptable 
risk.
    Border Patrol is grossly inadequate. The situation isn't much 
better between the ports of entry. Better screening of visa applicants 
and a tightly monitored entry-exit system would be almost meaningless 
if it continues to be easy to cross the border illegally. A serious 
attempt has been made in recent years to increase the Border Patrol, 
although the total number of agents there is still only about 9,000 
overall, and on any given shift, there are only about 1,700 agents on 
duty at the southern border or an average of less than one agent per 
mile. Moreover, there are only a few hundred agents patrolling the 
entire Canadian border, and this is where terrorists are more likely to 
enter for a variety of reasons, including the fact that immigrant 
communities in many Canadian cities provide excellent cover, whereas 
someone from the Middle East could not blend in so easily on the 
Mexican border.
    A February 2000 report by the Justice Department's Inspector 
General sheds light on how inadequately the northern border is 
patrolled. It found that at one 300-mile sector of the border, agents 
identified 65 smuggling corridors but had only 36 sensors to monitor 
them.\3\ Such sensors, designed to detect motion or heat or metallic 
objects, can be a valuable force-multiplier, but they will not be 
useful unless there are enough of them to cover the border and enough 
agents to respond when they are triggered. What's more, the IG report 
found that in some short-handed sectors, there are times when there are 
no agents on duty at all, a fact which quickly becomes apparent to 
various kinds of smugglers and terrorists trying to cross the border.
---------------------------------------------------------------------------
    \3\ The entire report is available www.usdoj.gov./oig/i200004/
i200004.htm.
---------------------------------------------------------------------------
    The answer, of course, is increased personnel and a serious 
commitment to border security. The Border Patrol has actually increased 
significantly since the mid-90s, and has been doing a much better job 
of patrolling the southern border, dramatically reducing illegal 
crossings near major cities and forcing smugglers to resort to more 
remote areas, where they are more easily detected. These successes need 
to be expanded upon while improving coverage of the northern border as 
well. The Border Patrol could be increased from its current total of 
less than 10,000 up to 30,000 or 40,000 people without even nearing the 
point of diminishing returns. This cannot be accomplished overnight, 
however, because it takes time to build a trained and experienced 
force. Nonetheless, failure to properly police the border between 
crossing points would be a huge invitation to terrorists rendering all 
our other efforts at immigration enforcement irrelevant.
    Increased Border Patrol is not militarization. Some may object to 
such measures, and even to the increased border enforcement that has 
already taken place, as ``militarization'' of the border. Such 
objections highlight the important difference between the respective 
roles of soldiers and law enforcement; soldiers are supposed to find 
and kill the enemy, while law enforcement agencies, like the Border 
Patrol (and the Coast Guard), deter or apprehend wrongdoers. Assigning 
troops to patrol our borders would indeed be a militarization of border 
enforcement, and should be a very last resort (although using military 
support capabilities, such as radar and road-building, to assist the 
Border Patrol is appropriate, even necessary). But the way to avoid 
militarization is to build up the capacity of the Border Patrol such 
that there would be no reason to call for troops on the border.
                          Interior Enforcement
    The final layer of effective immigration control lies inside the 
country. As already discussed, the federal government has no idea 
whether foreign visitors have left when their visas expire. In 
addition, it has no idea where foreign citizens live when their visas 
are still valid.
    Tracking tourists and business travelers would be difficult--even 
in the current environment, it is unrealistic to require all foreign 
visitors to submit their passports every time they check into a hotel 
and to expect hotels to report that information. Currently, foreign 
travelers are required to write down their destination upon entering 
the United States, but no effort is made to verify the information; in 
fact, two of the September 11 jihadists listed ``Marriott Hotel, New 
York'' as their destination. Resources could be more fruitfully spent 
elsewhere. Of course, this is why more stringent controls on issuing 
visas and real-time tracking of visa overstays are so important. But 
even with better screening and tracking of overstays, if we continue to 
almost entirely neglect enforcement of immigration law and allow 
millions of illegals to live in the country, we will also continue to 
expose our country to very significant terrorists threats. Fortunately 
there are a number of steps that can be taken to enforce the law within 
the United States.
    A tracking system for temporary visa holders. Tracking of foreign 
citizens residing here for extended periods of time, affiliated with 
some American institution responsible for their whereabouts, is both 
possible and desirable. It's desirable because these long-term visitors 
(here from one to six years, or more) reside here for long periods of 
time in a legal status, whereas short-term visitors are less likely to 
have the time to hatch sophisticated plots before their visas expire. 
In our open society, there has been only the most perfunctory oversight 
of such long-term foreign students and workers--so perfunctory, in 
fact, that at least one of the September 11 terrorists entered the 
country on a student visa but never showed up for class, without 
triggering any concern anywhere.
    And although short-term tourists and business travelers, who are 
not attached to any American institution, make up the majority of non-
immigrants, the number of long-term visa holders requiring oversight is 
still quite large. In 1999, there were more than 923,000 foreign 
students and exchange visitors admitted (including their spouses and 
young children), up 45 percent just from 1995. The number of long-term 
foreign workers, plus family members, was about 1 million in 1999, up 
123 percent from 1995.\4\
---------------------------------------------------------------------------
    \4\ Because the INS does not carefully track enter and exits, these 
figures include an unknown number of reentries by the same individual.
---------------------------------------------------------------------------
    The 1996 immigration law mandated the INS to develop a computerized 
tracking system for foreign students, to replace the current manual, 
paper-based system. Unfortunately, the system has not gone beyond the 
pilot stage, and is only tested in a couple of dozen southeastern 
schools, largely because of opposition from universities and colleges. 
Institutions have opposed it, fearing the extra administrative burden 
associated with such a system. Many also do not like the idea of 
treating foreign students differently from their American counterparts. 
But given the very real threats we face, tracking all visitors makes 
perfect sense.
    The problem with the whole foreign students program is not simply 
one of visa fraud or overstays; the nature of their studies is also a 
matter of concern. In 1997, the Washington Institute for Near East 
Policy published a report highlighting the weaknesses in our efforts to 
prevent students from terrorism-sponsoring states from studying 
subjects that would benefit those countries' weapons programs.\5\ Not 
only are very few students denied visas based on their desired fields 
of study, but the lack of monitoring allows them to declare their 
intention to study some innocuous social science, for instance, but 
then change majors to nuclear engineering or the like, without anyone 
in the government being alerted to this fact.
---------------------------------------------------------------------------
    \5\ A copy of the report can be found at the institute's web page 
www.washingtoninstitute.org
---------------------------------------------------------------------------
    Tracking system for foreign students must be expanded to non-
students. The experimental INS system to track foreign students will 
almost certainly be accelerated in the wake of September 11. But this 
will not address the fact that there are an additional million 
temporary workers and trainees and intra-company transferees who are 
not included in the system, and they are not effectively tracked by any 
other means. Expanding the new tracking system to cover both foreign 
students and foreign workers is needed to ensure the system is as 
comprehensive as possible.
    In a nutshell, to effectively control our border the government 
needs an integrated system that uses a biometric identifier like a 
fingerprint to create a single file for each foreign citizen planning 
to visit the United States, and track that person during the entire 
process--at each step in the visa process, each land border crossing, 
each entry and exit at airports, each change in status at school or 
work, each arrest, each application for government benefits. This file 
should be accessible to law enforcement and linked to the databases of 
the FBI, IRS, Social Security, Selective Service, and other federal 
agencies. There is no other way to keep admitting large numbers of 
foreign citizens and maintain security as well.
    It is important to emphasize that at a time when there is much 
discussion of curbs on the civil liberties of Americans, better 
tracking of foreign citizens not only addresses the core of the 
security problem but should also be especially appealing because it 
does not effect the civil liberties of any Americans, only guests from 
overseas whose presence here is a privilege.
    Ending Section 245(i) Another change regarding immigrants that 
would enhance homeland security would be the permanent elimination of a 
provision in the immigration law known as section ``245(i).'' This 
allows illegal aliens on the waiting list for a green card (because, 
for instance, they have married an American) to undergo visa processing 
and receive their permanent residence visa without having to leave the 
country and go to the U.S. consulate in their home country.
    This provision is problematic not only because it rewards 
immigration line-jumpers but because it compromises homeland security. 
The INS official who processes the visa in the United States is much 
less likely to detect a possible terrorist or criminal among applicants 
than is a consular officer in the alien's home country, who is familiar 
with the local language and has contacts with local law enforcement. 
Not only does 245(i) undermine efforts to screen out terrorists, but it 
also negates our ability to keep out those judged to be dangerous--
because they're already here, whereas an alien who went home only to be 
found ineligible would, in effect, have deported himself.
    Enforcing the ban on hiring illegals aliens. The centerpiece of any 
interior enforcement strategy has to be enforcing the prohibition on 
hiring illegal aliens. While worksite enoforcement, as it is commonly 
called, may not seem to be vital to national security at first glance, 
it is in fact critically important to reducing the terrorist threat. In 
1986, Congress prohibited the employment of illegal aliens, although 
enforcement was at first spotty and has been virtually non-existent for 
the past couple of years. Although it is obviously directed at turning 
off the magnet of jobs attracting conventional illegal aliens, such 
worksite enforcement is also important for anti-terrorism efforts. 
Gaining control of the border between crossing points is probably only 
possible if we dramatically reduce the number of illegal job seekers 
who routinely cross into the United States. If prospective illegal 
aliens knew there was no job waiting for them in the United States, 
many fewer would try and cross illegally.
    In addition, it would be much harder for terrorists who overstay 
their visas to blend into normal life if finding a job is made much 
more difficult. Of course, they could still come with wads of cash and 
some might still live undetected, but doing so would be much harder to 
pull off if getting a job is much more difficult.
    Even if one favors a guestworker program for workers from Mexico or 
elsewhere as the solution to illegal immigration, it would still be 
absolutely necessary to put in place a strong work site enforcement 
regime before implementing a guest worker program. Otherwise, there 
would be no incentive for those illegals already in the country or 
those thinking about entering illegally to sign up for such a program.
    How would such a system work? There are two steps that are needed 
to make worksite enforcement effective. First, a national computerized 
system that allows employers to verify instantly that a person is 
legally entitled to work in the United States needs to be implemented. 
Employers would submit the name, date of birth, Social Security Number 
(SSN) or alien registration number to the INS of each new hire. Much of 
this information is already collected on paper, but is not used by the 
INS. After an instant check of its database, the employers would then 
receive back from the INS an authorization number indicating that the 
person is allowed to work in the United States. The authorization 
number from the INS would provide the employer with an iron-clad 
defense against the charge that they knowingly hired an illegal alien. 
Tests of such systems have generally been well received by employers.
    Document fraud, of course, is widespread, but a computerized system 
would be a key tool in uncovering it. For example, a valid SSN that is 
attached to different names submitted to the INS or a SSN and name that 
show up in many different employers across the country would both be 
indications that a worker is trying to skirt the law. The INS could 
develop procedures to identify potential problems of this kind. When a 
potential problem is found, the INS would then go out to the employer 
and examine all the paperwork for the employee, perhaps conduct an 
interview with the worker and determine the source of the problem. This 
would require the second important change that is needed: a dramatic 
increase in the number of worksite inspectors. At present there are 
only the full-time equivalent of 300 INS inspectors devoted to worksite 
enforcement, whose job it is to enforce the ban on hiring the 5 or 6 
million illegal immigrants now working in the country. These numbers 
would have to be increased to perhaps 3,000.
    These inspectors would perform two main tasks: they would go out to 
employers identified by the verification system as having a potential 
problem and secondly they would randomly visit worksites to see that 
employers were filing the paperwork for each worker as required by law. 
Those employers found to be knowingly hiring illegals would be made to 
pay stiff fines. Because the data needed for such a system is already 
collected and the law already forbids the hiring of illegals, all that 
is need is a verification system and significantly more resources for 
worksite inspectors. Failure to developed such a system means that 
millions of illegal immigrants will continue to work and live in the 
United State facing little or no penalty. Not only does this make a 
mockery of the rule of law, it also exposes the country to significant 
security risks.
    Employment verification and alien registrations. Most of the 
recommendations outlined above have dealt with temporary visa holders 
or efforts to reduce illegal immigration. More effective monitoring is 
also needed of permanent residents, i.e., legal immigrants, with 
``green cards,'' who will after a time become eligible for citizenship. 
Several past terrorist attackers have been legal immigrants, and that 
may well increase as a result of military reprisals against terrorists 
overseas. In 1940, as a homeland security measure, Congress required 
all non-citizens living in the United States to register annually their 
whereabouts with the INS. This provision was repealed in the 1980s and 
should probably not be revived in that form. Potential terrorists 
cannot be expected to dutifully send in their addresses. However, the 
employment verification system outlined above could be a very effective 
tool in locating non-citizen legal immigrants. This is especially 
important when a person is placed on the watch list after he has 
entered the country. At present, there is often no way for the INS to 
know where that individual lives. However, the employment verification 
process would provide the INS with the employer for non-citizen legal 
immigrants who work. Thus, if it became necessary to arrest or at least 
undertake surveillance of a non-citizen, their last known employer 
would be a place to start. The verification system would in effect be 
alien registration for most resident aliens.
    Integrated databases. One reform that would probably be relatively 
easy to undertake would be for the INS to integrate all of its various 
databases. At present, separate databases are maintained for non-
immigrants, immigrants, citizenship applications, and deportations. The 
INS needs to establish a single integrated file on each foreign citizen 
that uses a biometric identifier like a digital fingerprint. This file 
would contain information from each step in the visa process: including 
each land border crossing, each entry and exit at airports, each change 
in status at school or work, each arrest, as well any application for 
permanent residence. This file should be accessible to law enforcement 
and would remain open until the person becomes a citizen.
          Reduce the Number of Permanent and Temporary Visas?
    The responses outlined above, whether overseas, at the border, or 
inside the United States, would not catch all malefactors. But the 
improvements outlined above would almost certainly be very helpful in 
alerting us to large conspiracies like the September 11 attacks. If 
only a few of the dozens of conspirators had been identified by 
consular officers or border inspectors, it is very likely that the 
entire conspiracy would have unraveled.
    Less immigration means better enforcement. But what of the actual 
number of people we admit via these mechanisms? There are two 
fundamental reasons to consider reducing the number of student, 
exchange and worker temporary visas, and permanent residence visas: the 
fewer visas we issue the more thorough the background checks that can 
be conducted. Moreover, fewer visas also mean fewer foreign nationals 
living in the United States, making it much easier to keep track of 
those allowed into the country.
    It seems very unlikely that the INS and State Department can 
undertake the necessary reforms and expansions if they also have to 
continue processing hundreds of thousands of new immigrant, foreign 
student, exchange and worker visas each year. The General Accounting 
Office reported in May that the receipt of new applications (green 
cards, citizenship, temporary workers, etc.) has increased 50 percent 
over the past six years, while the backlog of unresolved applications 
has quadrupled to nearly 4 million. Few if any government agencies 
could be expected to handle such a crush of new work while assuming 
added responsibilities, even if provided with increased resources. The 
INS in particular has had a great deal of difficulty in modernizing and 
using additional resources. Its computer systems, for example, are 
among the most outdated in any part of the federal government. This 
stems from a decision in the 1970s not to automate the files so as to 
preserve low-level clerical jobs. As then-Commissioner Doris Meissner 
told Government Executive magazine in a 1999 interview, ``You don't 
overcome a history like that in four to five years.''
    Solving the many problems with our immigration system will not be 
easy. There have been various plans to reorganize the INS altogether, 
including splitting the service and enforcement functions, either into 
two agencies or two separate chains of command within the current INS. 
But money and institutional reorganization won't be enough on their 
own. The best way to give the INS the breathing room it needs to put 
its house in order and to address homeland security concerns is to 
reduce its workload by reducing temporary and permanent immigration.
                               Conclusion
    The fundamental changes in our immigration system proposed above 
should be an especially attractive option because not only would they 
be politically popular, but they also would not involve any 
infringement on the civil rights of American citizens. The American 
people are going to have to wait in much longer lines at airports and 
in other public places from now on, it is not too much to ask foreign 
citizens to do the same.
    Some may object to greatly increased screening, interior 
enforcement and border control because only an tiny fraction of the 
millions of immigrants and visitors (or non-immigrants) who come to the 
United States each year represent a security threat. We are, some would 
say, looking for ``a needle in a hay stack'' by focusing on immigration 
reforms. But this objection makes little sense. All security measures 
are directed at only the tiny fraction of the population who wish to 
break the law. Every persons who boards an airplane, for example, must 
pass through a metal detector and have his baggage x-rayed. This is 
done not because most or many intend to hijack the plane, but rather 
for the one out of a million who is planning to do so. It is the same 
with screening immigrants and controlling the border.
    To be sure, no steps to reform immigration will catch all those who 
mean us harm. But a lower level of immigration and dramatic 
improvements in visa processing and border security could make an 
enormous difference. If only a few of the dozens of people involved in 
the September 11 plot had been identified by consular officers or 
border inspectors, or been apprehended when their visas expire it is 
very possible that the entire conspiracy would have been uncovered. 
Persistent terrorists will, of course, continue to probe our 
immigration system for weaknesses. It is for this reason that we 
cannot, for example, improve visa processing but leave large sections 
of our land border undefended. Only a vigorous, well-funded, integrated 
border management infrastructure which employs the latest technology 
and enjoys sustained political support can be expected to adapt to the 
every changing terrorist threat. Moreover, only a well funded and run 
immigration system will be able to utilize the new information that is 
expected to result from the added resources that are now being devoted 
to intelligence gathering. Today's underfunded and fragmented border 
control system, using out-of-date technology, will certainly not be 
able to respond to the shifting challenges of the future.
    There can be little question that the suggested changes outlined 
above would cost taxpayers billions of dollars to implement. But the 
alternative is to expose the country to very significant risks that 
could be avoided. If we want the American people to continue to support 
legal immigration, then we must make every effort to reduce the 
possibility of terrorism in the future.

    Chairman Feinstein. Thanks very much, Mr. Camarota.
    We will now turn to David Ward, the President of the 
American Council on Education. He has served for 8 years as the 
25th Chancellor of the University of Wisconsin. He was born in 
Great Britain, and he will testify on the responsibilities of 
American schools and universities to keep track of students 
from other countries.
    Mr. Ward, welcome.

    STATEMENT OF DAVID WARD, PRESIDENT, AMERICAN COUNCIL ON 
                  EDUCATION, WASHINGTON, D.C.

    Mr. Ward. Thank you, Madam Chairman and members of the 
subcommittee.
    ACE represents 1,800 public and private colleges and 
universities. And in addition to that organization, of which I 
am the president, I am speaking on behalf of many other higher 
education associations and the more than 6,800 institutions of 
higher education and the 15 million students we represent.
    I am also accompanied by Mr. Ted Goode, Director of 
Services for International Students and Scholars at the 
University of California at Berkeley and an expert in the 
trenches on the complex process by which international students 
are admitted to the United States, a matter in which I have a 
kind of personal interest.
    I first came to the United States on a student visa in 1960 
to attend the University of Wisconsin. I was interviewed for 15 
minutes by the consulate in London. When I arrived here, I 
registered my address and my program every January 1, and when 
I completed my Ph.D. in 1963, the university reported that fact 
and I received a note that it would be useful for me to leave 
in one month, which I did. I later returned as an emigrant 
because I enjoyed that experience and I, in fact, became a 
Bicentennial citizen in 1976.
    I strongly believe that our Nation as a whole benefits from 
having international students on our campuses, but I also 
understand that the opportunity to study in our Nation comes 
with rules and responsibilities that affect both students and 
our institutions. American colleges and universities have to 
understand this, and we certainly accept our role 
wholeheartedly.
    Let there be no doubt of our position. The Federal 
Government has the right and the responsibility to protect the 
safety and security of the United States by deciding who should 
receive a student or exchange visa. Colleges and universities 
have an obligation and a responsibility to work cooperatively 
with the Federal Government in admitting students to this 
country and keeping track of them when they are enrolled on our 
campuses.
    We believe the single most important step in improving our 
ability to monitor international students and work with Federal 
authorities will come from the prompt implementation of CIPRIS, 
now known as SEVIS, the Student and Exchange Visitor 
Information System. SEVIS has an important mission. However, it 
has long suffered from an exceptionally complex funding and 
administrative structure that has delayed its development and 
deployment.
    Indeed, INS' efforts with respect to this system have 
created a great deal of apprehension and mistrust about the 
agency's ability to establish an electronic system without 
seriously compromising the ability of our colleges and 
universities to attract international students in competition 
with other nations.
    Because of our reservations about the fee collection 
system, we strongly support your proposal, Madam Chair, to 
authorize an appropriation to cover the costs of developing 
this database. We believe that such a step will accelerate 
implementation. We appreciate the fact that you have sent a 
letter to the President asking that he allocate funding from 
the emergency supplemental appropriations package to speed the 
development and implementation of this system, and we have also 
sent a letter to the President endorsing your suggestion.
    I would like to, however, make three additional points with 
respect to SEVIS. First, we believe that the implementation of 
the system will require that INS establish a clear timetable 
with interim goals. Because of the delays that have plagued the 
system from the beginning, we believe Congress should insist 
that INS specify the deadlines it will meet so that our 
institutions can also in a parallel way be responsive.
    Second, INS has not yet provided us with adequate 
information about the computer system capabilities that will be 
required to implement SEVIS on campuses. This information is 
essential for institutions that need to reassess their computer 
systems' and data systems' capabilities in the light of these 
new responsibilities.
    Chairman Feinstein. If you will allow me to interrupt you, 
explain a little bit more about what you need to do it.
    Mr. Ward. Well, it would be the software to connect our 
personnel data systems with those the INS has, and that will 
probably be a private sector development and we don't know what 
those specifications are yet. If this implementation is going 
on, we would like full notice of that so we can give 
specifications to vendors to develop the data system 
connection. The data system connection is the challenge.
    We have gone through a revolution in higher education in 
personnel systems in the 1990s. We have our data. We need to 
get the data to INS, so we need to have a schedule and 
specifications.
    Chairman Feinstein. Thank you.
    Mr. Ward. We can therefore speed implementation, but we do 
require reciprocity from INS, and I am sure we will get that on 
the basis of this morning's testimony.
    Third, we believe it is essential to provide a modest 
appropriation to cover annual operating costs when the system 
is in place. This will eliminate the fee collection problems 
which are quite serious--about where to collect them, who 
should collect them, whether it should be the Department of 
Justice, the universities, the Immigration Service. It is a 
great challenge, and that really has been the problem with 
CIPRIS to date.
    We also understand something else, Madam Chairman, which we 
have not really thought enough about--and we value your 
contribution to our debate over the last week--and that is your 
concern that potential international students may receive more 
than one I-20 form if they apply to or are admitted by multiple 
colleges in the United States. Just like your children and 
grandchildren, you never apply to one college. There are always 
multiple applications, and therefore there are multiple I-20 
forms.
    I have brought a chart which thinks outside of the box. It 
suggests a change in the way the whole I-20 system could be 
developed. We believe, in fact, that the only way to ensure 
that potential students do not get more than one I-20 is to 
avoid giving them the I-20 in the first place.
    Therefore, rather than sending an I-20 directly to the 
student, as is done at present from the university to the 
student, we strongly recommend that the colleges send the I-20 
form directly to a U.S. embassy or consulate identified by the 
potential student. This approach will also provide an easy way 
to ensure that students who receive a visa to study at a 
particular institution actually enroll there.
    We recommend that each American embassy or consulate be 
asked to identify a student and exchange visitor visa 
coordinator. The name and address and information for this 
person should be posted on the State Department Web page to 
permit schools with questions about specific visas to be able 
to contact the appropriate person directly, should there be a 
problem.
    My colleagues and I look forward to discussing these ideas 
with you in more detail in the very near future.
    Madam Chair, you come from the State with the greatest 
number of international students and you know firsthand the 
benefits of international education. In California alone, 
66,300 students were enrolled from abroad in 1999-2000. The 
overwhelming majority will leave as fans of California, or 
maybe USC, or even, heaven forbid, Stanford--true friends of 
the United States, leaders of government and industry in their 
home countries, and supporters of the benefits of personal 
freedom and democracy.
    I believe that the proposals in the legislation you have 
prepared and the ideas I have laid out today to address your 
concerns about the I-20 form will, in both the short and the 
long term, be important steps in this direction.
    I appreciate the opportunity to be here with you today and 
I would be happy to answer any questions at the appropriate 
moment.
    [The prepared statement of Mr. Ward follows:]

Statement of Dr. David Ward, President, American Council on Education, 
                            Washington, D.C.

    My name is David Ward and I am President of the American Council on 
Education (ACE), an association representing 1,800 public and private 
colleges and universities. I am speaking today on behalf of nearly 50 
higher education associations and the more than 6,800 institutions of 
higher education and 15 million students we represent.
    I am accompanied by Mr. Ted Goode, the Director for International 
Students and Scholars at the University of California, Berkeley, and an 
expert in the complex process by which international students are 
admitted to U.S. colleges and receive visas to study here.
    The recent terrorist attacks on the United States have prompted a 
top to bottom review of all sorts of government and institutional 
activities. This reassessment includes questions about the 
international students who come to this country on a student visa to 
study at our colleges and universities. At present, it appears that 
none of those directly involved in the terrorist attacks entered the 
United States on a student visa. However, this does not obviate the 
need for a careful review of the policies and procedures affecting 
student visas. Madam Chair, we appreciate the chance to participate in 
this review and thank you for your leadership in this area.
    I am-particularly interested in this issue for professional and 
personal reasons. Before assuming the presidency of the American 
Council on Education a month ago, I was Chancellor of the University of 
Wisconsin, Madison, for eight years, where I was a faculty member for 
25 years prior to that. As one of the nation's leading research 
universities, UW Madison always had a large number of foreign students 
on campus, often more than 4,000. Without exception, I found them to be 
diligent and hardworking individuals who contributed significantly to 
the academic and social life of the campus.
    I also have a deeply personal interest in this issue. I first came 
to the United States on a student visa in 1960 to earn a Ph.D. in 
geography at Wisconsin. At the conclusion of my Ph.D. program, I was 
given thirty days to leave the country in accordance with the terms of 
my visa. After living abroad for three years, I returned to the United 
States as an immigrant and became a citizen in 1976.
    These experiences have given me a fairly unique position to 
appreciate the benefits that accrue to international students, American 
students, and the university community when we invite foreign students 
to study at our colleges.
    The nation as a whole also benefits from having international 
students study on our campuses. For example, the enormous advances in 
computational sciences in the 1980s that helped fuel the American 
economy in the 1990s, would not have occurred without student and 
faculty exchange programs that brought so many talented people to this 
county.
    We deeply appreciate the strong expression of support shown by the 
Senate in recently passing S. Con. Res. 7, which advocates the 
establishment of an international education policy to further our 
national security, foreign policy, and economic competitiveness. We 
hope the House will soon pass this measure. Now, more than ever, 
Congressional leadership is essential in ensuring that we equip the 
best and the brightest--from our own nation and from abroad--to meet 
the challenges of an increasingly complex--and may I say more 
dangerous--world.
    In this spirit, we understand that the opportunity to study in our 
nation comes with rules and responsibilities that affect both students 
and institutions. American colleges and universities understand this 
and accept our role wholeheartedly.
    Let there be no doubt of our position: the federal government has 
the right and the responsibility to protect the safety and security of 
the United States by deciding who should receive a student or exchange 
visa. Colleges and universities have an obligation and a responsibility 
to work cooperatively with the federal government in keeping track of 
international students when they are enrolled on our campuses.
    I assure you that we take this responsibility very seriously. Any 
college or university with significant numbers of foreign students 
maintains an international students' office and devotes considerable 
resources to continual in-service training in order to keep staff 
responsible for foreign students up to date on the large and constantly 
expanding body of regulation that governs this area.
    On the Wisconsin, Madison, campus alone, over 20 full time 
employees are devoted to monitoring international student visa 
documentation issues. Nationwide, more than 3,000 higher education 
administrators have primary responsibility for foreign students on our 
campuses.
    Our shared responsibilities are not in conflict and the 
relationship between the colleges and the government is generally 
constructive and collaborative. At present, colleges are required to 
maintain more than a dozen types of information on each international 
student and to make that information available to federal authorities 
upon request. The question before this committee is how our 
relationship can be made more proactive and how can we increase our 
emphasis on safeguards.
    We believe that the single most important step in improving our 
ability to monitor international students and work with federal 
authorities will come from the prompt implementation of the Coordinated 
Interagency Partnership Regulating International Students (CIPRIS), now 
known as the Student and Exchange Visitor Information System (SEVIS).
    As you well know, this is an electronic tracking system that will 
enable colleges to notify the Immigration and Naturalization Service 
(INS) whenever there is a ``change of status'' that may affect a 
student's visa. Under the law, when SEVIS is fully operational, the INS 
will be notified of: the identity and current address of all foreign 
students enrolled at our institutions; their nonimmigrant 
classification and any change therein; the date their visa was issued 
or extended; their current academic status, including whether they are 
maintaining status as a full-time student; and any disciplinary action 
taken by the school as a result of their having been convicted of a 
crime.
    Because it is an electronic system, this information will be 
transmitted to federal officials for appropriate action almost 
immediately. SEVIS will stand in stark contrast to the obsolete paper 
and pencil system that is currently in use.
    SEVIS has an important mission. However, it has long suffered from 
an exceptionally complex funding and administrative structure that has 
significantly delayed its development and deployment. Indeed, the INSs 
efforts with respect to this system have created a great deal of 
apprehension and mistrust on campus about the agency's ability to 
establish an electronic system without seriously compromising the 
ability of American colleges to serve international students.
    Unfortunately, Commissioner Ziglar testified on October 3`d and 
again on October 11' that that the ``academic establishment'' is 
responsible for the delay in SEVIS's development and deployment. This 
is not true. This system has been over budget and behind schedule since 
it was begun in 1995. However, the history of SEVIS is not what we are 
here to discuss today.
    Let me be clear. The American Council on Education has never 
opposed the underlying idea behind SEVIS--an electronic exchange of 
information about international students to facilitate monitoring and 
tracking. As I noted above, we strongly believe that the federal 
government has the right and responsibility to do this and colleges 
have an obligation to help provide this information. However, we have 
consistently and strongly opposed the INSs efforts to implement the fee 
collection system that is designed to cover the cost of developing 
SEVIS. The first INS proposal would have turned colleges into bill 
collectors for the federal government and we vigorously opposed that 
plan. Eventually, Congress blocked the INS from moving in that 
direction.
    The INS is now considering another approach that we believe would 
seriously undermine the ability of most foreign students to enroll at 
American colleges. The new plan would require that students pay the fee 
using the Internet and a credit card or in American dollars before 
obtaining a visa. Many international students do not have access to 
credit cards, American dollars, or the Internet. We believe that this 
proposal is worse than the initial plan that Congress blocked.
    We strongly support your proposal to authorize an appropriation to 
cover the costs of developing this database. This step will result in 
much faster implementation than would otherwise be the case. We 
appreciate that you have asked the President to allocate funding from 
the Emergency Supplemental appropriations package (P.L. 10738) to speed 
the development and implementation of this system. We have sent the 
President a letter endorsing your suggestion.
    I would make three additional points with respect to SEVIS. First, 
the timely implementation of SEVIS will require that the INS establish 
a clear timetable with interim goals so that Congress and the education 
community can measure the agency's progress against its own timetable. 
Based on our experience to date and the delays that have plagued this 
system from the beginning, we would ask that Congress insist on 
accountability in meeting this critical deadline.
    Second, despite repeated requests, INS has not provided us with 
adequate information about the computer system capabilities that will 
be required to implement SEVIS on campuses. This information is 
essential for the private sector vendors who will develop and sell the 
software and for institutions that need to reassess their system 
capabilities in light of the new responsibilities. Within a week, we 
will share a detailed list of questions about the computer systems 
necessary to implement SEVIS and we would greatly appreciate your 
assistance in getting answers to these questions. Again, we will do all 
we can to speed implementation, but we require reciprocity from INS to 
make that happen.
    Third, in addition to funding the development of SEVIS as your 
legislation provides, we believe it absolutely essential that a modest 
authorization be available to cover the annual operating costs when the 
system is in place. As I noted earlier, the primary barrier to 
acceptance of SEVIS has been the inability of INS to devise a workable 
method of financing the system. Because neither the State Department 
nor the INS has been willing to collect the money, the INS has been 
forced to develop terribly convoluted payment systems. I strongly urge 
you to add language to your legislation that will provide the modest 
amount of money needed to operate SEVIS when it is operational.
    We believe that SEVIS is ultimately the only way to obtain the 
information that the federal government wants and needs. However, since 
this system will not be operational for several years, we believe that 
several additional steps could be taken to improve the government's 
oversight of student visas in the interim. We have already shared these 
ideas with your office and I have appended a copy of them to this 
testimony. (See Appendices One and Two.)
    In some cases, we propose that new responsibilities be given to 
institutions of higher education. In other cases, we believe that the 
INS should be given additional assignments. Moreover, we believe that 
it is desirable to provide special scrutiny for potential students from 
countries on the State Department's watch list of states supporting 
terrorism.
    Finally, we strongly recommend that the federal government increase 
funding for Department of State consular affairs offices to enable a 
more extensive review of student and all other visa applicants. These 
civil servants are the individuals responsible for making decisions 
about whether or not to grant a visa and we feel strongly that these 
offices ought to have the resources to accomplish their mission. At 
present, most of them do not.
    We understand your concern about the possibility that potential 
international students may receive more than one I-20 form if they 
apply to and are admitted by multiple colleges in the United States. 
The multiple I-20s can be used to obtain more than one visa.
    To address this problem, we propose that colleges send the I-20 
form directly to a U.S. embassy or consulate identified by the 
potential student rather than the current practice of sending an I-20 
directly to the student. We believe that the only way to ensure that 
potential students do not get more than one I-20 is to avoid giving 
them any I-20s in the first place. In addition, this approach will 
provide an easy way to ensure that students who receive a visa to study 
at a particular institution actually enroll there.
    Under our plan, an institution of higher education would provide an 
I-20 for every international student admitted to an embassy or 
consulate, identified by the student. As under current practice, a 
potential student would go to the appropriate embassy or consulate to 
receive a visa and a visa would only be issued if a valid I-20 were on 
hand. If a visa were awarded, the embassy or consulate would return a 
copy of the I-20 to the sending institution to alert the college to 
expect the student. Such a step would provide an additional mechanism 
to help schools and the INS identify the small number of students who 
receive a visa but who fail to enroll.
    We recommend that each American embassy or consulate be asked to 
identify a ``Student and Exchange Visitor Visa Coordinator.'' The name 
and address information for this person should be posted on the State 
Department Web page to permit schools with questions about specific 
visas to contact the appropriate person directly.
    My colleagues and I look forward to discussing this idea with you 
in more detail in the near future.
    Madam Chair, you come from the state with the greatest number of 
international students and you know first hand the benefits of 
international education. In California alone, 66,305 students were 
enrolled from abroad in 1999-2000 and they brought $1.6 billion dollars 
into the state's economy. The overwhelming majority will leave as fans 
of California and as true friends of the United States.
    Over the last 50 years, efforts to enable foreign students to study 
on our campuses have paid great dividends for our nation. Most will 
leave the U.S. at the conclusion of their studies and will become 
leaders in government and industry in their home countries. However, 
all of those who study here will leave with a deep appreciation of the 
benefits of personal freedom and democracy.
    Education increases familiarity and understanding. Familiarity and 
understanding are incompatible with terrorism. Indeed, if we wish to 
increase international understanding, we ought to increase the 
opportunities for students from other countries to study in the United 
States. Important as this goal may be however, the most important 
assignment of the federal government and higher education is to ensure 
that students who come here to study pose absolutely no threat to 
American safety and security. I believe that the proposals in the 
legislation you have prepared and the ideas I have laid out today 
will--in both the short and long term--be important steps in this 
direction.
    On behalf of:

        Alliance for International Educational and Cultural Exchange
        American Association of Colleges of Nursing
        American Association of Collegiate Registrars and Admissions 
        Officers
        American Association of Community Colleges
        American Association of Presidents of Independent Colleges and 
        Universities
        American Association of State Colleges and Universities
        American Council on Education
        American Dental Education Association
        American Society for Engineering Education
        Associated Colleges of the Midwest
        Association of American Colleges and Universities
        Association of American Medical Colleges
        Association of American Universities
        Association of Chiropractic Colleges
        Association of Community College Trustees
        Association of Governing Boards
        Association of Independent California Colleges and Universities
        Association of Independent Colleges of Art and Design
        Association of International Education Administrators
        Association of Jesuit Colleges and Universities
        Association of Proprietary Colleges
        California Community Colleges
        California State University System
        Career College Association
        Coalition of Higher Education Assistance Organizations
        Consortium of Universities of the Washington Metropolitan Area
        Council for Advancement and Support of Education
        Council for Christian Colleges & Universities
        Council for Higher Education Accreditation
        Council for Higher Education of the United Church of Christ
        Council of Graduate Schools
        Council of Independent Colleges
        Hispanic Association of Colleges and Universities
        Lutheran Educational Conference of North America
        NAFSA: Association of International Educators
        National Association of College and University Business 
        Officers
        National Association of Graduate-Professional Students
        National Association of Independent Colleges and Universities
        National Association of State Universities and Land-Grant 
        Colleges
        National Association of Student Financial Aid Administrators
        National Association of Student Personnel Administrators
        The College Board
        University Continuing Education Association
        University of California System

                               APPENDIX 1
higher education's proposals for improving the issuance and tracking of 
                         foreign student visas
New Responsibilities for Institutions
    Within 30 days of the end of the enrollment period at the start of 
each academic term, supply an electronic update to INS of the most 
recent data on enrolled international students covering the following 
items: date of commencement of studies; degree program and field of 
study; termination date and reason; and status (i.e. full-time or part-
time).
    Require higher education institutions to report to the INS within 
30 days of the start of an academic term the non-appearance of any such 
student indicated by the INS to have entered the country on that 
institution's I-20 form or who accepted an offer of admission but did 
not enroll.
    Require designated school officials (DSOs) to comply with any 
``revised responsibilities'' outlined by INS or lose authority to issue 
I-20s.
New Responsibilities for INS
    Notify a higher education institution within 15 days of a foreign 
student's entry into the United States using that institution's form I-
20.
    Issue a ``revised statement of responsibilities'' for DSOs that 
takes into account new reporting requirements.
Funding and Oversight
    Guarantee the rapid implementation and effective operation of the 
Student and Exchange Visitor Information System (SEVIS) by replacing 
the current fee system with a permanent authorization and necessary 
appropriations.
    Increase the budget for consular affairs at the Department of State 
to provide additional staffing, improve facilities where necessary, and 
mandate more effective use of information technology.
    Provide sufficient funding for the expeditious implementation of an 
electronic arrival/ departure system for all visa classifications, as 
mandated by Section 110 of IIRAIRA.
    Provide clarification that data disclosures to the INS regarding 
foreign students are not subject to restrictions under the Family 
Education Rights and Privacy Act.
Special scrutiny for limited categories of applicants.
    Require consular officials to conduct more extensive background 
checks on student visa applicants from countries on the State 
Department's watch list of states supporting terrorism.
    Delay the issuance of an I-20 form until after a prospective 
student from watch list countries has formally accepted admission.
    Mandate a 30-day delay on issuance of all student visas for 
individuals from countries on watch list.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Feinstein. Thanks very much, Mr. Ward.
    Mr. Tony Doonan is Vice President and Director, if I 
understand it, of the Automated Fingerprint Identification 
System at NEC Technologies. This is headquartered in Gold 
River, California, so welcome, sir. He is accompanied by Greg 
Spadorcio, who is Director of the Automated Fingerprint 
Identification System's Division.
    NEC Technologies, AFIS Division, is one of the industry 
leaders in biometric technologies, having developed some of the 
first automated methods of identifying people by their 
fingerprint and palm print characteristics. They will testify 
about their work with law enforcement agencies and the FBI, and 
various technologies available to help verify identity.
    Senator Kyl, you should know that when I was Mayor of San 
Francisco, NEC did a large system for us, and did it very well. 
They sent people over at that time, I think, from Japan to work 
with the city and put this system in. It was really, I think, a 
wonderful example of how the private sector can interface with 
the public sector and really provide a level of expertise that 
is not easily available to public sector people.
    Mr. Doonan, welcome.

STATEMENT OF TONY DOONAN, VICE PRESIDENT, AUTOMATED FINGERPRINT 
    IDENTIFICATION SYSTEMS; ACCOMPANIED BY GREG SPADORCIO, 
  DIRECTOR, BUSINESS SOLUTIONS, NEC TECHNOLOGIES, INC., GOLD 
                       RIVER, CALIFORNIA

    Mr. Doonan. Madam Chairwoman, members, thank you very much 
for this opportunity. You actually stole my thunder there. I 
was going to comment that in 1983 I was associated with that 
project in San Francisco when, under your leadership, the San 
Francisco Police Department automated their fingerprint 
process. I at the time was with the California Department of 
Justice and worked closely with the police department in 
planning and implementing that system.
    Chairman Feinstein. We did this by bid, as I recall, and by 
far it really was the best, most comprehensive bid. I just want 
to say how important the software was to really get it 
developed in the right way up front and spent the time to do 
it.
    Mr. Doonan. That system has been a model for law 
enforcement for nearly 20 years. It is currently part of an 
interstate network that actually was responsible for 
identifying Mr. Resendez, the railroad killer. A latent 
fingerprint at one of the crime scenes was identified in that 
network.
    Much of the technology that is in San Francisco today is 
applicable to the problems that you are discussing. Mr. 
Spadorcio is going to overview some concepts that we have 
developed that we think would help focus on the terrorism 
problem and how technology can be brought to bear.
    We are also reaching out to Oracle, because we use their 
products, and Larry Ellison to see how we might, in concert, be 
able to bring solutions forward or ideas forward that might be 
able to address these issues.
    Finally, for me, we also would be very happy to bring an 
operational system to the Capitol to demonstrate the technology 
to members and staff at a point that it was convenient for you.
    Chairman Feinstein. That would be very useful. Thank you 
very much.
    Mr. Doonan. I will turn it over to Mr. Spadorcio.
    Mr. Spadorcio. Thank you. Madam Chairwoman and members, 
thank you very much for being here. My discussion today 
highlights two programs that would benefit significantly from 
the introduction of biometrics by providing an added level of 
security to the issuance of passports and visas. Also discussed 
is a border control system that would verify each person at a 
port of entry against a database of known or suspected 
terrorists, compiled from data from Federal agencies and 
potentially other governments.
    If you would refer to the application process for 
biometrics-enabled passport and visa diagram that I believe was 
provided in your package, I will walk through that quickly.
    Ultimately, the traditional paper-based document passports 
and visas will be replaced by more secure smart card technology 
which will contain personal information, passport and visa 
information, and the digital biometric data of the card-holder; 
however, since substantial dollars have already been invested 
in the current passport and visa infrastructure, a phased 
approach that leverages the public's initial investment but yet 
adds significant security improvement to the passport or visa 
by adding biometric authentication.
    Applicants for passports and visas will be required to 
capture a biometric sample in the form of a fingerprint that 
ultimately would be linked to the passport and visa records 
system. The passport collection centers--for example, the U.S. 
post office and the U.S. consulate office for visas--would 
process and transmit the fingerprint data electronically to a 
management database. The process would require all visa 
applicants to make their application in person, which is 
currently not a requirement of the visa process, so that their 
biometric sample could be collected.
     The passport and visa management database of fingerprints 
would be used to compare against existing fingerprints of known 
or suspected terrorists prior to issuing or renewing a passport 
or visa. If a match against the database of known or suspected 
terrorists were not found, then the applicant could be granted 
a passport of visa consistent with current guidelines. If a 
match were found, the proper authorities would be notified for 
enforcement action.
    The biometric information would ultimately be stored in a 
passport and visa management database so that it could be used 
for authentication and be accessed at any port of entry, 
consulate office, or other location that requires 
authentication of identity for passports or visas.
    For approximately 30 countries that currently participate 
in the visa waiver pilot program, a fast-track immigration 
process could be enabled at ports of entry to allow holders of 
machine-readable passports who have pre-registered the 
biometric sample to pass through the immigration process 
rapidly. This approach would allow INS to focus their time and 
resources on those individuals that have not been pre-qualified 
and that may require additional time.
    Chairman Feinstein. Sir, I am going to interrupt you. You 
heard the Commissioner say that there is a law requiring that 
every plane be dealt with in 45 minutes.
    Mr. Spadorcio. Yes.
    Chairman Feinstein. If you had the biometric data in the 
passport of the system with respect to visa waivers, how much 
time would it take for that to register for each person coming 
off a plane.
    Mr. Spadorcio. And passing through some type of a 
checkpoint?
    Chairman Feinstein. Yes.
    Mr. Spadorcio. Literally seconds.
    Chairman Feinstein. Seconds?
    Mr. Spadorcio. Yes. At that point, it is really comparing 
the data in the passport versus the sample that was presented 
by the person. So it is making a one-to-one comparison of that 
person's identity at that moment, so it would be very rapid 
response.
    Chairman Feinstein. Thank you.
    Mr. Spadorcio. By utilizing the existing passport and visa, 
its information and infrastructure, the authentication system 
could be implemented quickly. In addition, smart card 
technology could be issued to augment the existing passport and 
eventually even replace the paper-based system without having 
to rebuild the entire authentication system.
    There is also another diagram that is in your package. It 
is the port of entry diagram, and I will describe that quickly.
    With the high volume of people crossing the U.S. border 
annually, providing for a secure border is paramount to our 
national security. However, immigration officials are often 
faced with dealing with competing demands: process the flow of 
people fast with minimal interference, but also with accuracy 
and diligence to ensure that no one is admitted that should not 
be admitted. While this is a heavy burden to carry, it has 
never been so important and vital to our country as today.
    One way to ensure that the port of entry is secure from 
individuals that should not be admitted is through the use of a 
biometrics-enabled port of entry system. For passports or visas 
that are biometrically-enabled, the passport or visa would be 
scanned through a machine reader, as is currently done, and the 
passport- of visa-holder would then be requested to scan their 
finger and a query would be made to the passport and visa 
management database to verify that the person presenting the 
passport is the same person that was originally registered.
    If a match were confirmed, the individual would be allowed 
to proceed through the port of entry. If a match could not be 
confirmed, then further investigation of the passport 
credentials would need to be conducted by enforcement 
personnel.
    The passport and visa management database would be linked 
to an entry and exit system that would record all visa 
applicants' entry into the U.S. border, and would also be used 
to confirm their exit from the U.S. border. This system could 
either augment or replace the current I-94 form, which 
oftentimes is inconsistently collected by airlines and other 
transportation carriers, which results in erroneous visa exit 
data and makes the enforcement process almost impossible. A 
Web-based interface with a fingerprint scanner would be located 
at colleges and universities and other schools, and would 
require confirmation of students with visas' actual enrollment 
and participation in those programs.
    For non-biometrics-enabled passports, visas and visa waiver 
program countries such as Canada, the goal would be to utilize 
a database of known or suspected terrorists and match it 
against people entering the U.S. at a port of entry. This 
system would be required for all entry into the U.S., unless 
the individual is already utilizing a biometrics-enabled 
passport, visa or smart card.
    At the port of entry location, a person would be required 
to scan their finger to capture a fingerprint image that 
ultimately would be compared to the database. The port of entry 
system would be designed to provide responses within a short 
time period after receiving the scanned fingerprint. For 
capturing fingerprints from cars, trucks or other 
transportation means, portable wireless scanners would be 
employed that could capture from one to multiple images for 
processing.
    If a match were not found for a person's fingerprint at the 
port of entry system, they would be allowed to proceed through 
Customs as currently structured. If a match were found, 
enforcement agents would be notified for proper action.
    In conclusion, while biometrics alone do not solve all the 
problems or issues associated with permanent or temporary 
immigration, it does add a significant level of trust to those 
documents that we rely on for entry to the United States. It 
also provides a means to ensure that a known or suspected 
terrorist would not be admitted into the United States. This 
alone is a worthy goal.
    Thank you very much, and I would be glad to answer 
questions that you may have later.
    [The prepared statement of Messrs. Doonan and Spadorcio 
follows:]

    Statement of Tony Doonan, Vice President, Automated Fingerprint 
   Identification Systems; accompanied by Greg Spadorcio, Director, 
   Business Solutions, NEC Technologies, Inc., Gold River, California

                              Introduction
    With the growth of the global economy, the demand placed on the 
United States borders and its systems for managing permanent and 
temporary immigration is unprecedented. The Immigration and 
Naturalization Services (INS) conducted over 500 million inspections 
last year at nearly 300 land, air, and sea ports of entry. In 
approximately the same time period, the U.S. Department of State issued 
about 7 million U.S. Passports, over 6 million nonimmigrant visas, and 
close to 500,000 immigrant visas. It is clear that with these demands 
placed on the Nations borders, a more robust, secure and consistent 
form of border access is required.
    Most countries, including the United States use traditional paper-
based documents for passports and visas. Because of the passport and 
visas functionality and purpose, it is an important and trusted 
identification document that nations around ` the globe rely on. 
However, inherent to the design of the paper-based document system, it 
can easily be forged using advanced computer imaging and printing 
technologies. Ultimately, the confirmation of a person's identity in 
many situations relies on the information presented at the time of 
border crossing and the professional opinion of the border agent. A 
requirement of any secure border system is the ability to replicate the 
security screening process at every port-of-entry in a systematic and 
consistent manner, and since it ultimately will rely on human 
intervention, provide the appropriate technology to support the agent's 
efforts in trusting the document provided. Not surprisingly, national 
governments across the globe continue to search for a more secure 
method of providing passports and visa to avoid the security threats of 
a breached border.
    This paper highlights two programs that would benefit significantly 
from the introduction of biometrics by providing an added level of 
security to the issuance of passports and visas, as well as provide the 
added benefit of an entry-exit tracking system for visa holders. The 
system would interface with the existing passport and visa process and 
thereby take advantage of the existing infrastructure. Also discussed 
is a border control system that would verify each person at a port-of-
entry against a database of known our suspected terrorist or criminals 
that would be compiled of data from CIA, INS, FBI, DOD, Interpol and 
other cooperating agencies as specified.
                      Biometrics Enabled Passports
    Ultimately, the traditional paper-based document passports and 
visas will be replaced by smart card technology which will contain 
personal information, passport and visa information, and the digital 
biometric data of the card holder. However, since substantial dollars 
have already been invested in the current passport infrastructure, a 
phased approach that leverages the initial investment, but adds 
significant security improvement to the passport system by reducing the 
ability to tamper with the passport authentication process is described 
below:

        1. When issuing or renewing a passport, an applicant would 
        follow the established requirements for providing 
        documentation, the appropriate identity information, passport 
        photograph, and descriptive information. The applicant would 
        also be required to capture a biometric sample in the form of a 
        fingerprint that would be linked to the passport transaction 
        number and ultimately become part of the passport 
        authentication system linked to their passport.
        2. The passport collection centers (Post Office, etc.) would 
        process and transmit the biometric sample electronically to a 
        main processing database where it would be compared against 
        existing fingerprints of known or suspected terrorists or 
        criminals prior to issuing or renewing the passport. If a match 
        were not found, then the applicant would be granted a new 
        passport or renewal. If a match were found, the proper 
        authorities would be notified for enforcement action. It is 
        estimated that the database would contain less than 500,000 
        fingerprints of known or suspected terrorists or criminals and 
        be compiled from data from CIA, INS, FBI, DOD, Interpol, and 
        other cooperating agencies.
        3. The biometric information would ultimately be stored in a 
        central database (or distributed database depending on design 
        requirements, i.e. identical databases can be stored in 
        additional locations to speed the system's response) for 
        passport authentication and would be accessed at any port-of-
        entry, consulate office, or other location that requires 
        authentication of an individual's passport.
        4. To utilize the biometric capability, once a passport was 
        scanned through a machine-reader, the passport holder would be 
        requested to scan their finger and a query would be made on the 
        central server database to verify that the person presenting 
        the passport is the same person registered to that passport. If 
        a match were confirmed, the individual would be allowed to 
        proceed through the port-of-entry. If a match could not be 
        confirmed, then further investigation of the passport 
        credentials would need to be conducted.

    By utilizing the existing passport, its information, and the 
passport infrastructure, the passport authentication system could 
easily be implemented today with little disruption and retooling of the 
existing infrastructure. In addition, smart card technology could be 
issued to augment the existing passport and eventually even replace the 
paper-based system without having to rebuild the entire authentication 
system. Both a smart card approach and the current passport systems 
could be implemented in parallel until the smart card infrastructure 
was fully developed.
    An additional benefit of this system is that any country that has 
passports that utilize the machine-readable passport number, could 
participate in the authentication system. For the approximately 30 
countries that currently participate in the Visa Waiver Pilot Program, 
a ``fast-track'' immigration process could be enabled at ports-of-entry 
to allow holders of machine-readable passports who have pre-registered 
their biometric sample with INS to pass through the immigration process 
rapidly. Essentially, their passport credentials will be authenticated 
by their fingerprint, which has already been ``pre-qualified'' by INS. 
This approach would allow INS to focus their time and resources on 
those individuals that have not been ``pre- qualified'', and that may 
require additional time to properly verify their credentials.
    Part of the pre-qualification phase would be to match their 
fingerprint sample to the database of know or suspected terrorists or 
criminals. If there is not a match, then their biometric account would 
be enabled and they would have the privilege of using a fast track 
system with their biometrics. Each time a new fingerprint of known or 
suspected terrorists or criminals is added to the matching database, 
that specific fingerprint would be searched against the database of 
pre-approved passport and visa holders to ensure that there is not a 
match against the pre-approved database. If a match is found, that 
biometric account could be disabled and the appropriate enforcement 
personnel would be notified. Additional information could also be 
collected for statistical purposes.
        Biometrics Enabled Port-of-Entry System
    With the volume of people crossing the U.S. border annually, 
providing for a secure border is paramount to our national security. 
However, immigration officials are often faced with dealing with 
competing demands; process the flow of people fast, with minimal 
interference, but also with accuracy and diligence to ensure that no 
one is admitted that should not be admitted. While this is a heavy 
burden to carry, it has never been so important and vital to our 
country as it is today. INS and other federal agencies have deployed 
several initiatives to help control and process the influx of people 
entering the U.S., in many cases without the benefit of coordination. 
One way to ensure that the port-of-entry is secure from individuals 
that should not be admitted is through the use of biometrics.
    Currently, several databases of fingerprint data exist in different 
systems that do not necessarily coordinate or share important 
information that could help secure our borders. The goal of the 
biometrics enabled port-of-entry system would be to create a database 
of known or suspected terrorists or criminals from fingerprint 
information contained in INS, FBI, DOD, CIA, Interpol and potentially 
other agencies systems, that could be used to match against people at 
the port-of entry. The systems would require that an individual capture 
their finger on a scanning device as they pass through the port-of-
entry for land, sea, and air locations. This system would be required 
for all entry into the U.S., unless the individual is already utilizing 
a biometrics enabled passport or visa.
    At the port-of-entry location, a person would be required to scan 
their finger to capture a fingerprint image that ultimately would be 
compared to the database of known or suspected terrorist or criminals. 
The port-of-entry system would be designed to provide responses within 
second of receiving the scanned fingerprint. The output result from the 
matching process could be configured in several ways depending on the 
intended use. For walk-up situations, the system could be designed to 
activate turnstiles, gates, green or red lights, display based 
information, printed -material, or voice-activated commands. For 
capturing fingerprints from cars, trucks, or other transportation 
means, portable wireless scanners would be employed that could capture 
from one to multiple images for processing. The output result from the 
scanning device could include green or red lights, displayed 
information, or printed material.
    If a match were not found for a persons fingerprint in the port-of-
entry systems, then they would be allowed to proceed through customs as 
currently structured. If a match were found, the border agent would be 
notified for proper actions. The port-of-entry system would be very 
beneficial on the port-of-entry for countries that participate in the 
Visa Waiver Pilot Program. At a minimum, the system would be able to 
confirm that somebody in the database of known or suspected terrorist 
or criminals would not be able to make entry into the U.S., even if 
they provided fraudulent documents.
    The system would be setup on a distributed basis to ensure 
redundancy capabilities and high speed processing. The central system 
would provide updates and housekeeping chores for each port-of-entry 
system to ensure accuracy and security.
                        Biometrics Enabled Visas
    The visa process would be very similar to the process described for 
passports. An applicant would be required to provide the appropriate 
information to the consulate office to process the visa as is currently 
required, however they will also be required to provide a biometric 
sample, such as a fingerprint at the time of their application. The 
fingerprint would be linked to the visa and passport record 
information. This process would require all visa applicants to make 
their application in person, which is currently not a requirement.
    The consulate office would transmit the biometric sample 
electronically to a U.S. based main database where it could be compared 
against existing fingerprints of know or suspected terrorists or 
criminals prior to issuing or renewing the visa. If a match were not 
found, then the applicant would be granted a new visa or renewal. If a 
match were found, the proper authorities would be notified for 
enforcement action. It is estimated that the database would contain 
less than 500,000 fingerprints of known or suspected terrorists or 
criminals and be compiled from data from CIA, INS, FBI, DOD, Interpol, 
and other cooperating agencies, including local authorities.
    The biometric information would ultimately be stored in a central 
database (or distributed database depending on design requirements) for 
passport authentication and would be accessed at any port-of-entry, 
consulate office, or other location that requires authentication of an 
individual's visa, including a web link for colleges, universities, and 
various schools to confirm visa participant's enrollment.
    To utilize the biometric capability, once a visa was scanned 
through a machinereader, the passport holder would be requested to scan 
their finger and a query would be made on the central server database 
to verify that that the person presenting the passport is the same 
person registered to that visa. If a match were confirmed, the 
individual would be allowed to proceed through the port-of-entry. If a 
match could not be confirmed, then further investigation of the 
passport credentials would need to be conducted.
    By utilizing the existing visa, its information, and the passport 
and visa infrastructure, the visa authentication system could easily be 
implemented today with little disruption and retooling of the existing 
infrastructure. In addition, smart card technology could be issued to 
augment the existing passport and visa and eventually even replace the 
paper-based system without having to rebuild the entire authentication 
system. Both a smart card approach and the current passport and visa 
systems could be implemented in parallel until the smart card 
infrastructure was fully developed.
    Part of the pre-qualification phase would be to match the visa 
applicants fingerprint sample to the database of know or suspected 
terrorists or criminals. If there is not a match, then their biometric 
account would be enabled and they would have the privilege of using a 
fast track visa system with their biometrics. Each time a new 
fingerprint of a know or suspected terrorists or criminals is added to 
the matching database, that specific fingerprint would be searched 
against the database of preapproved passport and visa holders to ensure 
that there is not a match against the pre-approved database. If a match 
is found, that biometric account could be disabled and the appropriate 
enforcement personnel would be notified.
    The fingerprint database would be linked to and entry and exit 
system that would record all visa applicant's entry into the U.S. 
border and would also be used to confirm their exit from the U.S. 
border. This system could either augment or replace the current I-94 
form. One of the deficiencies of the I-94 form is that often times it 
is inconsistently collected by airlines and other transportation 
carriers. The biometrics enabled entry-exit system would be 
automatically updated with entry and exit information on a real time 
basis. The systems would be able to deactivate the biometric account 
for certain visa types once they have been scanned at the entry point, 
thus ensuring that the visa holder would not be able to reenter the 
U.S. border without obtain the proper visa or visa renewal. Enforcement 
personnel could easily receive reports on all expired visas with no 
exit data for their action. Additional information could also be 
collected for statistical purposes.
                         Biometrics Background
    Since biometrics identifies people by unique human characteristics, 
such as a fingerprint, or facial recognition, it is considered highly 
reliable, accurate and secure. Most biometric technologies, like 
fingerprints, are beyond the ``proof-of-concept'' stage and are 
currently being implemented throughout the world to secure identity 
documents like passports, and national identification programs.
    In recent years, the price of biometric technology and its 
infrastructure (processors, imaging electronics, and software) has 
dropped dramatically while the accuracy of biometrics technology has 
increased. Some biometrics technology, like have proven to be extremely 
reliable and accurate by law enforcement use for the last 30 years with 
largescale fingerprint applications. Many state and federal agencies 
are expanding the use of biometrics technology into applications aimed 
at entitlement fraud, driver licenses and state identification, and 
applicant processing.
                 About NEC Technologies' AFIS Division
    NEC Technologies' AFIS Division is recognized as an industry leader 
in biometrics technologies having developed some of the first and 
finest automated methods of identifying people by their fingerprint and 
palmprint characteristics. NEC Technologies AFIS Division provides 
identification solutions for law enforcement, government, and 
commercial applications requiring network security. Headquartered in 
Gold River, California, NEC Technologies, Inc., a wholly owned 
subsidiary of NEC Corporation is a leading manufacturer of computer 
peripherals and other technology products for the North American 
market.
                              ATTACHMENT 1
                    white paper--the biometric scene
                     prepared by: nec technologies
Automated Fingerprint Identification Systems (AFIS) Division
                          What Are Biometrics
    ``A biometric is a unique, measurable characteristic or trait of a 
human being for automatically recognizing or verifying identity''
    Biometrics refers to the statistical analysis of biological 
characteristics. Biometric technologies are concerned with the physical 
parts of the human body or the personal traits of human beings. With 
today's technology, biometrics is used as an automated method whereby 
an individual's identity is confirmed by examining a unique 
physiological trait or behavioral characteristic, such as a 
fingerprint, or voice signature.
    Physiological traits typically do not change; they are stable over 
time and somewhat unalterable and do not require frequent updates. A 
behavioral characteristic such as one's signature or voice is 
influenced by both controllable physical actions and less controllable 
psychological factors. Because behavioral characteristics can change 
over time, the biometric template must be updated each time it is used. 
Both techniques provide a significantly higher level of identification 
than traditional passwords.
    Because biometric traits are unique to each individual, they can be 
used to prevent theft or fraud. Unlike a password, a biometric trait 
cannot be lost, stolen, or forgotten. Today's biometric identifiers 
include fingerprint, face recognition, facial thermo-gram, body odor, 
DNA, ear dynamics, keystroke patterns, palm print, retinal scan, iris 
patterns, signature, vein-scans, and voice patterns. Each of these 
biometric identifiers offers strengths and weaknesses for use in 
various situations.
    In the security industry biometrics is regarded as providing the 
highest level of security. The methods for verifying an individual's 
identity are commonly broken down into the following three security 
levels:

        Lowest level of security--something you have, such as a photo 
        ID
        Second level of security--something you know, such as a 
        password or a personal identification number (PIN)
        Highest level of security--something you do/ something you are, 
        such as physiological and/or behavioral biometrics, including 
        fingerprints, face recognition, signatures, etc.
                          How Biometrics Work
    Most biometric systems operate in a similar fashion. The system 
captures a sample of the biometric characteristic for the purpose of 
enrolling the person in the system. During this enrollment phase some 
biometric systems may require a number of samples in order to build a 
profile of the biometric characteristic or to ensure that the system 
has captured the highest quality characteristic for later comparison 
purposes. Unique features are then extracted and converted by the 
system into a mathematical representation of the data. This 
mathematical representation of the data is then stored as the biometric 
template. The template may reside within the biometric system itself, 
in memory storage, such as a computer database, a smart card, or even 
barcode for later use.
    When the user interacts with the biometric system to have their 
identity checked, the system will make a comparison of the stored 
template to the new offered biometric sample. If the template and the 
new sample match, the user is granted permission or access. Almost all 
biometric systems operate from this basic premise--a sample of the 
person's biometric data (finger-image) is captured and the biometric 
system decides if it matches with another confirmed sample of biometric 
data (fingerprint).
    Because characteristics can change slightly over time, the 
biometric system must allow for some reasonable level of variation; 
typically a threshold is set that accounts for this variation. The 
comparison between the template and new sample must exceed the system's 
threshold before a match or confirmation is recorded. If not, the 
system will not record a confirmation or match and will not grant the 
user access or permission.
    All biometric systems use the four-stage process of capture, 
extraction, comparison, and match (non-match). The core of the 
biometric system is the biometric engine, a proprietary process that 
extracts and processes the biometric data. This applies an algorithm to 
the extracted data. Essentially the system extracts the data, creates a 
template, and computes whether the data from the template and the new 
sample match.
    The following process illustrates the way biometric systems 
typically operate:

        Capture--a sample is captured by the system during enrollment
        Extraction--data is extracted from the sample and a template is 
        generated
        Comparison--the template is then compared with a new sample
        Match/Non-Match--the system determines if the features 
        extracted from the new sample are a match or a non-match to the 
        stored template

    Within the biometrics industry, a distinction is made among the 
terms identification and verification. With identification, a sample is 
submitted to the biometric system during enrollment, this is stored as 
a template. Then during use, the system receives a new biometric sample 
and then attempts to find out whom the sample belongs to, by comparing 
the sample against the entire database of templates in the hope of 
finding a match (this is known as a one-to-many or 1:n comparison).
    Verification is a one-to-one (1:1) comparison in which the 
biometric system attempts to verify an individual's identity. In this 
example, a new biometric sample is captured and compared with the 
previously stored template. If the two samples match, the biometric 
system confirms that the applicant is who he/she claims to be. For a 
one-to-one comparison to work, the system must have access to some data 
that tells the system what record or template to compare against.
        Identification--involves matching a sample against a database 
        of many (Who is this?)
        Verification--involves matching a sample against a database of 
        one (Is this person who he/she claims to be?)
                             Why Biometrics
    Government agencies, businesses, and individuals are recognizing 
the limitations of passwords and/or PIN numbers. As we see more 
examples of computer hacking, identity theft and other forms of 
fraudulent crimes, it is becoming more important to protect systems 
from unwanted intrusion. Biometric protected security offers a higher 
level of security because it verifies physiological or behavioral 
characteristics that are unique to each individual and are difficult to 
steal, alter, or otherwise forge. Biometrics systems, on average, can 
do a better job of protecting systems than other traditional forms of 
security.
    A biometric record is a mathematical representation of an 
individual's unique characteristic (template), stored in electronic 
form. It cannot be used to reconstruct an image or to reveal a person's 
identity. When used for authentication, it serves as a comparison of 
the registered persons true form of identity--only one person can be 
registered with any unique biometric parameter. Compared to other 
methods of identity proof, biometrics is a tool that can actually 
enhance privacy and prevent abuse.
    As more and more personal information is stored on computers, on 
network servers, within business systems, and healthcare facilities, it 
becomes increasingly important to ensure that only certain individuals 
have access to that information. Currently passwords are used almost 
exclusively for authentication on individual computers, networks, or 
across the Internet. While passwords are easy to develop and for the 
most part manage, they are far from being secure:

        Passwords are easily forgotten
        Passwords can be shared with others, allowing multiple 
        individuals access to a secured environment
        Multiple web accounts, email services, online stores, message 
        boards, etc., require multiple password or worse, the same 
        password for all environments
        Typing passwords is inconvenient, bothersome, and often leads 
        to poor password choice

    Biometric authentication has the potential to solve many of these 
problems by eliminating passwords. By comparison, biometric 
characteristics (such as your fingerprint) offer enhanced convenience 
and security and are easy to use.
                            Why Fingerprints
    Fingerprint technology has been utilized for decades to provide 
identification and verification of an individual. Today, the largest 
application of fingerprint technology is in Automated Fingerprint 
Identification Systems (AFIS) used by law enforcement agencies 
throughout the world. These are some of the largest and most complex 
fingerprint systems available, with hundreds of millions of fingerprint 
images in their systems. Most recently, finger-image technology has 
gained a significant following as the biometric technology most widely 
accepted and used for access control and enhanced security. Finger-
image technology is currently in use for many applications, including 
military facilities, the Pentagon, financial institutions, large 
corporate networks, government and commercial laboratories, and almost 
anywhere that requires enhanced security.
    The finger-image's strength is its user acceptance, convenience and 
reliability. It takes very little time (approximately the same time it 
takes to type-in a password) and effort for somebody to have their 
finger-image scanned and compared. Fingerimage identification is the 
least intrusive of all biometric techniques and one of the easiest to 
use. Users experience fewer errors when they use their finger-image 
versus many other biometric methods. In addition, a finger-image 
scanner requires very little space on a desktop or in a machine. 
Several companies today have produced capture units small enough to fit 
on keyboards, embedded in a mouse device or laptop computer.
    Finger-image technology also provides one of the lowest false 
acceptance ratios (FAR) (The probability that the system will 
incorrectly identify an individual or will fail to reject an individual 
when it should have) of all the biometric technologies, with less than 
one in a million. One of the biggest fears of fingerprint technology is 
the theft of someone's fingerprints. Concerns are that latent or 
residual prints left on the fingerprint scanner may be copied and used 
to gain access. However, good fingerprint identification devices will 
only detect live fingers and will not acknowledge fingerprint copies or 
other forgeries.
    The practical applications of finger-image or other biometric 
technologies are diverse and ever expanding, however most non-law 
enforcement uses are for some type of access control. This will either 
involve the physical access of people to secure areas, or securing the 
access of privileged data or resources on servers. Whether securing 
government social benefit programs from fraud, preventing illegal 
immigrants from entering a country, or securing corporate networks from 
non-users, controlling access is the underlying strength of most 
biometrics, including finger-imaging.
                    Biometrics Application Examples
                          air travel security
    Biometric technology can be used to authenticate passengers and 
airline representatives for commercial air travel. The use of 
biometrics can ultimately be utilized for all aspects of travel from 
the initial reservation through baggage pick-up. The benefit to air 
travel is that once a person's identity has been verified at the 
initial check-in process and a biometric sample was captured, the 
biometric sample can be used to authenticate a person identity 
throughout the travel process. The cost to implement an air travel 
program would be negligible in comparison to the overall cost of 
travel.
                driver licenses and state identification
    A driver license and identification card (ID cards) provides 
residents identification documents for host of uses where a person's 
identity needs to be confirmed. Driver licenses and ID cards are 
invaluable in our day-to-day life for providing identification to 
somebody who is usually unfamiliar to us or needs to verify that we are 
who we say we are. As such, the level of trust given to the driver 
license and ID card is enormous, and our reliance on these trusted 
documents must be ensured through a rigorous issuing process and the 
introduction of biometrics. A Department of Motor Vehicles (DMV) can 
easily introduce the use of biometrics to secure documents so that an 
individual cannot have a duplicate identity with state issued documents 
such as driver licenses and ID cards.
                        social benefit programs
    Social benefit programs are very vulnerable to fraud and misuse. 
Many social welfare departments throughout the world are utilizing 
biometrics to control access to the systems and reduce the fraud 
potential of these systems. A variety of technologies are deployed, 
however finger-image technology is most widely accepted. Many of these 
systems require large-scale AFIS type systems to manage the information 
and workflow requirements of these government organizations.
    Another related area is the payment of benefits through the use of 
Electronic Benefits Transfer (EBT), which involves the use of a credit 
card type device that is secured with biometrics (finger-image 
template). The card can then be used to purchase items in retail stores 
tied to special point-of-sale smart card readers. Through the use of 
biometrics, the smart card devices can be secured from unauthorized 
users and for only allowed transactions. Biometrics is well placed to 
serve this market opportunity.
                          immigration systems
    Illegal immigration and an increase in travelers throughout the 
world are requiring that immigration officials look for ways to control 
and manage the ever increasing volume of people. Biometrics is being 
employed in a number of diverse applications throughout the world to 
enable safe and easy travel. The U.S. Immigration and Naturalization 
Service (INS) are a major user and evaluator of biometric technologies 
for immigration control. Many governments are issuing immigration and 
work permits through the use of biometrics (mostly finger-image).
                       national identity programs
    Governments are utilizing biometrics to identify citizens for 
national ID programs; these systems also lend themselves to voter 
registration systems to help prevent fraud during local and national 
elections. Often these systems involve storing a biometric template on 
a smart card or 2D card, which ultimately becomes a national identity 
document. Finger-image scanning is particularly strong in this area and 
programs are already underway in many countries.
                         financial institutions
    Financial institutions have been evaluating a range of biometric 
technologies for many years to control fraud and for general security 
issues. Automated teller machines (ATMs) and transactions at the point 
of sale are particularly vulnerable to fraud and are excellent 
candidates to be secured by biometrics. Related markets include remote 
access banking (Internet banking), remote access financial trading, 
financial document management, and other services that require a high 
level of security for both the institutions and consumers.
                        computer/network access
    The single most active area for biometrics (finger-image) is to 
control the access to computer systems and network resources. This 
market area has enormous potential for enterprise wide applications. 
Also, as the biometrics industry migrates their technology to large-
scale Internet applications to support, the use of biometric control 
will grow rapidly. The faster the user community accepts internet 
related transactions, the greater the need will become to secure this 
information from unauthorized uses. Biometrics will be a major source 
of security for these areas.
                    building physical access control
    The potential applications for access control are almost endless, 
from home use to nuclear power plants. Many organizations today are 
using biometrics to secure the physical movement of people throughout 
facilities or secure areas. Military facilities, theme parks, 
hospitals, offices, schools, government buildings, and other areas are 
employing biometrics to increase security. As security becomes more 
important for organizations, employers, governments and other groups, 
biometrics will be seen as a more acceptable and reliable tool.
                       inmate management systems
    Prisons are utilizing biometrics to ensure that prisoners are 
managed with secure identities. Prisoners' finger-images are enrolled 
during their registration into a prison system and are used throughout 
the system to manage access, court management, transportation, 
commissary privileges and even pharmacy programs. Perhaps the most 
beneficial to society is that an inmate's finger-image can be scanned 
and verified prior to release. A wide range of biometrics is now being 
deployed worldwide to secure prison access, home confinement, and 
regulate the movement of probationers and parolees, and manage court 
appearances. Many of the prison management systems can be tied to the 
large-scale AFIS systems that are employed by the law enforcement 
community for even greater accuracy and control.
                       time & attendance systems
    Employers are always looking for ways to improve the recording and 
monitoring of employees time as they arrive at work, take breaks, and 
leave for the day. Someone ``punching in or out'' for someone other 
then themselves can deceive traditional ``time clocks''. The theft of 
``time'' costs companies millions of dollars annually. Replacing the 
traditional ``time clock'' with biometrics helps to prevent abuses of a 
companies time management system. Once an organization develops a 
biometric time and attendance system, there are many opportunities open 
to them for reporting, employee monitoring, or other management 
systems.
                       Biometric Market Potential
    Various organizations have devoted their resources to analyze the 
approximate size and velocity of the security market, including 
biometrics. The data varies, but the trend is consistent between all 
the studies--the biometric market is on a steep upward trend. Frost & 
Sullivan believes that the ``U.S. User Authentication Device Markets'' 
generated revenues of over $200 million in 1999 and predicts that the 
figure will reach $2.6 billion by 2006.
    The biometrics segment of the market is the most interesting and 
relatively new part of the security market. Up until the mid 1990's, 
the biometric market was almost non-existent commercially. Biometrics 
have become mainstream and more acceptable for a variety of government 
and commercial uses. Industry-wide standards are currently being 
developed, with participation from Microsoft, the International 
Biometric Industry Association (IBIA), BioAPI consortium, Intel and a 
host of other major players. Ultimately we will see the integration of 
biometric authentication technology into the next version of Windows, 
laptop computers, handheld computer devices, cell phones, and a host of 
other products thereby validating the technology and it application as 
a security tool.
                              ATTACHMENT 2
                                SUMMARY
    As the demand for higher security for both passenger and air travel 
support personnel increase, the need for an accurate, reliable, and 
secure method of authenticating people becomes core to the security 
process. Airlines are looking into various ways to ensure that they can 
still provide a high level of service to their customers, while 
providing secure passage. Convenience and security can now go hand-in-
hand by utilizing fingerprint technology to verify the identity of 
passengers and air travel personnel. Fingerprint technology can be used 
to authenticate passengers and airline representatives for commercial 
air travel. The use of fingerprint technology can ultimately be 
utilized for all aspects of travel from the initial reservation through 
baggage pick-up. A typical passenger authentication system can be 
easily deployed with proven biometric technology and available hardware 
and software systems. Figure 1 describes an overview of an airport 
authentication system.
                         Airport Authentication
    The goal of this program is to ensure that the passenger's identity 
is confirmed throughout the airport experience. Even the Security 
Checkpoint can provide another level of authentication at which point 
additional security measures can be accomplished with cooperation of 
state and federal agencies. Airport security checkpoints can be 
implemented with the use of smart travel cards, proximity cards, key 
cards, bar codes, or other products that support fingerprint data. The 
fingerprint template that was created at the airline ticket counter can 
be sent via the network to match against a database of known or 
suspected terrorists or criminals. The database of known or suspected 
terrorists or criminals would need to be maintained in cooperation with 
Federal and State agencies. Any positive match in this scenario would 
alert authorities of a potential security issue and the passenger would 
not be allowed to pass through the security checkpoint. With the rapid 
acceptance of smart card technology around the globe, airline travel 
security and convenience can be enhanced with the issuance of smart 
travel cards for frequent travelers. Smart card technology can also be 
implemented and would allow enhanced security for use in a variety of 
ways for travel, including obtaining boarding passes, checking baggage, 
picking up baggage, updating and providing frequent flyer information, 
providing credit card information and verification of identity to 
obtain boarding passes, board aircraft and at security checkpoints.
    The finger-image's strength is its user acceptance, convenience and 
reliability. It takes very little time and effort for somebody to have 
their finger-image scanned and compared. Finger-image identification is 
the least intrusive of all biometric techniques and one of the easiest 
to use. Whether protecting airline travel, social benefit programs from 
fraud, or preventing illegal immigrants from entering the country, the 
underlying strength of NEC's finger-imaging technology is its core 
algorithms and its ability to verify authorized access controls.
                     AIRPORT SECURITY APPLICATIONS
                        passenger authentication
    The use of fingerprint technology can ultimately be utilized for 
all aspects of travel from the initial reservation through baggage 
pick-up. A typical passenger authentication deployment is described in 
Figure 1 and listed below:

     1. The passenger enters the airport and proceeds to the ticket 
counter. The ticket agent will access the airline passenger reservation 
record and confirm the boarding details such as flight, gate and seat 
assignment. The ticket agent will also process checked luggage and 
other necessary preflight details. At this point the system prints a 
boarding card and any baggage receipts.
     2. The passenger will be asked to provide appropriate 
identification (state or other government issued photo identification, 
passport, etc.) and will be asked to place their finger on the 
fingerprint scanner. An image will be captured and processed into a 
fingerprint template. The ticket agent will then enter the flight 
number and gate code into the fingerprint scanner workstation. The 
fingerprint template that was just created will be sent via the network 
to the appropriate gate and stored in the cache of the fingerprint 
workstation at the gate. The use of this system should not impact the 
time it currently takes the airline ticket counter to process a 
passenger's ticket.
     3. The passenger will then proceed to the security check where 
they will be asked to provide appropriate picture identification and 
their boarding pass. After the security check, the passenger will 
proceed to their departure gate.
     4. At the departure gate and during the boarding process, 
passengers will hand their boarding pass to the ticket agent and then 
be asked to place their finger on the fingerprint scanner. The 
fingerprint workstation will capture a new finger-image and process it 
into a new fingerprint template and then conduct a search of the 
passenger database for a match on each passenger. If a match is found, 
the passenger will be allowed to board the plane. The finger image 
verifies the passenger's identity as the same person that received the 
boarding pass from the ticket agent. If a match is not found, then 
alternate identification methods will be deployed. This system will 
process the fingerprint data in seconds.
     5. Airline representatives will assign flight representatives to 
individual flights through a developed user interface. The flight 
representatives would be required to scan their finger prior to 
boarding the aircraft to ensure that they are employees of the airlines 
and that they are actually scheduled for the assigned flight.
     6. Passengers transferring from other flights will proceed to the 
appropriate departure gate where the process performed at the original 
ticket counter will be repeated for checking identification and 
capturing a fingerprint (Note: transferring passengers can be issued 
boarding passes with their fingerprint template stored on either a 
magnetic stripe, two dimensional barcode, or other supporting 
technology and not have to re-register at the gate prior to boarding). 
Each transfer would be handled as a separate event and require the 
passenger to show proper identification to the ticket agent and 
register their fingerprint prior to boarding. The fingerprint security 
system can be developed to automatically route the appropriate 
fingerprint templates to other airports and departure gates, as the 
infrastructure is developed to support this workflow.
     117. Passengers that already have reservations and would prefer to 
proceed directly to the boarding area to obtain their boarding pass may 
do so as current security regulations permit. The passenger would 
follow the same check-in procedures outlined for the ticket counter at 
the departure gate.
     8. Once the plane has arrived at its destination, the captured 
fingerprint templates that were used to verify the passenger's identity 
to board the aircraft would be purged from the respective airlines 
database.
                   security checkpoint authentication
    The Security Checkpoint can provide another level of authentication 
at which point additional security measures can be accomplished with 
cooperation of state and federal agencies.
     1. At the airline ticket counter, passengers will be asked to 
provide appropriate identification (state or other government issued 
photo identification, passport, etc.) and will be asked to place their 
finger on the fingerprint scanner. A finger-image will be captured and 
processed into a fingerprint template. The fingerprint template will be 
sent via the network to a matching server containing a database of 
known or suspected terrorists or criminals fingerprint templates and 
used to match against each passenger fingerprint template that was 
created during the ticketing process. The use of this system should not 
impact the time it currently takes the airline ticket counter to 
process a passenger's ticket. The database information will be passed 
to the security checkpoint system for authenticating passengers.
     2. The ticket counter representative will then provide to the 
passenger a smart travel card, proximity card, key card, bar code, or 
other product that supports finger-image data for use at the security 
checkpoint. Passengers will proceed to a gated or turnstile security 
checkpoint where they will be prompted to provide their smart travel 
card, proximity card, key card, bar code, or other product that 
supports finger-image data to an electronic reader. The passenger will 
then place their finger on a scanner where a new fingerprint will be 
captured and compared to the fingerprint on the smart travel card, 
proximity card, key card, bar code, or other product that supports 
fingerimage data that was provided at the ticket counter. All approved 
passengers (no match found in the database) fingerprint templates will 
be sent to the appropriate gate fingerprint system for confirmation of 
passenger boarding. If during the matching process on the known or 
suspected terrorist or criminal database, a match is found of a 
ticketed passenger and a record in the database, the security 
checkpoint system will be alerted.
     3. After the security checkpoint, the passenger will proceed to 
their departure gate. At the departure gate and during the boarding 
process, passengers will hand their boarding pass to the ticket agent 
and then be asked to place their finger on the fingerprint scanner. The 
fingerprint workstation will capture new finger-image and process it 
into a new fingerprint template and then conduct a search of the 
passenger database for that flight. If a match is found, the passenger 
will be allowed to board the plane. If a match is not found, then 
security will be deployed to resolve the issue. This process will take 
less time then it currently takes to confirm passenger's identity 
through traditional means.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                           travel smart cards
    Travel smart cards issued utilizing a unique numbering sequence 
similar to that adopted by Visa and MasterCard that identifies the 
individual's account and the issuing organization would provide added 
functionality over traditional frequent travel programs or conventional 
smart card programs. The unique numbering system would allow the travel 
smart cardholder to extend its use for authentication at any security 
checkpoint, ticket counter, kiosk, or departure gate. Frequent travel 
programs, affiliations and alliance members can use the same travel 
smart card instead of the traditional frequent travel program cards. 
This system also has the a potential for reduced costs through 
consolidated travel program management, program adoption, and increase 
the speed at which travelers could access services.
    By applying a unique numbering system to travel smart cards, 
frequent traveler programs could be streamlined, consolidated, and 
ultimately managed and issued by a third party organization and 
utilized by all organizations with frequent travel programs. The unique 
number assigned to an individual account would ensure that the 
associated fingerprint and account is registered only once in the 
record management system. This approach will allow for faster 
authentication for secure usage. The registration process would be a 
rigorous process to ensure the person's identity, credit card 
information, physical address, and biometrics (finger-image templates, 
and other) data are accurate and reliable. The travel smart card would 
become a trusted source of information when presented with a Personal 
Identification Numbers (PIN) and or biometrics (finger-image 
technology).
    The benefits of utilizing travel smart cards is that frequent 
travelers preferences could be embedded in the travel smart card along 
with the individual's descriptive information, travel requirements, 
issuing organization information, travel program affiliations and 
alliance information, credit card, other relevant information, and 
biometric (finger-image template) data. The travel smart card can be 
used in a variety of ways for travel, including obtaining boarding 
passes, checking baggage, picking up baggage, updating and providing 
frequent flyer information, providing credit card information, and 
verification of identity to obtain boarding passes, board aircraft, and 
at security checkpoints. A travel smart card would help to speed-up the 
transaction time it takes to confirm somebody's identity and process 
their transaction.
     1. A frequent traveler completes the registration process (paper-
based, web based, kiosks at travel locations, etc.) that includes 
descriptive information, choice of primary frequent traveler programs, 
secondary frequent traveler programs, travel preferences, credit card 
information (optional), and other information as subscribed or 
required. To add the biometric feature to the travel smart card, a 
frequent traveler will be asked to place their finger on the 
fingerprint scanner. A finger-image will be captured and processed into 
a fingerprint template. The fingerprint template will be captured to 
the travel smart card and also sent to a matching server containing the 
main database of known or suspected terrorists or criminals fingerprint 
templates. A check of the database will be conducted on a one-to-many 
(1:N) basis to ensure that every travel smart card cardholder is not 
represented in the known or suspected terrorist or criminal database.
     2. Since each travel smart cardholder has a unique number assigned 
to their account, any updates to the database of known or suspected 
terrorists or criminals fingerprints can easily be searched across the 
travel smart cardholders account. If a match is found, the appropriate 
authorities will be notified and the travel smart card would become 
invalid and placed on alert.
     3. Frequent travelers entering the airport will proceed to a 
kiosk, ticket counter, or directly to the assigned gate. At the gated 
or turnstile security checkpoint the passenger will be prompted to 
provide their smart travel card to the electronic reader. The passenger 
will then place their finger on a scanner where a new fingerprint will 
be captured and compared to the fingerprint on the smart travel card. 
All approved passengers (no match found in the database) will proceed 
to their appropriate gate.
     4. At the departure gate, the smart travel cardholder will obtain 
their boarding pass from the attendant by following the same check-in 
procedures outlined for the ticket counter. During the boarding 
process, passengers will hand their boarding pass to the ticket agent 
and then be asked to place their finger on the fingerprint scanner. The 
fingerprint workstation will capture a new fingerimage and process it 
into a new fingerprint template and then conduct a search of the 
passenger database for that flight. If a match is found, the passenger 
will be allowed to board the plane. If a match is not found, then 
security will be deployed to resolve the issue.
    4. Once the plane has arrived at its destination, the captured 
fingerprint templates that were used to verify the passenger's identity 
to board the aircraft would be purged from the respective airlines 
database.
                  additional airport security options
    Physical Access Control Throughout Airport
    Airlines Human Resource Systems
    Time and Attendance Systems
    Time and Attendance Systems integrated with Physical Access 
Controls

    Chairman Feinstein. Thank you very, very much. That was 
very helpful.
    Our final witness is Paul Collier. He is the Executive 
Director of the Biometrics Foundation. He is a founding member 
of the International Biometrics Industry Association and served 
on its board of directors for two years. He is here to speak 
about some of the technologies available to identify and 
capture terrorists before they enter this country and 
disappear.
    Please proceed, Mr. Collier.

 STATEMENT OF M. PAUL COLLIER, EXECUTIVE DIRECTOR, BIOMETRICS 
               FOUNDATION, GAITHERSBURG, MARYLAND

    Mr. Collier. Thank you, Madam Chairwoman and members of the 
subcommittee, for inviting me to be a part of this 
distinguished panel today. My testimony will focus on how the 
Federal Government has used biometric technology in the past 
and how the technology available today can offer a significant 
advance in controlling access at our borders and serve as an 
effective tool in our mission to combat terrorism.
    A biometric is a quantitative measurement of a unique human 
attribute or behavioral characteristic, such as fingerprints, 
face, voice, iris recognition, hand geometry, et cetera. Using 
fingerprints as an example, a finger is placed on a sensor and 
then scanned. The image of the fingerprint is then processed by 
a series of algorithms which convert it into a binary 
representation or template. This template is then compared to a 
reference template stored either on a computer or card-based 
storage data medium. Like most biometrics, you cannot reverse-
engineer this binary representation to re-create the scanned 
image.
    Further, biometric methodologies can be categorized as two 
types: contact and passive. A contact biometric is one that 
requires an individual to interact with or touch a sensor, such 
as fingerprint or a hand geometry scanner. A passive biometric 
is one that does not require any action on the part of the 
individual, such as facial recognition.
    Biometrics have been used in many civil and government 
programs worldwide for over 10 years. They have been very 
effective in reducing fraud, eliminating multiple identities, 
and securing access to sensitive areas. These wide-scale 
deployments have served as a real-world proving ground for this 
technology and involve many millions of people. Knowledge 
gained from these programs and applied to improvements and cost 
reductions helped produced many of the commercial products 
available today.
    Traditionally, the primary applications for biometrics in 
the Federal Government and military have been physical and 
logical access and fraud reduction programs. Though many 
successful pilots and proof of concept studies have been done, 
wide-scale deployment has been slow. A complete list of all the 
Federal Government and military applications would keep us here 
probably for several days, but I have highlighted a few 
examples.
    The U.S. Department of Defense initiated a real-time 
automated identification system, known as RAPIDS, and the 
Defense Enrollment and Eligibility Reporting System, DEERS, as 
its positive identification system for the Department of 
Defense for all active and retired military personnel. At the 
same time, they implemented a program known as Operation 
Mongoose which was designed to combat military retirement fraud 
primarily overseas.
    The Department of Defense also initiated a program known as 
the Biometric Identification System, or BIDS, which is actually 
an evacuation system that is deployed in South Korea that can 
be used in the event of our need to evacuate U.S. personnel 
from that theater. The National Security Agency uses it for 
access control to sensitive areas and systems.
    The Department of Energy has used biometrics for years to 
control access to nuclear plants. The Immigration and 
Naturalization Service's IDENT program which was discussed 
earlier, as well as their INSPAS program, is used to speed 
passengers through immigration screening.
    The Federal Bureau of Investigation uses biometrics for 
access control at the Clarksburg, West Virginia, facility; the 
General Services Administration for logical access to computer 
networks. The State Department--we have discussed the border 
crossing card project. The Secret Service initiated the 
Treasury Recipient Integrity Program, or TRIP, as an anti-fraud 
mechanism for recipients of Federal entitlement monies.
    In addition to projects such as these, both the Federal 
Government and military are in the process of evaluating and 
deploying commercial off-the-shelf biometrically-based log-on 
products to protect computers, networks and sensitive data.
    It should be noted that the Federal Government, in 
partnership with industry, has made a significant contribution 
to the evolution of biometric technology. Biometrics would not 
have advanced to their present level without the help of the 
Department of Defense, the National Security Agency, the 
Departments of Justice, Energy, Treasury, and the National 
Institute for Standards and Technology.
    Despite the fact that the United States has pioneered the 
development of many biometric technologies, we lag behind the 
rest of the world in their deployment. Many other countries use 
biometric authentication features in national identification 
cards, border-crossing documents, voter registration, drivers' 
licenses, et cetera.
    Domestically, some efforts have been made to incorporate 
biometrics into government-issued identification cards, but 
they have fallen short of realizing the full potential of the 
technology which was pointed out earlier today.
    An example: We have approximately 11 million drivers' 
licenses in the United States and 5 million border-crossing 
cards, almost, already issued which include biometric data. 
Currently, there are no systems in place to read the biometric 
data and authenticate the card-holders. The use of biometrics 
in the border entry application process would significantly--
    Chairman Feinstein. Excuse me. You are saying that there is 
this huge investment already in drivers' licenses and border-
crossing cards that have the biometric data on the card, but 
there is no system to read that?
    Mr. Collier. Correct. There are several companies that have 
produced products to do so, but the products have not been 
purchased and deployed by the government agencies, whether they 
be State or Federal.
    The use of biometrics in the border entry application 
process would significantly augment security when compared to 
current lookout list systems. Databases such as fingerprints 
and photographs already exist worldwide. Encoding biometric 
data in passports, visas, identification cards and other travel 
documents can provide positive identification of the bearer and 
speed the entry process, as was pointed out earlier.
    At the same time, passive biometric technologies such as 
facial recognition can play a significant role as a 
surveillance tool at our airports, ports of entry, and 
virtually any potential high-threat-condition facility or 
event. This technology is easily integrated into many existing 
surveillance camera systems, and unlike individual profiling, 
biometric technology is neutral, as opposed to a subjective 
assessment that is prone to human error.
    Biometrics alone are not a panacea, nor can any single 
biometric meet all application requirements. Successful 
applications require the selection of the proper technology 
that can be integrated into existing solutions. Biometrics 
offer great promise for a significant advancement in security, 
while protecting our privacy and maintaining a low impact on 
how we go about our daily activities, and play a significant 
role in our Nation's critical infrastructure, and have 
applications in virtually all aspects of our society.
    As an emerging technology, significant advances have been 
made in establishing industry standards--
    Chairman Feinstein. Could you wrap it up, Mr. Collier, 
because we need to move on?
    Mr. Collier. --and addressing issues of interoperability. 
The efforts of the Biometric Consortium, co-chaired by NSA and 
the National Institute of Standards and Technology, the 
International Biometric Industry Association, the Biometric 
Foundation and West Virginia University have all played an 
important role.
    In closing, for biometric technologies to realize their 
full potential will require an accelerated pace in the work of 
these institutions. In light of the events of September 11, 
wide-scale deployment of biometric solutions becomes more 
critical and time is of the essence.
    Thank you, Madam Chairman.
    [The prepared statement of Mr. Collier follows:]

     Statement of M. Paul Collier, Executive Director, Biometrics 
                   Foundation, Gaithersburg, Maryland

    Madame Chairman, members of the subcommittee, thank you for 
inviting me to be a part of this distinguished panel. My testimony will 
focus on how the federal government has used biometric technology and 
how technology available today can offer a significant advance in 
controlling access at our borders and serve as effective tool in our 
mission to combat terrorism.
    A biometric is quantitative measurement of a unique human attribute 
or behavioral characteristic such as fingerprints, face, voice, iris, 
hand geometry, etc. Using fingerprints as an example; a finger is 
placed on a sensor and then scanned. The image of the fingerprint is 
then processed by a series of algorithms, which convert it into a 
binary representation, or template. This template is then compared to a 
reference template stored either on a computer or card based data 
storage medium. Like most biometrics, you cannot reverse engineer this 
binary representation and recreate the scanned image.
    Biometric methodologies can be categorized as two types, contact 
and passive. A contact biometric is one that requires an individual to 
interact with or touch a sensor such as fingerprint or hand geometry. A 
passive biometric is one that does not require any action on the part 
of an individual such as facial recognition.
    Biometrics have been used in many civil and government programs 
worldwide for over ten years. They have been very effective in reducing 
fraud, eliminating multiple identities and securing access to sensitive 
areas. These wide-scale deployments have served as real world proving 
grounds for this technology and involved many millions of people. 
Knowledge gained from these programs and applied to improvements and 
cost reductions helped produce many of the commercial products 
available today.
    Traditionally, the primary applications for biometrics in the 
federal government and military have been physical and logical access 
control and fraud reduction programs. Though many successful pilots and 
proof of concept studies have been done, wide scale deployment has been 
slow.
    A complete listing of all federal government and military 
applications would be quite extensive, but a few examples of successful 
deployments are:
    US Department of Defense--Real-time Automated Identification System 
(RAPIDS) & Defense Enrollment and Eligibility Reporting System (DEERS) 
(positive identification)
    US Department of Defense--Operation Mongoose (military retirement 
anti-fraud)
    US Department of Defense--Biometric Identification System (BIDS) 
(evacuation system deployed in South Korea)
    National Security Agency--access control to sensitive areas and 
systems
    US Department of Energy--access control in nuclear plants
    Immigration and Naturalization Service--IDENT System (illegal entry 
control on our southwest border)
    Federal Bureau of Investigation--access control at Clarksburg, WV 
facility
    General Services Administration--logical access to computer 
networks
    US Department of State--Border Crossing Card Project
    US Secret Service--Treasury Recipient Integrity Program (TRIP) 
(anti-fraud)
    In addition to projects such as these both the federal government 
and military are in the process of evaluating and deploying commercial-
off-the-shelf biometric logon products to protect computers, networks 
and sensitive data.
    It should be noted that the federal government, in partnership with 
industry has made a significant contribution to the evolution of 
biometric technology. Biometrics would not have advanced to their 
present level without the help of the Department of Defense, National 
Security Agency, Department's of Justice, Energy, Treasury and the 
National Institute for Standards and Technology.
    Despite the fact that the United States pioneered the development 
of many biometric technologies, we lag behind the rest of the world in 
their deployment. Many other countries use biometric authentication 
features in national identification cards, border crossing documents, 
voter registration, driver's licenses, etc. Domestically, some efforts 
have been made to incorporate biometrics into government issued 
identification cards but they have fallen short of realizing the full 
potential of the technology. In example; we have approximately 11 
million driver's licenses and five million border crossing cards 
already issued which include biometric data. Currently, there are no 
systems in place to read the biometric data and authenticate the 
cardholders.
    For instance, the use of biometrics in the border entry application 
process would significantly augment security when compared to current 
``look-out'' list systems. Databases such as fingerprints and 
photographs exist worldwide. Encoding biometric data in passports, 
visas, identification cards and other travel documents can provide 
positive identification of the bearer and speed the entry process.
    At the same time, passive biometric technology such as facial 
recognition can play a significant role as a surveillance tool at our 
airports, ports of entry and virtually any potential ``high threat 
condition'' facility or event. This technology is easily integrated 
into many existing surveillance camera systems. Unlike individual 
``profiling'', biometric technology is neutral as opposed to a 
subjective assessment that is prone to human error.
    Biometrics alone is not a panacea, nor can any single biometric 
technology meet all application requirements. Successful applications 
require selection of the proper technology that can be easily 
integrated into existing solutions. Biometrics offer great promise for 
a significant advancement in security while protecting our privacy and 
maintaining a low impact on how we go about our daily activities. 
Biometrics can play a significant role in the protection of our 
Nation's critical infrastructure and have applications in virtually all 
aspects of our society.
    As an emerging technology, significant advances have been made in 
establishing industry standards and addressing issues of 
interoperability. The efforts of the government's Biometric Consortium, 
co-chaired by National Security Agency and the National Institute for 
Standards and Technology working with the General Services 
Administration, the International Biometric Industry Association, The 
Biometric Foundation, West Virginia University--Center for 
Identification Technology Research along with it's other academic 
partners and the member companies of the BioAPI Consortium have been 
instrumental bringing the industry to it's present level. To date, most 
of this work has been accomplished with little, or no funding from the 
government or outside institutions.
    For biometric technologies to realize their full potential will 
require an accelerated pace in the work of these institutions. In light 
of the events of September 11th, wide scale deployment of biometric 
solutions becomes more critical and time is of the essence.
    Thank you Madame Chairman
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Feinstein. Thank you very much. Let me thank 
everybody. I think the testimony was excellent.
    Mr. Ward, let me particularly thank you and your 
organization for really being helpful in this. However, I don't 
want you to think, because I sent that letter, that I don't 
believe that there should be a fee system and that the fees 
should be collected by the schools and sent into the 
government, because I do believe that. I think that is 
extraordinarily important for everybody to understand.
    I would like to go on to Mr. Doonan. I would like to ask a 
question and hopefully you will be able to give me some ball-
park answer, and that is the cost of implementing the programs 
recommended in your written statement. You recommend the 
implementation of three new programs--a biometric-enabled U.S. 
passport, a biometric-enabled port of entry system, and a 
biometric-enabled visa system.
    Do you have a ball-park estimate of the cost of 
implementing these systems, software and hardware?
    Mr. Doonan. It is really quite difficult. First of all, we 
would have to define how large is the database of suspected or 
known terrorists because you have to put their fingerprint 
records in it, and the size of the database, as you know from 
your experience in San Francisco, relates largely to the cost.
    Next, we would have to determine how quickly we could 
establish the biometrically-enabled documents because once you 
have that, the process of entering and leaving the country is 
really a one-to-one verification of the fingerprint and does 
not require much technical horsepower, if you will.
    The real problem comes from the visa waiver program, where 
you have large numbers of people that are crossing the border 
and you have to search every one of them against that known or 
suspected terrorist database. So until we were able to sit down 
with appropriate Government representatives and try to define 
the scope of this thing and have some implementation plan, it 
is very difficult to say.
    Now, I believe that Senator Bond had referenced recently 
$500 million. I would not quarrel with that number at all.
    Chairman Feinstein. What is the best biometric data to use? 
Our purpose here is not to present a problem for the legitimate 
citizen, but our problem is to get at the person that may, by 
virtue of his associations, his or her background, criminal 
record, cause harm to the United States. Is a fingerprint or is 
a facial I.D. the best biometric information for that purpose?
    Mr. Doonan. We are in the process of developing facial 
recognition technology. As Mr. Collier said, that is typically 
a passive biometric. The real issue is, on a one-to-one 
verification basis, that technology may be very reliable, but 
if you are searching a large database, I don't know that 
anybody has accurate statistics about how accurate it would be.
    The fingerprints have been historically the most acceptable 
biometric in terms of accuracy and availability. Also, on 
facial recognition, I guess I would be concerned if 19 people 
were willing to kill themselves to do what they did on 
September 11, they might be able to significantly change their 
facial profile and actually defeat the system.
    Chairman Feinstein. I remember conversations that I had 
with NEC about fingerprints and improving fingerprint 
technology. Has the state of the art advanced to the extent 
that a single print is now adequate?
    Mr. Doonan. We would probably recommend the storing of two 
fingerprints in the database, one because it gives you a backup 
in case the other one is damaged.
    Chairman Feinstein. It gives you what?
    Mr. Doonan. A backup in case one of them is damaged. Also, 
in terms of designing a system, if you have two fingers, it is 
less expensive to search the entire database than if you have 
one. So there are considerations, but in terms of accuracy on a 
one-to-one basis, you can be virtually given hundred-percent 
accuracy. When you are searching the database, it is in the 
very, very high 90-percent range.
    Chairman Feinstein. I would like to ask Mr. Collier this 
question: How would you compare the biometric systems used on 
the United States side of the border with that being used on 
the Canadian side?
    Mr. Collier. The Canadians have not deployed a full 
biometric system for controlling the border. They have a few 
systems designed for province-level identification cards, as 
well as, again, entitlement programs.
    Chairman Feinstein. Let me just stop you. It is my 
understanding Canada passed an anti-terrorism package of $91 
million that includes $8 million for some 65 fingerprint 
scanners to be set up at high-risk border crossings. That is 
essentially what I am talking about.
    Mr. Collier. I don't believe they have deployed yet. I was 
in a conversation actually with someone last week and I 
understand that they were looking to the United States to see 
what we were going to do first.
    Chairman Feinstein. I see.
    Senator Kyl has to leave, so I would like to defer to him.
    Senator Kyl. Thank you very much, and I will just tell you 
I have to leave here in about 6 or 7 minutes.
    First of all, thank you. Mr. Camarota, you had some very 
good suggestions. David Ward, let me ask you just a couple of 
questions and then I have a general question regarding the same 
subject we were just discussing, the digital facial versus 
fingerprint.
    Just to give us a point of reference, at the University of 
Wisconsin what is the out-of-state tuition that a foreign 
student would pay?
    Mr. Ward. Well, last year it would have been about $14,000 
and this year it is going to be $18,000.
    Senator Kyl. When does the--
    Mr. Ward. Senator, if I could interrupt, many of these 
students do get teaching assistants or scholarships that help.
    Senator Kyl. Sure, sure. I am just trying to get a rough 
idea.
    When would they pay their tuition, or at least a part of 
it?
    Mr. Ward. As they register.
    Senator Kyl. Okay. One of the concerns that you expressed 
about the INS approach to a fee--and I agree with Senator 
Feinstein that the student and the university have to bear part 
of the expense, just like American businesses do. For someone 
that they bring in to assist them, they pay a pretty healthy 
fee for that, and I don't think that is unreasonable to ask 
these students to do.
    You have said the plan would seriously undermine the 
ability of most foreign students to enroll at American 
colleges, and I think that may be a little overstated. You say 
the plan would require students to pay using either the 
Internet, a credit card or American dollars, and many 
international students don't have access to credit cards, 
American dollars or the Internet.
    Now, it seems to me that anybody that is going to be coming 
to the United States could easily get access to American 
dollars. I mean, they are going to be in a country where you 
can exchange whatever they have for American dollars.
    In any event, if that is too hard, there is nothing to 
prohibit the university from paying the fee and then collecting 
it from the student once they arrive. Of course, they are 
obviously going to be good credit risks or you wouldn't have 
them come.
    So I think it would be helpful to us for you to work out a 
system that would be easiest for universities and other schools 
to implement, least cost, most efficient, and share that with 
us, because nobody wants to impose something that is not going 
to work. Come up with an idea that will work, with the 
assumption that there has to be some expense borne by the 
student and the institution.
    Mr. Ward. Could I ask my colleague if he has any reaction? 
He is on the front line of--
    Senator Kyl. Sure, but may I do this? I apologize for this, 
but unfortunately I have a live radio interview I have to do 
and I have to leave here in just a minute, but we would 
appreciate anything in writing. Give us a call, stop by and 
visit, or just any ideas you have, because I am sure you can 
come up with something that we can make work. So thank you.
    To any of the rest of you here, we have different needs. 
Both Senator Feinstein and I, and actually Senator Cantwell as 
well, want to make it very easy for people to get back and 
forth, because we are all from border States and for commerce 
and all the other reasons we are for that.
    Secondly, we know that there are different needs here. We 
have photographs of a lot of terrorists, but we don't have 
fingerprints. So even though a fingerprint system may be best 
for most honest people and Americans and a lot of people coming 
in here from foreign countries, it may not work best for the 
one thing we are really focusing on here, and that is the 
terrorist.
    So given that question and the fact that you have existing 
databases that are very large with certain kinds of systems, 
what would you recommend? Is it possible to make different 
kinds of systems work together, or does there have to be one 
integrated system? What would you recommend in that regard?
    Mr. Collier. Senator Kyl, the good news is that the 
Biometric Consortium and the National Institute for Standards 
and Technology and their standards efforts have come up with a 
common biometric exchange file format. That would allow you to 
put either multiple or layered biometrics of many types on a 
single document or in a single database that would give you the 
groundwork for interoperability.
    Additionally, most biometrics have small, reduced template 
sizes for one-to-one verification. That means it is not a real 
estate issue anymore with the amount of data storage you have 
got either on a card or in a database.
    Senator Kyl. And is that going to be readable? The problem 
we have understood here is that you can have the fraud-proof 
document, perhaps, but we don't have the readers.
    Mr. Collier. Well, there are readers out there. Fingerprint 
readers have actually, I think come down inexpensively for 
smart card applications. Some of the card technologies, 
however, require a much more expensive reader. The laser card 
that was mentioned earlier--a reader for that device that I had 
viewed some time ago was over ten times as much as it would 
cost to have done that with a smart card.
    Senator Kyl. Given that we are concerned here about quickly 
getting something in place that will work as best as we can 
make it work, and efficiencies are important here--we don't 
want to break the bank on it--are you saying that we could 
quickly put together a relatively inexpensive system that has 
the multiple features to it and have readers available for 
that?
    Mr. Collier. It can be done, yes, sir.
    Chairman Feinstein. Would that system be a smart card 
system? What would that system be?
    Mr. Collier. That would be the cost issue, Senator. Smart 
card reader technology is much less expensive than, say, an 
optical card reader or a two-dimensional bar code card reader. 
For instance, the raw components to make a smart card reader 
are under $20. The raw components to make a two-dimensional bar 
code reader are under $500. The system, again, that I viewed as 
prototypical for a laser card was almost $4,000 and as big as 
two bread boxes.
    The other thing is where it is going to go. I mean, if you 
are going to put it in a turnstile, it is very doable, doable 
tomorrow with smart card technology and fingerprints or hand 
geometry, or even iris scanning. The card is really the issue 
more than the biometric is.
    Senator Kyl. May I just say thank you? I have got to run 
right now. Thank you, all of you, for helping us out today.
    Chairman Feinstein. Thanks, Jon, very much.
    Mr. Doonan. As the ambassador pointed out this morning, the 
real key to protecting against terrorism is having the database 
that has known or suspected terrorists in it. The general 
public crossing the borders--you could identify them and 
validate that identity as they move. The terrorist portion is 
probably less than 1 percent of the actual people you are 
talking about.
    So the real challenge is sharing intelligence information 
between national and international law enforcement agencies. 
Somebody mentioned that most of these people have been arrested 
or fingerprinted at some point. It is a matter of collecting 
the biometric, whether it is a facial photograph that can be 
reliably matched or a fingerprint, and building that database 
so that the agencies that have to access it can do it.
    Mr. Camarota. One thing I wanted to add real quickly is 
that it might be important as soon as possible to start 
gathering fingerprints on all visa applicants, and part of the 
reason to do that is simply the deterrent effect. If you are 
considering coming to the United States to do harm, you are 
probably going to be very reluctant to give us all your 
fingerprints, as well as your photo, and so forth. So that 
could be very useful even if every component of the system is 
not entirely in place immediately.
    Mr. Spadorcio. Madam Chairman, may I add one other quick 
thing?
    Chairman Feinstein. Yes, please, and then I am going to go 
to Senator Cantwell.
    Mr. Spadorcio. I think the wise decision is really not to 
look at this as a an either/or, either fingerprints or facial 
or other biometric standards. I think the reality is which 
biometric fits the situation best for what you are trying to 
accomplish. The technology is moving in a direction that 
ultimately we will have multiple biometrics that we will be 
using in smart card approaches or other types of environments. 
So I think it really is what is the best technology to solve a 
particular problem.
    Chairman Feinstein. And what do you advise is the best 
technology to solve our particular problem?
    Mr. Spadorcio. Well, I really think it is probably two-
fold. I think facial does a real good job for surveillance 
where you can actually passively scan crowds and look and see 
if you find somebody that matches the database. Fingerprints 
are absolutely wonderful for quick confirmation and 
authentication. So they both serve a little bit of a different 
purpose there, and I think you would almost want to do it in 
combination because you have two different means you are trying 
to serve.
    Chairman Feinstein. And so you could do both of those in a 
smart card?
    Mr. Spadorcio. Not necessarily in a smart card. Airports 
could introduce facial recognition systems that scan the crowd 
that are entering the airport. That is one way to do that. The 
smart card would be a great application for fingerprints for 
entry in and out of systems to verify identity.
    Chairman Feinstein. Thank you.
    Senator Cantwell?
    Senator Cantwell. Thank you, Madam Chair.
    Just to follow up on that line of questioning, I think it 
is important to note that the State Department has the ability 
to require fingerprints now, but they don't, on a standard 
basis. So the question becomes implementing that system and 
then integrating the databases.
    Madam Chairman, I think the most successful Fortune 500 
companies in our country even focused on information systems 
would find this problem before us challenging, not so much from 
the technology perspective but from the policy perspective of 
creating a standard--and I want to get to that question for Mr. 
Collier in a second about how do you do that on an 
international basis because once we develop this, we are not 
just talking about us--and then the coordination and 
decisionmaking between these various agencies.
    So I think our panelists are pointing out quite 
specifically how the technology exists. It is a matter of us 
making decisions and then creating what layers of the database 
we want to have accessed by various people.
    If I could, Mr. Doonan, I wanted to ask you about your 
specific fingerprint technology. What law enforcement are you 
currently working with now on your--what clients are you 
working with now on your fingerprint system?
    Mr. Doonan. We have about 34 systems in North America. The 
largest is the State of California that has a database of 
nearly 14 million fingerprints. We have the seven Western 
States that are in a consortium to share data amongst 
themselves. We have the State of Texas, the State of Illinois, 
Michigan, Virginia, Georgia, Pennsylvania. We have municipal 
systems throughout the country that all interact with the State 
that they are resident in. Virtually all of our State systems 
interact with IAFIS to send the electronic fingerprint record 
of an arrested person or an applicant to the FBI.
    Senator Cantwell. Are you involved with driver's license 
records or not?
    Mr. Doonan. Actually, we are doing some preliminary testing 
of drivers' records.
    Senator Feinstein, you seemed a little shocked that people 
would collect biometrics and not use them. Unfortunately, the 
State of California has about 30 million fingerprints that they 
collect for all their drivers, but they are never matched 
against anything.
    Senator Cantwell. What is your technology called?
    Mr. Doonan. The Automated Fingerprint Identification 
System. It basically matches the unique characteristics of the 
fingerprint against a database of any size.
    Senator Cantwell. And you have a patent of that technology?
    Mr. Doonan. Our technology. All of the AFIS vendors, their 
technology is proprietary, the actual matching algorithm. The 
interoperability between systems is achieved by utilizing what 
is called a NIST standard, the National Institute of Standards 
and Technology. We transmit image data that has been pre-
defined in a standard format so that the different vendors can 
read and access their own databases on an image basis.
    Senator Cantwell. And only you have access to that 
algorithm, only NEC, or do NEC customers have access?
    Mr. Doonan. NEC customers use our algorithm to do the 
matching.
    Senator Cantwell. But I mean the code, the source code.
    Mr. Doonan. The source code is an NEC proprietary, just 
like it is for any other AFIS vendor.
    Senator Cantwell. Mr. Collier, you represent a group of 
businesses who are involved, but you are also a member of the 
consortium which has NIST and others involved, is that correct?
    Mr. Collier. Correct.
    Senator Cantwell. And they are trying to establish this 
standard, somewhat like the W3C or IETF would come up with a 
standard that the industry can optimize around or use as a 
standard to build their various platforms. Is that right?
    Mr. Collier. Yes. We have been engaged in standards 
development for some time, but it should be noted that the 
biometric industry has done a phenomenal job in putting 
together a consensus to arrive at standards both for exchange 
and interoperability of data.
    We have currently the standard I mentioned earlier known as 
CBEFF, which is the Common Biometric Exchange File Format; the 
Bio API, which is primarily geared to the computer industry, 
which was one reason I think the biometric industry was 
motivated to move forward quickly because you can't play in 
that arena without standards.
    X-984 is our current ANSI standard for fingerprints, and 
you did mention a minute ago about how does that roll into an 
international standard. That is actually being taken to the 
International Standards Organization, ISO, at this time. That 
governs all of our bank cards and how biometrics would be 
stored on a credit card or an ATM card.
    Senator Cantwell. But ISO is only focusing on private 
sector adoption, or is there a government involvement?
    Mr. Collier. There are government standards and guidelines, 
Senator, that are adopted by both commercial and government 
entities. NIST is an umbrella organization for the development 
of those standards. B10.8, which is another ANSI standard, 
affects drivers' licenses and credential-type applications. 
That, too, will move to an ISO standard. So the United States 
is leading the world in establishing international standards.
    Senator Cantwell. My question was about the international 
organizations. How do we get support from the Canadian 
government and others? Our system will only be as good as the 
protection that our allies will also give us, and while we are 
having lots of discussions with them on cooperation in our 
battles overseas, I think we should be having discussions with 
them about our cooperation on our various visa programs so that 
someone doesn't, like in the Ressam case, enter into Canada and 
then create more falsified information and enter the United 
States.
    So is there a successful forum right now for that 
international dialogue as it relates to governments? Do we need 
to charge someone here within the administration to make sure 
that that dialogue is elevated to the level that it needs to 
be?
    Mr. Collier. I think the best place for that to take place 
would be at the Biometric Consortium of the U.S. Government, 
which is led by the National Security Agency and the National 
Institute for Standards and Technology. They have been at this 
the longest and they have established cooperative efforts with 
other similar bodies overseas in the European Union as well as 
Asia. I don't know if the creation of a separate entity 
specifically aimed at standards would be necessary.
    Senator Cantwell. My question is how do we make sure that 
this gets elevated to the level--I am glad to hear that you 
think that we are having success there, so I would take it that 
you mean you think we are getting European cooperation.
    Mr. Collier. Certainly, the groundwork have been laid for 
that and several meetings have been held for that. The 
Biometric Foundation and the International Biometric Industry 
Association also foster these relationships with other 
standards bodies overseas.
    I think the change of importance of biometrics moving 
forward quickly with relevance to international standards is 
here on the front burner now. The activities of the agencies 
and organizations and institutions that I named have been 
terribly underfunded, with little or no funding for the past 10 
years.
    If they are expected to accelerate their pace and to bring 
about a consensus and that is going to require them to bear the 
burden of the expense of doing that, then that might be helpful 
as something that the Government could do.
    Senator Cantwell. Thank you. I see my time is up.
    Chairman Feinstein. Thanks, Senator.
    Mr. Doonan, one of the most helpful things we have, I 
think, is this because I can actually understand it, this 
application process for biometrics-enabled passports and visas. 
You have one which is a central database of known or suspected 
terrorists, and you have one that is a passport/visa management 
database. Then you have the non-biometric-enabled passport with 
a central database of known or suspected terrorists.
    Does all of that get entered into one database, or do they 
remain as discreet databases?
    Mr. Doonan. Well, the known terrorist database typically 
would probably be a relatively small database; we are thinking 
250,000 to 500,000. When a person applies for a visa or a 
passport, that fingerprint would be searched against that 
database to see if they enrolled. If they are enrolled, of 
course, you are not going to issue--
    Chairman Feinstein. And that would have intelligence 
information, as well as criminal records?
    Mr. Doonan. Yes. It may not have a fingerprint. It may have 
intelligence information that the ambassador spoke about.
    Chairman Feinstein. Right.
    Mr. Doonan. But it would be one database that national and 
international agencies could register data to. If the person 
applied and you identified them in some fashion, or suspected 
you identified them, you, of course, would not issue the 
document and you would notify the appropriate authorities.
    If you did not identify them, you would enroll them then 
not in the terrorist database, but in a management database 
that then would allow you to manage--once the visa is issued, 
you would be able to manage the time frame that the person is 
supposed to be in the country. You would be able to scan their 
fingerprint when they left the country to know that they were 
out of the country.
    For the student visa program, we would suggest a Web-
enabled, inexpensive capability for the institution to be able 
to take a fingerprint when a person enrolled and confirm to 
that database that, in fact, they are a student enrolled in a 
university in the United States.
    So the real problem is establishing a database of known 
terrorists and then establishing or moving from our current 
legacy system, where there is no biometric associated with 
millions of documents, and over time changing that so that we 
actually know who is in the country and we know that, in fact, 
the person holding that passport and that visa is who they say 
they are and the document was issued under the proper 
authority.
    Chairman Feinstein. Well, that is very interesting and it 
appears to be very doable.
    Mr. Doonan. It is quite doable.
    Chairman Feinstein. If you or any company were to come in 
and say we can do this for you, Federal Government, for all 
your agencies, what would be the length of time it would take 
to get that database, particularly with respect to terrorists, 
which is what we are interested in?
    Mr. Doonan. Of course, not being in the intelligence 
community, it is hard for me to say, but certainly we would 
work with all those agencies.
    Chairman Feinstein. Take your field, which is about 
250,000, let's say.
    Mr. Doonan. Well, establishing the database shouldn't take 
a few months, I wouldn't think. Identifying the data to put in 
the database should not be that difficult. The total 
implementation of this system and the maintenance system 
literally is a project that would never stop because you have 
to transition from a current situation where none of our 
documents are biometrically-enabled. And if you have 20 million 
or 25 million documents, through the normal attrition process 
or renewal process it would take years to actually do it.
    But I don't think you have to look at that as something 
that is taking too long because if you establish the database 
and focus on the visa program, where the problem seems to be, I 
think a system could be operational and contain most of the 
problem literally within months or a little over a year, a few 
years, something like that.
    Chairman Feinstein. And you would use the systems that 
exist--IDENT, IAFIS, all of the other systems that are being 
put in place?
    Mr. Doonan. No, I would probably not recommend trying to do 
that. These systems are too large. They serve a different 
function. They are not anti-terrorist systems. They are large-
scale identification systems. The interface between them is 
certainly something that is desirable, but I don't truly know 
how doable that would be.
    Chairman Feinstein. Truly what?
    Mr. Doonan. I don't know how doable that would be.
    Chairman Feinstein. In other words, these stovepipes that 
people spoke about, you don't think they could interrelate? Is 
that what you are saying?
    Mr. Doonan. Well, I don't have any specific information 
about those stovepipes. I am just saying that building a system 
like that and having that full integration is going to be a 
very difficult task.
    Chairman Feinstein. So it is easier to begin just with an 
identifiable system aimed at getting at this world of terrorism 
and who might be associated with that world?
    Mr. Doonan. Focus on the problem; that is, the terrorist 
problem.
    Chairman Feinstein. Now, just for that system, do you have 
any sense of cost?
    Mr. Doonan. Well, again, the database--
    Chairman Feinstein. Unless, of course, NEC, like Oracle, 
wants to do it for nothing.
    [Laughter.]
    Mr. Doonan. Where is Larry Ellison when you need him?
    The FBI system was $400 million. Somebody earlier said $40 
million. It was actually $400 million.
    Chairman Feinstein. I said that. I had the wrong 
information. Thank you.
    Mr. Doonan. Again, the real problem is the number of times 
you have to search that database. Quite honestly, the biggest 
problem is the visa waiver program, the number of people that 
are coming into the United States that have not pre-applied for 
a visa, to have that searched against the database.
    Again, I mentioned earlier the $500 million that Senator 
Bond had quoted. I would not quarrel with that number at all. 
It could easily be that, or more, but it would work.
    Chairman Feinstein. Thank you.
    Does anyone have a last comment? I have found this very 
illuminating in a number of different respects, and very 
helpful. I think we know where we have to go.
    Mr. Doonan. Well, simply, NEC would like to thank yourself 
and the members for giving us the opportunity to speak with 
you. We are committed to the technology, we are committed to 
our country and company. Again, I would like to repeat the 
offer that if you would like us to bring an operational system 
here, it doesn't take a lot of room and we would be happy to 
bring it in and demonstrate that the technology does currently 
exist for yourselves, members and your staff.
    Chairman Feinstein. Well, I would like to take you up on 
that offer.
    Mr. Doonan. We will follow up with your staff.
    Chairman Feinstein. We will set something up.
    Thank you all very, very much. Thank you for coming. The 
testimony has been excellent.
    Thank you, ladies and gentlemen, for your attention.
    The hearing is adjourned.
    [Whereupon, at 1:00 p.m., the subcommittee was adjourned.]
    [Submissions for the record follow.]

                       SUBMISSIONS FOR THE RECORD

Statement of Ted Goode, Director of Services for International Students 
     and Scholars, University of California at Berkeley, Berkeley, 
                               California

    All schools approved to issue I-20's are aware of the regulatory 
and statutory requirements to collect and maintain information on 
foreign students as specified in the regulations. Reporting to INS has 
been and remains an expectation by schools. The interface between 
schools and INS to accomplish the transfer of information has changed 
over the years. In the `70's schools sent to the local INS office a 
part of the I-20 document (a small card) to report a student's end of 
program. In the `80's INS was instructed to collect and maintain a 
larger amount of information on each student and in response created a 
computer based information system. INS collected the required 
information at the time of arrival in the U.S. and entered the 
information in a database. Schools were asked to review, verify and/or 
correct a report of students at that school prepared by and returned to 
INS. INS soon concluded that the system was neither efficient nor 
effective. The SEVIS electronic information system is the most recent 
attempt by INS to construct a system to collect and maintain required 
information. Schools have been prepared and remain prepared to be a 
partner with government to facilitate implementation of an efficient, 
effective and useful information system. Using the capability of 
current technology is clearly the way this objective should be met. A 
carefully crafted system that provides timely and accurate information 
is of interest to both schools and government. To ensure the success of 
such a system it must be user friendly for schools and government, 
usable across all computer platforms, and it must be reliable. I am 
confident that SEVIS can be crafted into this type of system through a 
close partnership between schools and government. The University of 
California supports Senator Feinstein's request to President Bush for 
the designation of 36.8 million to implement SEVIS. Appropriations to 
cover final development, implementation and maintenance must be 
sufficient to achieve this important goal.
    The University of California appreciates your strong interest, 
support and leadership, Senator Feinstein, on this important issue. The 
University looks forward to the opportunity of close cooperation with 
you and your staff on this and other issues related to higher 
education.

                                <F-dash>

    Immigration and Naturalization Service, Department of Justice, 
 Washington, DC, visa information on terrorist hijackers of September 
                                11, 2001

    The Immigration and Naturalization Service (1NS) compiled this 
information based on material provided by the FBI. Where applicable, 
known variations of common surnames were also checked. For some names 
(numbers 7 and 19 below), several name matches were found with 
different dates of birth, but INS was able to confirm admission as a 
nonimmigrant. In other cases (numbers 12 and 14-16), several name 
matches were found with different dates of birth, but INS was not able 
to confirm any information concerning those individuals.
    (1) Khalid Al-Midhar was admitted to the United States as a 
nonimmigrant visitor in July, 2001. He appears to have been in lawful 
status on September 11, 2001.
    (2) Majed Moqed was admitted as a nonimmigrant visitor in May, 
2001. He appears to have been in lawful status on September 11, 2001.
    (3) Nawaq Alhamzi was admitted to the United States as a 
nonimmigrant visitor in January, 2000. He appears to have overstayed 
the period of authorized time and was out of legal status on September 
11, 2001.
    (4) Salem Alhamzi was admitted as a nonimmigrant visitor in June, 
2001. He appears to have been in lawful status on September 11, 2001.
    (5) Hani Hanjour was admitted as a nonimmigrant student in 
December, 2000. We are unable to determine at this time whether this 
subject was in lawful status on September 11, 2001.
    (6) Satam A1 Suqami: We are unable to find any record relating to 
this name
    (7) Waleed M. Alshehri was admitted in June, 2000 as a 
nonimmigrant, and appears to have been in illegal status on September 
11, 2001.
    (8) Wail Alshehri: We are unable to find any record relating to 
this name,
    (9) Mohamed Atta was admitted as a nonimmigrant visitor in July, 
2001 and appears to have been in legal status on September 11, 2001.
    (10) Abdulaziz Alomari is believed to have been admitted as a 
nonimmigrant visitor in June, 2001, He appears to have been in lawful 
status on September 11, 2001.
    (11) Marwan Al-Shehhi was admitted as nonimmigrant visitor in May, 
2001 and appears to have been in lawful status on September 11, 2001.
    (12) Fayez Ahmed: We are unable to confirm any relating record 
based on current information available.
    (13) Ahmed Alghamdi is believed to have been admitted as a 
nonimmigrant student and appears to have overstayed his authorized 
period of time in the United States before September 11, 2001.
    (14) Iiamza Alghamdi: We are unable to confirm any relating record 
based on current information available.
    (15) Mohald Alshehri: We are unable to confirm any relating record 
based on current information available.
    (16) Saeed Al ghamdi: We are unable to confirm any relating record 
based on current information available.
    (17) Ahmed Alhaznawi was admitted as a nonimmigrant visitor in 
June, 2001 and appears to have been in legal status on September 11, 
2001.
    (18) Ahmed Alnami was admitted as a nonimmigrant visitor in May, 
2001 and appears to have been in legal status on September 11, 2001.
    (19) Ziad Jarrahi was admitted to the United States as a 
nonimmigrant in July, 2001 and appears to have been in legal status on 
September 11, 2001.

                                <F-dash>

 Statement of Hon. Patrick J. Leahy, a U.S. Senator from the State of 
                                Vermont

    I am pleased that Senator Feinstein is holding this hearing on a 
critical matter of concern. After the events of September 11, no one 
can doubt that we need to do a better job of preventing terrorists from 
entering our nation, and this hearing will provide valuable options for 
the Senate to consider. I would like to thank all of our witnesses for 
their testimony today. In particular, I would like to welcome 
Commissioner Ziglar, who has certainly endured a baptism by fire over 
the last month.
    First, I would like to point out that one of the major security 
issues we face involves our border with Canada. The USA Act, the 
bipartisan anti-terrorism legislation that I co-sponsored and the 
Senate approved Thursday night by a vote of 96-1, includes important 
provisions that protect the chronically understaffed northern border. 
While the number of border patrol agents along the southern border has 
increased over the last few years to more than 8,000, the number at the 
northern border has remained the same as a decade ago at 300. This 
remains true despite the fact that Admad Ressam, the Algerian who 
planned to blow up the Los Angeles International Airport in 1999, and 
who has been linked to those involved in the September 11 attacks, 
chose to enter the United States at our northern border. It will remain 
an inviting target until we dramatically improve our security.
    The USA Act triples the number of Border Patrol, INS inspectors, 
and Customs Service employees in each of the States along the 4,000-
mile northern border. I was gratified when 22 Senators--Democrats and 
Republicans--wrote to the President supporting such an increase, and I 
am pleased that the Administration agreed that this critical law 
enforcement improvement should be included in the bill. Senators 
Cantwell and Schumer in the Committee and Senators Murray and Dorgan 
have been especially strong advocates of these provisions and I thank 
them for their leadership. Now more than ever, we must patrol our 
border vigilantly and prevent those who wish America harm from gaining 
entry. At the same time, we must work with the Canadians to allow 
speedy crossing to legitimate visitors and foster the continued growth 
of trade that benefits both countries.
    Beyond increasing security at our northern border, we need to take 
additional steps to protect our country. For example, we need to 
enhance information sharing between our intelligence agencies and the 
agencies that determine who gets into the United States--the State 
Department and the INS. The USA Act gives the State Department and INS 
access to the FBI's National Crime Information Center database, but we 
must go further to enhance the sharing of information from other 
agencies.
    We also must make sure we develop the best possible biometric 
technology to identify potential terrorists entering the United States, 
such as facial recognition or fingerprint systems. The USA Act includes 
a section requested by Senator Cantwell that requires the Attorney 
General to report to Congress on the feasibility of enhancing FBI's 
Integrated Automated Fingerprint Identification System and other 
identification systems to better identify people with foreign passports 
or visas who may be wanted in connection with criminal investigations 
in the US or abroad.
    In short, we need to examine the methods the State Department and 
the INS use to prevent terrorists from entering the United States, and 
provide those agencies with the enhanced resources they may need. We 
should also remember that although we need to call those agencies to 
make necessary improvements, they cannot bear all of the burden. To 
prevent future terrorist attacks, we must improve our intelligence-
gathering capabilities, and make sure that intelligence about potential 
terrorists is shared with necessary actors throughout the government.
    I am glad that Senator Feinstein is shedding light on these issues 
through this hearing, and I am very interested in hearing the testimony 
of today's witnesses.

                                <F-dash>

                                         Oracle Corporation
                                        Redwood Shores, CA,
                                                   October 11, 2001
The Honorable Diane Feinstein
United States Senate
Washington, DC 20005
    Dear Dianne:
    It was great to see you see you yesterday. I enjoyed our 
conversation about a voluntary national ID system and the way different 
government agencies can share information to better protect our 
national security.
    Oracle takes seriously our responsibility in these difficult times. 
As we discussed, Oracle is prepared to provide, free of charge, the 
Oracle software licenses for both testing and production of a complete 
national identification database.
    I look forward to staying in close contact with you on these and 
other ideas as we all work to recover from the horrifying events of 
last month

            Sincerely,

                                              Larry Ellison
                               Chairman and Chief Executive Officer

                                   - 

</pre></body></html>
